<html>
<title> - THE JOINT PLANNING AND DEVELOPMENT OFFICE AND THE NEXT GENERATION AIR TRANSPORTATION SYSTEM: STATUS AND ISSUES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                   THE JOINT PLANNING AND DEVELOPMENT
                   OFFICE AND THE NEXT GENERATION AIR
                TRANSPORTATION SYSTEM: STATUS AND ISSUES

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 29, 2007

                               __________

                           Serial No. 110-18

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.house.gov/science

                                 ______


                     U.S. GOVERNMENT PRINTING OFFICE

34-184 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
MARK UDALL, Colorado                 LAMAR S. SMITH, Texas
DAVID WU, Oregon                     DANA ROHRABACHER, California
BRIAN BAIRD, Washington              KEN CALVERT, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
NICK LAMPSON, Texas                  FRANK D. LUCAS, Oklahoma
GABRIELLE GIFFORDS, Arizona          JUDY BIGGERT, Illinois
JERRY MCNERNEY, California           W. TODD AKIN, Missouri
PAUL KANJORSKI, Pennsylvania         JO BONNER, Alabama
DARLENE HOOLEY, Oregon               TOM FEENEY, Florida
STEVEN R. ROTHMAN, New Jersey        RANDY NEUGEBAUER, Texas
MICHAEL M. HONDA, California         BOB INGLIS, South Carolina
JIM MATHESON, Utah                   DAVID G. REICHERT, Washington
MIKE ROSS, Arkansas                  MICHAEL T. MCCAUL, Texas
BEN CHANDLER, Kentucky               MARIO DIAZ-BALART, Florida
RUSS CARNAHAN, Missouri              PHIL GINGREY, Georgia
CHARLIE MELANCON, Louisiana          BRIAN P. BILBRAY, California
BARON P. HILL, Indiana               ADRIAN SMITH, Nebraska
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
                                 ------                                

                 Subcommittee on Space and Aeronautics

                  HON. MARK UDALL, Colorado, Chairman
DAVID WU, Oregon                     KEN CALVERT, California
NICK LAMPSON, Texas                  DANA ROHRABACHER, California
STEVEN R. ROTHMAN, New Jersey        FRANK D. LUCAS, Oklahoma
MIKE ROSS, Arizona                   JO BONNER, Alabama
BEN CHANDLER, Kentucky               TOM FEENEY, Florida
CHARLIE MELANCON, Louisiana              
BART GORDON, Tennessee                   
                                     RALPH M. HALL, Texas
              RICHARD OBERMANN Subcommittee Staff Director
            PAM WHITNEY Democratic Professional Staff Member
            KEN MONROE Republican Professional Staff Member
            ED FEDDEMAN Republican Professional Staff Member
                    DEVIN BRYANT Research Assistant


                            C O N T E N T S

                             March 29, 2007

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Mark Udall, Chairman, Subcommittee on 
  Space and Aeronautics, Committee on Science and Technology, 
  U.S. House of Representatives..................................    13
    Written Statement............................................    14

Statement by Representative Ken Calvert, Minority Ranking Member, 
  Subcommittee on Space and Aeronautics, Committee on Science and 
  Technology, U.S. House of Representatives......................    50
    Written Statement............................................    51

                               Witnesses:

Mr. Charles A. Leader, Director, Joint Planning and Development 
  Office, Federal Aviation Administration (FAA)
    Oral Statement...............................................    16
    Written Statement............................................    17
    Biography....................................................    22

Dr. Gerald L. Dillingham, Director, Physical Infrastructure 
  Issues, Government Accountability Office
    Oral Statement...............................................    22
    Written Statement............................................    24

Hon. John W. Douglass, President and CEO, Aerospace Industries 
  Association of America
    Oral Statement...............................................    34
    Written Statement............................................    36
    Biography....................................................    39

Dr. Bruce Carmichael, Director, Aviation Applications Program, 
  Research Applications Laboratory, National Center for 
  Atmospheric Research
    Oral Statement...............................................    40
    Written Statement............................................    41
    Biography....................................................    46

Discussion
  Status and Importance of MOU Defining Agencies' Roles in 
    NextGen......................................................    46
  Projections For and Negative Impacts of Increased Air Traffic..    48
  NASA R&D Reorganization Efforts on FAA Technology..............    50
  Concerns Regarding JPDO's Assimilation With the FAA............    52
  Benefits of and Suggested Areas for Increased NASA Funding.....    54
  Concerns Regarding the Implementation of Necessary Technology..    56
  Joint Weather Activity.........................................    58
  Suggestions for Specific Legislative Provisions................    59
  Concern Regarding NASA's Retrenchment in Weather-related 
    Research.....................................................    60
  Schedule of UAS Integration....................................    61
  Status of Unmanned Aircraft in NAS.............................    61

              Appendix: Answers to Post-Hearing Questions

Mr. Charles A. Leader, Director, Joint Planning and Development 
  Office, Federal Aviation Administration (FAA)..................    64

Dr. Gerald L. Dillingham, Director, Physical Infrastructure 
  Issues, Government Accountability Office.......................    70

Hon. John W. Douglass, President and CEO, Aerospace Industries 
  Association of America.........................................    75

Dr. Bruce Carmichael, Director, Aviation Applications Program, 
  Research Applications Laboratory, National Center for 
  Atmospheric Research...........................................    77


 THE JOINT PLANNING AND DEVELOPMENT OFFICE AND THE NEXT GENERATION AIR 
                TRANSPORTATION SYSTEM: STATUS AND ISSUES

                              ----------                              


                        THURSDAY, MARCH 29, 2007

                  House of Representatives,
             Subcommittee on Space and Aeronautics,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Mark Udall 
[Chairman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                   The Joint Planning and Development

                   Office and the Next Generation Air

                Transportation System: Status and Issues

                        thursday, march 29, 2007
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

Purpose

    On Thursday, March 29, 2007 at 10:00 am, the Subcommittee on Space 
and Aeronautics will hold a hearing to examine the status of the Next 
Generation Air Transportation System initiative [also known as NGATS or 
NextGen--both terms will be used interchangeably in this hearing 
charter] and explore key issues related to the initiative and the 
interagency Joint Planning and Development Office (JPDO).

Witnesses:

    The witnesses scheduled to testify at the hearing include the 
following:

Mr. Charles Leader, Director, Joint Planning and Development Office, 
Federal Aviation Administration (FAA)

Dr. Gerald L. Dillingham, Director, Physical Infrastructure Issues, 
Government Accountability Office

Hon. John Douglass, President and CEO, Aerospace Industries Association

Dr. Bruce Carmichael, Director, Aviation Applications Program, Research 
Applications Laboratory, National Center for Atmospheric Research

BACKGROUND

Potential Issues
    The following are some of the issues that could be raised at the 
hearing:

        <bullet>  Is the JPDO effectively organized and adequately 
        funded to plan and develop the Next Generation Air 
        Transportation System? Does it have the necessary authority and 
        independence? If not, what changes are needed?

        <bullet>  Is the JPDO's placement within FAA properly balanced? 
        As JPDO becomes more tightly integrated into the FAA, will it 
        continue to be viewed as an ``honest broker'' by the other 
        participating agencies? Will FAA's new Operational Evolution 
        Partnership (OEP) implement the JPDO's plans and development 
        products or will FAA wind up subsuming JPDO's activities within 
        the FAA's OEP?

        <bullet>  What are the biggest near-term and mid-term technical 
        and programmatic challenges facing the JPDO as it attempts to 
        plan and develop the NextGen? What steps can be taken to 
        address those challenges?

        <bullet>  How well are the resource commitments and R&D 
        activities of the agencies participating in the JPDO aligned 
        with the needs of the NextGen initiative?

        <bullet>  How can we ensure that the technologies and concepts 
        developed for the NextGen initiative will be implemented in the 
        national airspace system in a timely manner? How important are 
        equipage and financing policies to ensuring an effective 
        transition of the NextGen R&D into national airspace systems 
        and procedures?

        <bullet>  What role should the private sector play in the 
        planning and development of the NextGen? How well are the views 
        and concerns of the industry and the air traffic controllers 
        being incorporated in the JPDO planning process?

        <bullet>  What needs to be done to ensure that aviation weather 
        information is integrated effectively into the Nation's future 
        air traffic management system and weather impacts are reduced?

        <bullet>  Given the importance of aviation to U.S. global 
        commerce, how will the U.S. NextGen initiative be harmonized 
        with the European air traffic modernization initiative, SESAR, 
        as well as with modernization activities elsewhere in the 
        world?

Overview

    While the health of the National Airspace System (NAS) is critical 
to the economy, the current approach to managing air transportation is 
becoming increasingly inefficient and operationally obsolete. Today's 
NAS is near capacity, with delays growing to record levels, yet a 
threefold increase in air traffic is expected by 2025. Current 
processes and procedures do not provide the flexibility nor the 
scalability needed to meet the growing demand.
    In 2003, Congress created the Joint Planning and Development Office 
(JPDO) as part of P.L. 108-176, Vision 100: Century of Flight 
Reauthorization Act [the specific legislative provisions are included 
as Attachment 1 to this hearing charter]. The JPDO is to plan for and 
coordinate, with federal and non-federal stakeholders, a transformation 
from the current air traffic control system to the NextGen by 2025. 
NextGen (formerly called NGATS) is envisioned as a major redesign of 
the air transportation system that will entail precision satellite 
navigation; digital, networked communications; an integrated aviation 
weather system; layered, adaptive security; and more.
    Seven agencies are participating in the JPDO: the Departments of 
Transportation, Commerce, Defense, and Homeland Security; FAA; the 
National Aeronautics and Space Administration (NASA); and the White 
House Office of Science and Technology Policy. JPDO is housed within 
FAA, and the FAA FY 2008 budget request includes $18 million to support 
JPDO. NASA is still negotiating the amount that it will provide to the 
JPDO in FY 2008. However, while JPDO has the planning and development 
responsibility and can define R&D requirements, etc., that it would 
like the participating agencies to carry out, it has no budgetary or 
management authority over the agencies' activities in support of 
NextGen. Although JPDO is responsible for planning the transformation 
to NextGen and coordinating the related efforts of its partner 
agencies, FAA will be largely responsible for implementing the policies 
and systems necessary for NextGen, while safely operating the current 
air traffic control system 24 hours a day, seven days a week.
    To date, the JPDO has not established practices to institutionalize 
the multi-agency collaborative process. For example, JPDO does not have 
formal, long-term agreements among the partner agencies on their roles 
and responsibilities in creating NextGen. The JPDO has been working to 
establish a memorandum of understanding (MOU) between its participating 
agencies since at least August 2005, but the MOU had not been signed as 
of the date of this hearing, even though in a hearing a year ago this 
Subcommittee was told that it ``should occur in the next few weeks.''
    JPDO also currently lacks explicit policies and procedures for 
decision making and dispute resolution and has not yet completed 
mechanisms for leveraging partner agency resources. JPDO has been 
working with the Office of Management and Budget (OMB) to develop a 
means to consider NextGen-related funding, dispersed across JPDO's 
partner agency budget requests, as a unified federal program. 
Nonetheless, given JPDO's limited authority, the office could face 
continuing challenges in sustaining the lengthy and elaborate federal 
collaborative effort set forth in the Vision 100 legislation.
    FAA has created a NextGen Review Board, co-chaired by JPDO's 
Director and Air Traffic Organization's (ATO) Vice President of 
Operations Planning. Initiatives, such as concept demonstrations or 
research, proposed for inclusion in the OEP, will now need to go 
through the Review Board for approval based upon NextGen requirements, 
concept maturity, and risk. Additionally, as a further step towards 
integrating ATO and JPDO, the Administration's FAA Reauthorization 
proposal calls for the JPDO Director to be a voting member of FAA's 
Joint Resources Council and ATO's Executive Council. While some see 
those steps as important means of ensuring ATO can effectively 
implement JPDO's plans, others fear that the steps will adversely 
impact JPDO's independence.
    The Vision 100 legislation also directed the Secretary of 
Transportation to establish a Senior Policy Committee (SPC) to work 
with the JPDO. The SPC is to be chaired by the Secretary and is also to 
include the FAA and NASA Administrators (or their designees), as well 
as the Secretaries of Defense, Homeland Security, Commerce, OSTP 
Director (or their designees) and other federal agency representatives 
as appropriate. However, the SPC has met infrequently since its 
inception. According to JPDO officials, the SPC makes decisions through 
consensus of the members. If there are any issues that the committee 
cannot resolve among themselves, JPDO officials said that they would 
expect that the Secretary of Transportation would elevate those issues 
to the appropriate White House-level policy council, such as the 
Domestic Policy Council.
    The JPDO established eight multi-agency Integrated Product Teams 
(IPTs) to facilitate the planning and development of the JPDO. They 
included the following [with the lead agency indicated in parentheses]:

        1.  Develop Airport Infrastructure to Meet the Future Demand 
        (FAA)

        2.  Establish an Effective Security System without Limiting 
        Mobility or Civil Liberties (DHS)

        3.  Establish an Agile Air Traffic System (NASA)

        4.  Establish User-Specific Situational Awareness (DOD)

        5.  Establish a Comprehensive Proactive Safety Management 
        Approach (FAA)

        6.  Develop Environmental Protection That Allows Sustained 
        Aviation Growth (FAA)

        7.  Develop a System-Wide Capability to Reduce Weather Impacts 
        (DOC/NOAA)

        8.  Harmonize Equipage and Operations Globally (FAA)

    However, the JPDO has been restructuring the IPTs, and JPDO 
Director Leader should describe the changes at the hearing.
    The NextGen Institute (the Institute) was created by an agreement 
between the National Center for Advanced Technologies and the FAA to 
incorporate the expertise and views of stakeholders from private 
industry, state and local governments, and academia into the NextGen 
planning process. The NextGen Institute Management Council, composed of 
top officials and representatives from the aviation community, oversees 
the policy, recommendations, and products of the Institute and provides 
a means for advancing consensus positions on critical NextGen issues. 
To meet Vision 100's requirement that JPDO coordinate and consult with 
the public, the Institute held its first public meeting in March 2006.
    In general, transforming the National Airspace System by 2025 to 
accommodate a projected demand of three times the current demand for 
air transportation services, providing appropriate security and 
environmental safeguards, and doing these things seamlessly while the 
current system continues to operate will be a complex undertaking. As 
noted by the Government Accountability Office (GAO), ``. . .given the 
staggering complexity of this ambitious effort to modernize and 
transform the air traffic control system over the next two decades, it 
will not be easy to move from planning to implementation.'' 
Nonetheless, implementing the JPDO's plans and products in the national 
airspace system in a timely manner will be critical to the success of 
the NextGen initiative.
    JPDO has recently released a draft JPDO Concept of Operations for 
public comment, and JPDO indicates that in the next few months it will 
publish the NextGen Enterprise Architecture (originally intended to be 
ready for release last summer) and the Integrated Work Plan.

External Reviews of JPDO Progress

    There have been several recent independent reviews of the status of 
the JPDO and its progress in developing NextGen. Some of the key 
findings and recommendations of those reviews are as follows:
Government Accountability Office
    In November 2006, the GAO issued a status report [GAO-07-25] on the 
NextGen initiative [Dr. Gerald Dillingham, one of the hearing 
witnesses, participated in the study and will be able to provide an 
update]. Some of the main findings and recommendations of the GAO study 
were as follows:
Findings

        <bullet>  ``JPDO's partner agencies have agreed on a vision for 
        NGATS [NextGen] and on eight strategies that broadly support 
        the goals and objectives of NGATS.''

        <bullet>  ``JPDO faces challenges in institutionalizing its 
        collaborative effort, addressing planning and expertise gaps, 
        establishing credibility with stakeholders, and harmonizing its 
        work with other countries' efforts to modernize their own air 
        traffic management systems.''

        <bullet>  ``To date, JPDO has not established some practices 
        significant to institutionalizing its collaborative process, 
        such as formalizing roles and responsibilities. Such practices 
        are important because JPDO is fundamentally a planning and 
        coordinating body that lacks authority over the key human and 
        financial resources needed to continue developing plans and 
        system requirements for NGATS.''

        <bullet>  ``FAA, as the key implementer of the transition to 
        NGATS, faces challenges. . .in obtaining the financial and 
        technical resources needed to implement NGATS. FAA also faces 
        challenges in finding ways to reduce costs or realize savings 
        to help fund the costs of transitioning to NGATS while 
        continuing to operate and maintain the current system. Finally, 
        FAA faces challenges in obtaining the technical and contract 
        management expertise needed to define, implement, and integrate 
        the numerous complex programs and systems inherent in the 
        transition to NGATS.''

Recommendations

        <bullet>  ``JPDO should finalize and present to the Senior 
        Policy Committee for its consideration and action the MOU among 
        the partner agencies to define their roles and responsibilities 
        related to NGATS planning and development.''

        <bullet>  ``[JPDO should] clarify the roles and 
        responsibilities between JPDO and [the FAA's] Air Traffic 
        Organization in the planning, development, and transition from 
        JPDO to FAA for implementation of NGATS.''

        <bullet>  ``[JPDO should] develop written procedures for 
        dispute resolution at all levels of the JPDO organization.''

        <bullet>  ``[JPDO] should determine whether key stakeholders 
        and expertise are not represented on JPDO's integrated product 
        teams, divisions, or elsewhere within its organization.''

        <bullet>  ``FAA should work to determine whether it will need 
        to contract with a Lead System Integrator, federally-funded 
        not-for-profit corporation, or other technical or managerial 
        entity to assist in the implementation of NGATS.''

Department of Transportation Inspector General
    On February 12, 2007, the DOT Office of the Inspector General (OIG) 
released an audit report [AV-2007-031] on the JPDO. In that report, the 
OIG listed a number of actions that it considered to be critical for 
the JPDO to be able to make progress and to make the transition from 
planning to implementation. Those actions included such things as 
having JPDO:

        <bullet>  ``Finalize cost estimates, quantify expected 
        benefits, and develop a roadmap for industry;

        <bullet>  Have FAA and NASA come to a clear understanding of 
        the level of technical maturity NASA projects will have [so 
        that any technology gaps will be identified]. FAA has 
        historically relied on NASA for long-term air traffic 
        management research;

        <bullet>  Establish linkage between the plans developed by JPDO 
        and the implementation priorities of the Air Traffic 
        Organization by delineating lines of responsibility and 
        accountability for both;

        <bullet>  Develop and implement mechanisms for aligning 
        resources between agencies; and

        <bullet>  Develop approaches for risk management and systems 
        integration.''

    The OIG also recommended that the FAA Administrator:

        <bullet>  ``Report NGATS cost data along three vectors--
        developmental efforts, adjustments to existing programs, and 
        NGATS implementation--when reporting NGATS financial 
        requirements to Congress and stakeholders;

        <bullet>  Determine the level of technical maturity of NASA's 
        research projects developed for NGATS initiatives;

        <bullet>  Review existing ongoing modernization programs to 
        determine if they are still needed and, if so, what adjustments 
        in cost, schedule, and performance parameters will be needed;

        <bullet>  Include information in the annual JPDO progress 
        report on specific research projects with budget data for FAA 
        developmental efforts as well as budget data of other agencies 
        that are being leveraged and specify how the ongoing research 
        is supporting the JPDO;

        <bullet>  Determine what skill sets and expertise, with respect 
        to software development and system integration, will be 
        required by the ATO and JPDO--and how they will be obtained--to 
        manage and execute NGATS initiatives;

        <bullet>  In planned NGATS demonstration projects, develop 
        sufficient data to establish a path for certifying new systems 
        and identify the full range of adjustments to policies and 
        procedures needed to get benefits;

        <bullet>  Continue to develop and refine procedures that 
        address conflict of interest issues with JPDO initiatives and 
        conduct annual reviews of the matter as the role of the JPDO 
        evolves from planning to implementation;

        <bullet>  Use technology readiness levels in assessing the 
        maturity of research conducted at other agencies to help speed 
        technology transfer and the introduction of new capabilities 
        into the National Airspace System; and

        <bullet>  Fund targeted human factors research to ensure that 
        the changing roles of controllers and pilots envisioned by the 
        JPDO can safely be accommodated. This will require a re-
        prioritization of ongoing efforts at FAA and close cooperation 
        with NASA, which also conducts human factors research.''

    The OIG report also identified a number of ``key research efforts 
needed for NGATS,'' including: Automation Improvements, Separation 
Standards for an Automated Environment, Cockpit Displays, and Weather 
Integration into Automation. The OIG indicated that over seventy 
research or policy areas have been identified as needing further 
investigation and stated that the research areas would be needed 
``regardless of the technology ultimately selected.'' In addition, the 
OIG report stated that: ``To see benefits in the 2012 timeframe, as 
projected by the JPDO, FAA officials have told us that work must begin 
now, given the lag time between development and actual deployment. It 
is not yet clear who or what agency will do this research. To be 
effective, the research must also focus on policies, procedures, and 
methods for certifying systems as safe for use.''

Other Concerns

Uncertainty Over NextGen Costs
    In testimony before the Committee on Transportation and 
Infrastructure, Subcommittee on Aviation, February 14, 2007, Dr. 
Dillingham reported ``A JPDO official told us they have submitted a 
limited NextGen cost estimate to OMB with the 2008 budget request.'' In 
his written opening statement for a March 22, 2007 Senate Commerce, 
Science and Transportation Committee hearing, Charles Leader wrote, 
``Requirements for the first ten years range from $8 billion to $10 
billion. Preliminary estimates suggest that the investments necessary 
to achieve the end state NextGen system range from $15 billion to $22 
billion in FAA funding.''
    As noted in the November GAO study, ``There are a number of drivers 
in the current uncertainty over the cost of NGATS. One of these drivers 
is the decision about which technologies to include. . .. A second 
driver is the sequence for replacing current technologies with NGATS 
technologies. A third driver is the length of time required for the 
transformation to NGATS, since, according to JPDO, a longer period 
would impose higher costs. JPDO's first draft of its enterprise 
architecture should constrain some of these variables.''
    The November GAO study reported: ``The FAA's Research, Engineering 
and Development Advisory Committee (REDAC)--developed a limited, 
preliminary cost estimate, which officials have emphasized is not yet 
endorsed by any agency. The REDAC estimated that FAA's budget under a 
NGATS scenario would average about $15 billion per year through 2025, 
or about $1 billion more annually (in today's dollars) than FAA's 
fiscal year 2006 appropriation.''
    In Charles Leader's opening statements last week, he reported 
``MITRE, working with FAA, has developed a preliminary estimate of the 
NextGen avionics costs to users. It concludes that a wide range of 
costs are possible, depending on the bundling of avionics and the 
alignment of equipage schedules. The most probable range of total 
avionics costs to system users is $14 billion to $20 billion.''
    The November GAO study reported that ``JPDO has also begun working 
with its stakeholders to develop initial cost information through a 
series of investment analysis workshops. Representatives from 
commercial and business aviation, equipment manufacturers, and ATC 
systems developers attended the first workshop, held in April 2006. The 
second workshop, held in August 2006, was for those involved with 
general aviation and public safety operations. JPDO plans to invite 
representatives from airports and regional, State, and local planning 
bodies to the third workshop. According to the JPDO, participants in 
these workshops are asked to discuss and comment on the appropriateness 
of JPDO's current assumptions about factors that drive private sector 
costs.''

NASA's Role
    Both the above-mentioned GAO and DOT OIG reports expressed concern 
over the potential impact of NASA's restructuring of its aeronautics 
program [as has FAA's RE&D Advisory Committee], noting the FAA has 
traditionally relied on NASA for key air traffic management research 
taken to a relatively mature level of technology readiness. They cite 
the potential ``technology gap'' and resulting delays to NextGen if 
NASA reduces its involvement in those research areas. Those concerns 
are echoed by a number of the hearing witnesses.

FAA's Management and Acquisition Performance
    In 1995, the Government Accountability Office (GAO) designated 
FAA's air traffic control modernization program as high risk because of 
systemic management and acquisition problems. In its November 2006 
report, the GAO noted that the FAA has taken a number of actions aimed 
at improving its management practices and institutionalizing these 
improvements by attempting to ensure that the reforms are fully 
integrated into the agency's structure and processes. However, GAO also 
noted that transforming organizational cultures requires substantial 
management attention, as it can take several years for such initiatives 
to be fully implemented and cultures transformed in a sustainable 
manner.
    However, follow-through on these changes must survive the loss of 
some of the leaders during the change: The agency's COO left in 
February 2007, after serving three years, and the FAA Administrator's 
term ends in September 2007. Moreover the current director of the JPDO 
is relatively new, having assumed that position in August 2006. He is 
the third director of the JPDO in the little more than three years that 
the JPDO has been in existence.

Human Factors
    To quote the GAO report, the NextGen Concept of Operations 
``envisions an increased reliance on automation, which raises questions 
about the role of the air traffic controller. Similarly, the Concept of 
Operations envisions that pilots will take on a greater share of the 
responsibility for maintaining safe separation and other tasks 
currently performed by controllers. This raises human factors questions 
about whether pilots can safely perform these additional duties. 
Although the JPDO has begun to model how shifts in air traffic 
controllers' workloads would affect their performance, it has not yet 
begun to model the effect of how this shift in workload to pilots would 
affect pilot performance. According to the JPDO, the change in the 
roles of pilots and controllers is the most important human factors 
issue involved in creating NextGen, but one that will be difficult to 
research. . .''

Aviation Weather
    It is estimated that about seventy percent of the delays in the 
national airspace system are weather-related. It is anticipated that 
increases in the volume of air traffic in the coming decades will make 
the impact of weather on the operation of the system even more 
pronounced than it is today. The JPDO established an Integrated Product 
Team (IPT) to address aviation weather issues, and the JPDO has 
recently announced its intention to establish an aviation weather 
program office. Dr. Carmichael--who is Co-Lead of the Weather IPT's 
Forecasting Group and a hearing witness--will discuss progress and 
problems in addressing aviation weather in the NextGen planning. One 
issue Dr. Carmichael raises in his testimony is the growing uncertainty 
over NASA's funding and programmatic commitment to research in the 
integration of weather into automated decision support tools, wake 
turbulence research, and integration of unmanned aircraft observing 
systems into the national airspace system.

International ``Harmonization''
    Compatibility of the U.S. NextGen system with the air traffic 
modernization efforts being planned elsewhere in the world is very 
important to U.S. and international air carriers. Failure to ensure 
compatibility could lead to air carriers having to equip their fleets 
with two sets of communications, navigation, and surveillance systems--
something that could be very expensive. The Europeans currently have an 
initiative underway, the Single European Sky Air Traffic Management 
Research Programme (SESAR). It differs in a number of respects from the 
U.S. NextGen initiative. FAA and the European Commission are attempting 
to ensure that appropriate coordination takes place, and they signed a 
Memorandum of Understanding to the effect in July 2006.

Establishing Credibility with Stakeholders That the Government Is Fully 
        Committed to NextGen
    As noted by external experts on a GAO-sponsored panel, JPDO also 
faces challenges in establishing credibility among stakeholders. For 
example, some members of the panel told GAO that [to quote GAO], 
``although JPDO has produced much activity, they did not feel the 
effort had demonstrated sufficient progress; some stakeholders said 
that both the 2004 Integrated Plan and the 2005 Progress Report lacked 
sufficient detail, such as definition of research needs.''

ATTACHMENT 1

Excerpts from Title VII of H.R. 2115 (Public Law 108-176)

  SEC. 709. AIR TRANSPORTATION SYSTEM JOINT PLANNING AND DEVELOPMENT 
                                OFFICE.

(a) ESTABLISHMENT--(1) The Secretary of Transportation shall establish 
in the Federal Aviation Administration a joint planning and development 
office to manage work related to the Next Generation Air Transportation 
System. The office shall be known as the Next Generation Air 
Transportation System Joint Planning and Development Office (in this 
section referred to as the `Office').

(2) The responsibilities of the Office shall include--

        (A)  creating and carrying out an integrated plan for a Next 
        Generation Air Transportation System pursuant to subsection 
        (b);

        (B)  overseeing research and development on that system;

        (C)  creating a transition plan for the implementation of that 
        system;

        (D)  coordinating aviation and aeronautics research programs to 
        achieve the goal of more effective and directed programs that 
        will result in applicable research;

        (E)  coordinating goals and priorities and coordinating 
        research activities within the Federal Government with United 
        States aviation and aeronautical firms;

        (F)  coordinating the development and utilization of new 
        technologies to ensure that when available, they may be used to 
        their fullest potential in aircraft and in the air traffic 
        control system;

        (G)  facilitating the transfer of technology from research 
        programs such as the National Aeronautics and Space 
        Administration program and the Department of Defense Advanced 
        Research Projects Agency program to federal agencies with 
        operational responsibilities and to the private sector; and

        (H)  reviewing activities relating to noise, emissions, fuel 
        consumption, and safety conducted by federal agencies, 
        including the Federal Aviation Administration, the National 
        Aeronautics and Space Administration, the Department of 
        Commerce, and the Department of Defense.

(3) The Office shall operate in conjunction with relevant programs in 
the Department of Defense, the National Aeronautics and Space 
Administration, the Department of Commerce and the Department of 
Homeland Security. The Secretary of Transportation may request 
assistance from staff from those Departments and other federal 
agencies.

(4) In developing and carrying out its plans, the Office shall consult 
with the public and ensure the participation of experts from the 
private sector including representatives of commercial aviation, 
general aviation, aviation labor groups, aviation research and 
development entities, aircraft and air traffic control suppliers, and 
the space industry.

(b) INTEGRATED PLAN--The integrated plan shall be designed to ensure 
that the Next Generation Air Transportation System meets air 
transportation safety, security, mobility, efficiency, and capacity 
needs beyond those currently included in the Federal Aviation 
Administration's operational evolution plan and accomplishes the goals 
under subsection (c). The integrated plan shall include--

        (1)  a national vision statement for an air transportation 
        system capable of meeting potential air traffic demand by 2025;

        (2)  a description of the demand and the performance 
        characteristics that will be required of the Nation's future 
        air transportation system, and an explanation of how those 
        characteristics were derived, including the national goals, 
        objectives, and policies the system is designed to further, and 
        the underlying socioeconomic determinants, and associated 
        models and analyses;

        (3)  a multi-agency research and development roadmap for 
        creating the Next Generation Air Transportation System with the 
        characteristics outlined under clause (ii), including--

                (A)  the most significant technical obstacles and the 
                research and development activities necessary to 
                overcome them, including for each project, the role of 
                each federal agency, corporations, and universities;

                (B)  the annual anticipated cost of carrying out the 
                research and development activities; and

                (C)  the technical milestones that will be used to 
                evaluate the activities.

        (4)  a description of the operational concepts to meet the 
        system performance requirements for all system users and a 
        timeline and anticipated expenditures needed to develop and 
        deploy the system to meet the vision for 2025.

(c) GOALS--The Next Generation Air Transportation System shall--

        (1)  improve the level of safety, security, efficiency, 
        quality, and affordability of the National Airspace System and 
        aviation services;

        (2)  take advantage of data from emerging ground-based and 
        space-based communications, navigation, and surveillance 
        technologies;

        (3)  integrate data streams from multiple agencies and sources 
        to enable situational awareness and seamless global operations 
        for all appropriate users of the system, including users 
        responsible for civil aviation, homeland security, and national 
        security;

        (4)  leverage investments in civil aviation, homeland security, 
        and national security and build upon current air traffic 
        management and infrastructure initiatives to meet system 
        performance requirements for all system users;

        (5)  be scalable to accommodate and encourage substantial 
        growth in domestic and international transportation and 
        anticipate and accommodate continuing technology upgrades and 
        advances;

        (6)  accommodate a wide range of aircraft operations, including 
        airlines, air taxis, helicopters, general aviation, and 
        unmanned aerial vehicles; and

        (7)  take into consideration, to the greatest extent 
        practicable, design of airport approach and departure flight 
        paths to reduce exposure of noise and emissions pollution on 
        affected residents.

(d) REPORTS--The Administrator of the Federal Aviation Administration 
shall transmit to the Committee on Commerce, Science, and 
Transportation in the Senate and the Committee on Transportation and 
Infrastructure and the Committee on Science in the House of 
Representatives--

        (1)  not later than one year after the date of enactment of 
        this Act, the integrated plan required in subsection (b); and

        (2)  annually at the time of the President's budget request, a 
        report describing the progress in carrying out the plan 
        required under subsection (b) and any changes to that plan.

(e) AUTHORIZATION OF APPROPRIATIONS--There are authorized to be 
appropriated to the Office $50,000,000 for each of the fiscal years 
2004 through 2010.

 SEC. 710. NEXT GENERATION AIR TRANSPORTATION SENIOR POLICY COMMITTEE.

(a) IN GENERAL--The Secretary of Transportation shall establish a 
senior policy committee to work with the Next Generation Air 
Transportation System Joint Planning and Development Office. The senior 
policy committee shall be chaired by the Secretary.

(b) MEMBERSHIP--In addition to the Secretary, the senior policy 
committee shall be composed of--

        (1)  the Administrator of the Federal Aviation Administration 
        (or the Administrator's designee);

        (2)  the Administrator of the National Aeronautics and Space 
        Administration (or the Administrator's designee);

        (3)  the Secretary of Defense (or the Secretary's designee);

        (4)  the Secretary of Homeland Security (or the Secretary's 
        designee);

        (5)  the Secretary of Commerce (or the Secretary's designee);

        (6)  the Director of the Office of Science and Technology 
        Policy (or the Director's designee); and

        (7)  designees from other federal agencies determined by the 
        Secretary of Transportation to have an important interest in, 
        or responsibility for, other aspects of the system.

(c) FUNCTION--The senior policy committee shall--

        (1)  advise the Secretary of Transportation regarding the 
        national goals and strategic objectives for the transformation 
        of the Nation's air transportation system to meet its future 
        needs;

        (2)  provide policy guidance for the integrated plan for the 
        air transportation system to be developed by the Next 
        Generation Air Transportation System Joint Planning and 
        Development Office;

        (3)  provide ongoing policy review for the transformation of 
        the air transportation system;

        (4)  identify resource needs and make recommendations to their 
        respective agencies for necessary funding for planning, 
        research, and development activities; and

        (5)  make legislative recommendations, as appropriate, for the 
        future air transportation system.

(d) CONSULTATION--In carrying out its functions under this section, the 
senior policy committee shall consult with, and ensure participation 
by, the private sector (including representatives of general aviation, 
commercial aviation, aviation labor, and the space industry), members 
of the public, and other interested parties and may do so through a 
special advisory committee composed of such representatives.
    Chairman Udall. This hearing will come to order.
    Before we begin, I would like to explain to the panel 
members that are here and of course the audience that Ranking 
Member Calvert is not here because the President of the United 
States, George Bush, called a special meeting of the Republican 
Caucus this morning. Evidently, they are all down at the White 
House. The meeting was scheduled to be finished at 9:30, from 
what I understand, so we hope Ranking Member Calvert will join 
us as soon as he possibly can, but in the meantime, we have his 
approval to go ahead and proceed, and since time is money, time 
is valuable, we appreciate the panel's presence. I thought I 
would kick the hearing off and we look forward to hearing from 
you after I share my opening statement with you.
    As I have said, we have a distinguished panel and I look 
forward to your testimony. The topic of today's hearing, the 
status of the Nation's NextGen initiative and the multi-agency 
Joint Planning and Development Office, tasked with overseeing 
the initiative, is one of the most important topics that we 
will address this year. It is important because it concerns the 
future of America's air transportation system and the question 
as to whether we will have a system that will be able to meet 
the needs of our 21st century economy.
    I think we can all agree that we need to be able to answer 
that question in the affirmative for the health of our economy, 
the quality of life of our citizens, the safety of our flying 
public, and our international competitiveness. In short, we all 
want the NextGen initiative to succeed.
    Yet, hope and good intentions by themselves are not going 
to be sufficient to ensure success. We are going to need 
commitment, accountability, and ultimately effective 
performance by all involved.
    I am troubled by indications that all may be not going as 
well as hoped with the NextGen effort and I hope that our 
witnesses will be able to shed some light on the true status of 
the initiative.
    For example, we held a hearing before this subcommittee 
exactly a year ago. The Department of Transportation and Joint 
Planning and Development Office told us that that a Memorandum 
of Understanding defining the NextGen partner agency's roles 
and responsibilities would be finalized ``within the next few 
weeks.'' One year later, it is clear that did not happen and 
still hasn't happened.
    At that same hearing, we were told that the JPDO planned to 
release an Enterprise Architecture for NextGen in the summer of 
2006. That did not happen and still hasn't happened.
    The NASA Authorization Act of 2005 directed NASA to align 
its Airspace Systems Research Program projects ``so that they 
directly support the objectives of the JPDO's Next Generation 
Air Transportation System Integrated Plan'' and to do that by 
the end of 2006. Based on at least some of the witness 
testimony, that alignment doesn't appear to have happened 
either, and a similar situation exists with respect to the 
FAA's R&D programs.
    In addition, today's witnesses are echoing concerns we have 
heard in previous hearings about the negative impact that 
NASA's uncertain commitment to its aeronautics program is 
having on a host of important R&D initiatives.
    Equally troubling from the standpoint of the management--
excuse me--of management continuity, there have been three JPDO 
Directors in the past three years and two NGATS Institute 
Executive Directors in the past two years with the Institute 
position currently vacant.
    Moreover, the head of the FAA's Air Traffic Organization 
has recently left the agency, the FAA Administrator is 
scheduled to depart later this year, and the Department of 
Transportation has a new Secretary.
    In addition, the multi-agency Senior Policy Council, which 
was established to provide high-level advice and policy 
guidance for the JPDO on the NextGen, initiative has met just 
three times in the past three years and not once in the past 
year.
    Finally, we haven't yet seen a clear plan from FAA and the 
JPDO for implementing agreed-upon NextGen technologies and 
procedures into the national airspace expeditiously. That is 
worrisome because it is clear that that there are very real 
costs associated with undue delay.
    Now, I want to be clear that my comments are not criticisms 
on the dedication or commitment of the JPDO team. I recognize 
that developing and implementing the NextGen system are 
enormous challenges. However, we need to take a look both at 
where progress is being made and equally important, where 
improvement is needed. That is what today's hearing is intended 
to accomplish, and again I want to appreciate my appreciation 
to our witnesses for helping the Subcommittee in that task.
    [The prepared statement of Chairman Udall follows:]
               Prepared Statement of Chairman Mark Udall
    Good morning. I want to welcome our witnesses to today's hearing. 
We have a distinguished panel, and I look forward to your testimony.
    The topic of today's hearing--the status of the Nation's NextGen 
initiative and the multi-agency Joint Planning and Development Office 
tasked with overseeing the initiative--is one of the most important 
topics that we will address this year. It's important because it 
concerns the future of America's air transportation system, and the 
question is whether we will have a system that will be able to meet the 
needs of our 21st century economy.
    I think we can all agree that we need to be able to answer that 
question in the affirmative--for the health of our economy, the quality 
of life of our citizens, the safety of the flying public, and our 
international competitiveness. In short, we all want the NextGen 
initiative to succeed.
    Yet, hope and good intentions by themselves are not going to be 
sufficient to ensure success. We are going to need commitment, 
accountability, and ultimately, effective performance by all involved.
    I am troubled by indications that all may not be going as well as 
hoped with the NextGen effort, and I hope that our witnesses will be 
able to shed some light on the true status of the initiative.
    For example, when DOT and JPDO testified before this subcommittee 
exactly a year ago, we were told that a Memorandum of Understanding 
defining the NextGen partner agencies roles and responsibilities would 
be finalized ``within the next few weeks.'' One year later, it is clear 
that that did not happen and still hasn't happened.
    At that same hearing, we were told that JPDO planned to release an 
Enterprise Architecture for NextGen in the summer of 2006. That did not 
happen and still hasn't happened.
    The NASA Authorization Act of 2005 directed NASA to align its 
Airspace Systems Research program projects ``so that they directly 
support the objectives of the JPDO's Next Generation Air Transportation 
System Integrated Plan''--and to do that by the end of 2006. Based on 
at least some of the witness testimony, that alignment doesn't appear 
to have happened either--and a similar situation exists with respect to 
FAA's R&D programs.
    In addition, today's witnesses are echoing concerns we have heard 
in previous hearings about the negative impact that NASA's uncertain 
commitment to its aeronautics program is having on a host of important 
R&D initiatives.
    Equally troubling from the standpoint of management continuity, 
there have been three JPDO Directors in the past three years and two 
NGATS Institute Executive Directors in the past two years, with the 
Institute position currently vacant.
    Moreover, the head of FAA's Air Traffic Organization has recently 
left the agency, the FAA Administrator is scheduled to depart later 
this year, and the Department of Transportation has a new Secretary.
    In addition, the multi-agency Senior Policy Council, which was 
established to provide high-level advice and policy guidance to the 
JPDO on the NextGen initiative, has met just three times in the past 
three years--and not once in the past year.
    Finally, we haven't yet seen a clear plan from FAA and the JPDO for 
implementing agreed-upon NextGen technologies and procedures into the 
national airspace system expeditiously. That is worrisome, because it 
is clear that there are very real costs associated with undue delay.
    Now, I want to be clear that my comments are not criticisms of the 
dedication or commitment of the JPDO team. I recognize that developing 
and implementing the NextGen system are enormous challenges.
    However, we need to take a look both at where progress is being 
made, and equally importantly, where improvement is needed. That's what 
today's hearing is intended to accomplish, and I want to express my 
appreciation to our witnesses for helping the Subcommittee in that 
task.

    Chairman Udall. Now, at this point I would normally 
recognize Chairman Calvert--former Chairman Calvert and now 
Ranking Member Calvert for his opening remarks and I also want 
it to be known that if there are Members who wish to submit 
additional opening statements, that those statements would be 
added to the record. But given that Chairman Calvert is not 
here at this point, let me introduce our panel of witnesses, 
and I will start--move across from my left to right and then we 
will come back to you, Mr. Leader, after I have introduced 
everybody.
    Mr. Charles Leader is the Director for the Joint Planning 
and Development Office of the Federal Aviation Administration. 
He is in charge of the planning and the development of the 
NextGen initiative. Next to him, we have Dr. Gerald Dillingham, 
who is the Director of the Physical Infrastructure Issues in 
the Government Accountability Office and has been actively 
involved in GAO's oversight of aviation-related issues. Next to 
him we have the Honorable John Douglass, who is former 
Assistant Secretary of the Navy, and he currently is the 
President and CEO of the Aerospace Industries Association. He 
also served on the Aerospace Commission, and Mr. Douglass is a 
frequent visitor to this committee. It is always good to see 
you, Mr. Douglass. And I am pleased to introduce, finally, Dr. 
Bruce Carmichael. He is Director of the Aviation Applications 
Program at the National Center for Atmospheric Research, or 
NCAR, which is located in my district in Boulder, Colorado. Dr. 
Carmichael holds an M.S. from Northwestern University in 
applied mathematics and a Ph.D. from the University of Maryland 
in computer science. His more recent work has been involved 
with the aviation industry and automation of maintenance 
processes, air traffic control and weather information. He has 
also been involved in system engineering of approved FAA 
automation and weather systems. He is currently the co-lead of 
the Forecasting Group, the JPDO Weather Integrated Product 
Team. I again want to welcome all of you.
    As you all know, spoken testimony is limited to five 
minutes each, after which the Members of the Subcommittee will 
each have five minutes to ask questions in each round of 
questioning. The lights there are helpful to you, I am sure.
    Mr. Leader, we will start with you. The floor is yours.

 STATEMENT OF MR. CHARLES A. LEADER, DIRECTOR, JOINT PLANNING 
 AND DEVELOPMENT OFFICE, FEDERAL AVIATION ADMINISTRATION (FAA)

    Mr. Leader. My name is Charles Leader and I am the Director 
of the multi-agency Joint Planning and Development Office. With 
your permission, I would like to submit my formal statement for 
the record and take this opportunity to make a few opening 
remarks.
    Chairman Udall. Without objection, so ordered.
    Mr. Leader. Thank you, sir.
    I think you will agree that the United States has the 
safest and most efficient air traffic control system in the 
world. It handles a staggering amount of traffic every day. 
This includes passenger flights, air cargo, military 
operations, unmanned aerial vehicles, space launches, but as 
capable as it is, we are already seeing the limits of the 
current system. Delays and cancellations are growing, and 
unless we begin to transform the system now, the problems are 
only going to get worse.
    The issues concerning the future capacity and flexibility 
of the National Air Transportation System are matters that the 
House and this Committee understand very well. In 2003, Vision 
100, the FAA reauthorization, chartered the Next Generation Air 
Transportation System Initiative and established the Joint 
Planning and Development Office.
    The scope of this undertaking as well as the length of the 
commitment is almost unprecedented in government. It involves 
the joint efforts of the Departments of Homeland Security, 
Commerce, Defense and Transportation as well as NAS and the 
FAA. But it is far more than just a large government program. 
It also represents a unique collaboration with industry. 
NextGen is a long-term transformation of our nation's air 
transportation system. We are leveraging existing technologies 
such as satellite-based navigation and networking while at the 
same time developing new capabilities and new technologies that 
will change our entire approach to managing the air 
transportation system. Often, one of the challenges in 
explaining the NextGen system is putting what we are doing in 
context.
    With that in mind, an approach I would like to take in 
explaining NextGen is to relate the technology and procedural 
improvements we are making to the air transportation system to 
applying the technologies in ways that we are familiar with. 
One good example of a day-to-day application of the kind of 
technology, one that relates to NextGen, is the General Motors 
product that comes with many of their new cars called OnStar. 
Although applied to automobiles and operating in a two-
dimensional environment of roads and vehicles, it uses GPS 
technology as well as voice and data links to help drivers find 
out where they are and at the same time uses the same type of 
voice and data links that we will be using in the NextGen 
system. The OnStar data link can receive messages from the GM 
command center, sent directly to the automobile's computer to 
do such things as unlock the doors, report problems with the 
vehicle or report an automobile accident.
    We will be using the same sort of existing technology in 
NextGen to allow flight crews to communicate, navigate and 
report their positions while operating within the National 
Airspace System.
    Implementation of NextGen has already begun. Two programs, 
both fundamental foundational technologies, are the Automatic 
Dependence Surveillance Broadcast, ADS-B, and System Wide 
Information Management, SWIM. Both of these programs are funded 
and already underway. ADS-B relies on GPS and is critical in 
developing NextGen satellite-based navigation and control 
capabilities. SWIM is developing our key networking 
capabilities and will establish the critical networking 
infrastructure.
    Indeed, I want to make a point about SWIM and network-
enabled operations, namely that DOD, DHS and the FAA are each 
contributing $5 million to a real demonstration of this 
capability later this year. Each of these programs and the 
capabilities they represent are essential in beginning the 
transformation of our current air traffic control system from 
one that relies on voice communications and ground-based 
navigation to one that is satellite-based, network-enabled, and 
uses advanced digital communication.
    By its very nature, this kind of initiative needs to use a 
portfolio-based approach. In other words, the approach has to 
be one that allows the Joint Planning and Development Office to 
integrate a wide range of research initiatives and investments. 
That is why some of the most important products for the JPDO 
have been its three planning tools: the Concept of Operations, 
which went out for final review last month; the Enterprise 
Architecture, which will be released for stakeholder review in 
late May; and the Integrated Work Plan, which will be released 
for comment in July. These will be the guides for the future 
research, investment and implementation of the NextGen System.
    I also want to make a point that Dr. Carmichael will talk 
about in further depth in a few moments to express the 
importance of weather, weather research, and weather 
forecasting in meeting the objectives of the NextGen system. 
The success of NextGen relies heavily on improvements in 
gathering better weather data and implementing a common 
probabilistic forecasting capability. That is why we are 
working with each agency that has a weather responsibility to 
establish a common approach to developing this technology and 
the research strategy that is required to be pursued. NextGen 
is a long-term initiative and in its early stages. If given the 
authority and resources, I believe that JPDO can be catalytic 
in transforming the National Airspace System.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Leader follows:]
                Prepared Statement of Charles A. Leader
    Good morning, Chairman Udall, Congressman Calvert, and Members of 
the Subcommittee. I am Charles Leader, Director of the multi-agency 
Joint Planning and Development Office (JPDO). I am honored to be here 
this morning to testify about the JPDO, and the work we are doing to 
develop and deploy the Next Generation Air Transportation System 
(NextGen) while providing operational and safety enhancements that 
deliver benefits to our customers today.
    Moving to NextGen is inextricably linked to changes in the FAA's 
financing system. We need to establish the financing of current and 
future operations based on actual costs and investment requirements 
that will realize tangible benefits and increasing efficiency. The 
NextGen Financing Act of 2007, as proposed by the Administration, 
provides the necessary reforms to our financing, and puts us on the 
path towards fully implementing the NextGen system.
    And implementing that system is imperative. Our nation's air 
transportation system has become a victim of its own success. We have 
created the most effective, efficient and safest system in the world. 
But we now face a serious and impending problem: today's system is at 
capacity. While the industry downturn following the attacks of 
September 11 temporarily slowed the growth in the aviation industry 
that began in the late 1990's, demand is growing rapidly. And we have 
to change if we a going to be ready to meet it.
    The warning signs are everywhere. Flight delays and cancellations 
have reached unacceptable levels. Other issues, ranging from 
environmental concerns to the complexities of homeland security are 
placing additional stresses on the system. If we fail to address these 
issues, we will suffocate the great engine of economic growth that is 
civil aviation. A MITRE study done for FAA concludes that the current 
system cannot handle the projected traffic demands expected by 2015--
absent modernization, the consequences will be serious.
    NextGen is about a long-term transformation of our air 
transportation system. It focuses on leveraging new technologies, such 
as satellite-based navigation, surveillance and network-centric 
systems. Enabling any far-reaching, systematic and long-term 
transformation requires a vision of what you want and need to achieve, 
and plans for how to get there from here. That's where the work of the 
Joint Planning Development Office has come in to develop, the Concept 
of Operations, the Enterprise Architecture, and the Integrated Work 
Plan. These documents provide us with that picture of where we want to 
go and the plans for how to achieve it.
    The Concept of Operations is a description of the transformed state 
of NextGen, much like what an architect's blueprints offers a builder. 
Then, to adequately lay the groundwork and basic plans for the NextGen 
system requires another step in the process, developed concurrently 
with the Concept of Operations, and that's the Enterprise Architecture. 
The Enterprise Architecture provides the next level of technical 
details of the transformed NextGen system, much like a builder's 
plumbing and wiring diagrams, specifying how the house will get its 
power, water, sewage, cable, and internet connections to the rest of 
the community. Finally, the Integrated Work Plan is the equivalent of 
the general contractor's work plan. It specifies the timing and 
interdependencies of the multi-agency research, demonstrations, and 
development required to achieve the NexGen system vision.
    This set of documents will define the NextGen system and guide the 
future investment and capabilities, both in terms of research and 
systems development. The JPDO released the NextGen Concept of 
Operations for public comment on February 28th. It is now available on 
the JPDO website for review and comment by our stakeholders, and we are 
anxious to receive their feedback. The NextGen Enterprise Architecture 
and the Integrated Work Plan should be released within the next few 
months.
    Let me emphasize, however, that we are not waiting for 2025 to 
implement technologies to promote safer, more efficient operations, and 
increase capacity in an environmentally sound manner. FAA and JPDO are 
beginning to move from planning to implementation. In fact, the FAA's 
FY 2008-2012 Capital Investment Plan (CIP) includes $4.6 billion in 
projects and activities that directly support NextGen. The CIP is a 
five-year plan that describes the National Airspace System 
modernization costs aligned with the projects and activities that the 
Agency intends to accomplish during that time. Several key NextGen 
technologies and programs have already been identified and are funded 
in the FAA's FY08 budget request. These technologies and programs are: 
Automatic Dependent Surveillance-Broadcast (ADS-B); System Wide 
Information Management (SWIM); NextGen Data Communications; NextGen 
Network Enabled Weather; NAS Voice Switch; and, NextGen Demonstrations 
and Infrastructure Development. FAA proposes to spend $173 million on 
these programs in FY08.
    These technologies are essential to begin the transition from 
today's air traffic management system to the NextGen system of 2025. 
Perhaps the most significant of these transformational technologies is 
Automatic Dependent Surveillance-Broadcast or ADS-B. ADS-B is, quite 
simply, the future of air traffic control. A key element of the NextGen 
system, it uses GPS satellite signals to provide air traffic 
controllers and pilots with much more accurate information on aircraft 
position that will help keep aircraft safely separated in the sky and 
on runways. Aircraft transponders receive GPS signals and use them to 
determine the aircraft's precise position in the sky, which is combined 
with other data and broadcast out to other aircraft and controllers. 
When properly equipped with ADS-B, both pilots and controllers will, 
for the very first time, see the same real-time displays of air 
traffic; thereby substantially improving safety.
    ADS-B has been successfully demonstrated through the FAA's Capstone 
program in Alaska, and it has contributed to the recent reduction of GA 
accidents in Alaska by more than 40 percent for ADS-B equipped 
aircraft. One of the first uses of ADS-B technology outside of Alaska 
will be in the Gulf of Mexico. The FAA has signed a Memorandum of 
Agreement (MOA) with the Helicopter Association International (HAI), 
helicopter operators and oil and gas platform owners in the Gulf of 
Mexico to improve service in the Gulf. Using ADS-B technology, 
helicopter operators will transmit critical position information to the 
Houston Center, enabling enhanced Air Traffic Control services in the 
Gulf.
    The FAA is looking at a rule-making that would mandate the avionics 
necessary for implementing ADS-B in the national airspace system, and 
is working closely with stakeholders to determine an appropriate 
proposed timeline for a future NPRM.
    In today's NAS there are a myriad of systems with custom-designed, 
developed, and managed connections. The future, however, demands an 
infrastructure that is capable of flexible growth, and the cost of 
expanding today's point-to-point system is simply prohibitive. System 
Wide Information Management (SWIM) responds to that need. SWIM will 
provide high quality, timely data to many users and applications. By 
reducing the number and types of interfaces and systems, SWIM will 
reduce unnecessary redundancy of information and better facilitate 
multi-agency information-sharing. When implemented, SWIM will 
contribute to expanded system capacity, improved predictability and 
operational decision-making, and reduced cost of service. In addition, 
SWIM will improve coordination to allow transition from tactical 
conflict management to strategic trajectory-based operations. It will 
also allow for better use of existing capacity enroute.
    The heart of the NextGen advanced airspace management concepts 
lies--like much of our society--in the ability to communicate large 
amounts of complex information in a fast, efficient, and robust manner. 
In the current system, all air traffic communications with airborne 
aircraft is by voice communications--in other words you pick up the 
``phone'' to talk to someone else on another ``phone.'' NextGen 
transformation cannot be realized through today's voice-only 
communications, especially if you want to manage tens of thousands of 
aircraft flights on optimal trajectory-based routes. Data 
communications enabled services, such as 4-D trajectories and 
conformance management, will shift air traffic operations from short-
term, minute-by-minute tactical control to more predictable and planned 
strategic traffic management. Eventually, the majority of 
communications will be handled by data communications for 
appropriately-equipped users. It is estimated that with 70 percent of 
aircraft data-link equipped, exchanging routine controller-pilot 
messages and clearances via data can enable controllers to safely 
handle approximately 30 percent more traffic. [FAA ATO-P Future Enroute 
Work Station Study, Preliminary Results, 2006]
    The NextGen Network Enabled Weather will serve as the backbone of 
the NextGen weather support services, and provide a common weather 
picture to all NAS users. Approximately 70 percent of annual national 
airspace system delays are attributed to weather. The goal of this 
investment is to cut weather-related delays by at least 50 percent. The 
weather problem is about total weather information management, and not 
just the state of the scientific art in weather forecasting. The 
weather dissemination system today is inefficient to operate and 
maintain, and information gathered by one system is not easily shared 
with other systems. We must integrate predictive weather information 
with decision support tools and provide uniform real-time access to key 
common weather parameters, and common situational awareness. The 
benefits will be improved utilization of air space across all flight 
domains, and reduced flight delays.
    The NAS Voice Switch will provide the foundation for all air-to-
ground and ground-to-ground voice communications in the air traffic 
control environment. The switches today are very static, and our 
ability to adjust the airspace for contingencies is limited. Under the 
current system it is very difficult and time consuming to coordinate 
and redesign the airspace. In the future, the impacts of bad weather 
could be responded to in real-time, thereby minimizing its disruptions 
to air traffic. The new voice switch allows us to replace today's 
rigid, sector-based airspace design and support a dynamic flow of 
traffic. Voice communications capabilities and network flexibility 
provided by the NAS Voice Switch are essential to the FAA's ability to 
implement new NextGen services that are necessary to increase 
efficiency and improve performance.
    At this early stage of NextGen, it is critical to better define 
operational concepts and the technologies that will support them. A 
crucial part of this activity is demonstrations of new technologies and 
capabilities. In late April, we will demonstrate the use of continuous 
descent approaches with time metering. We are requesting funding for 
additional activities related to defining operational concepts and 
technologies in the FY08 budget. This funding will support two 
demonstrations and a series of infrastructure development activities. 
The primary purposes of these demonstrations are to refine aspects of 
the trajectory-based operations concept, while lowering risk by phasing 
in new technologies. One demonstration will test trajectory-based 
concepts in the oceanic environment. The ultimate goal is to increase 
predictability on long-duration international flights and improve fuel 
efficiency. The other demonstration will accelerate the first 
integrated test of super-density operations using procedures for 
increasing capacity at busy airports. This demonstration should achieve 
near-term benefits at the test airport, and give us the tools to 
implement the same procedures at other locations.
    It is important to understand that NextGen is a portfolio program. 
The technologies described above, and those that will be defined over 
the next several years, are interdependent, creating a series of 
transformations that will truly modernize today's system. Let me 
provide a few examples of this.
    In the future, trajectory-based operations will enable many pilots 
and dispatchers to select their own flight paths, rather than follow 
the existing system of flight paths, that are like a grid of interstate 
highways in the sky. In the high performance airspace of the future, 
each airplane will transmit and receive precise information about the 
time at which it and others will cross key points along their paths. 
Pilots and air traffic managers on the ground will have the same 
precise information, transmitted via data communications. Investments 
in ADS-B, SWIM and Data Communications are critical to trajectory-based 
operations.
    The NextGen system will enable collaborative air traffic 
management. The increased scope, volume, and widespread distribution of 
information that SWIM provides will improve the quality of the 
decisions by air traffic managers and flight operators to address major 
demand and capacity imbalances. SWIM and NAS Voice Switch are 
instrumental in achieving this collaborative air traffic management.
    With NextGen, the impact of weather is reduced through the use of 
improved information sharing, new technology to sense and mitigate the 
impacts of weather, improved weather forecasts, and the integration of 
weather into automation to improve decision-making. New capabilities in 
the aircraft and on the ground, coupled with better forecasts and new 
automation, will minimize airspace limitations and traffic 
restrictions. Network Enabled Weather and SWIM are vital investments 
for these improvements.
    Another vital consideration in the development of the NexGen system 
is successfully managing aviation's environmental impacts. We have set 
out an aggressive vision that grew out of a report to Congress that was 
requested under Vision 100. Two years ago we delivered ``Aviation and 
the Environment--A National Vision.'' Developed through the Partnership 
for Air Transportation Noise and Emissions Reduction (PARTNER) Center 
of Excellence, it brought near 40 stakeholders together: airlines, 
manufacturers, community groups, airports, universities, research 
establishments, and other government agencies to develop a common 
vision. The participants agreed that the U.S. aviation system should 
ensure significant impacts from noise and local emissions continue to 
decline, identify appropriate metrics to deal with greenhouse gas 
emissions, improve the relationship between airports and communities 
that surround them, and ensure the U.S. remains a global leader in 
aviation environmental matters--even as we grow the system two to three 
fold.
    A preliminary JPDO analysis has shown that long before we run into 
limits from technology, we run into constraints to capacity from noise 
and emissions impacts. In fact, we potentially lose tens of billions of 
dollars in foregone aviation activity. That's why the NexGen 
reauthorization is so important. It offers a number of programs that 
are essential if we are to meet the environmental objectives--and so 
foster capacity expansion and benefits it brings to the American 
public. These include: demonstrating the use of new environmentally-
friendly procedures; underwriting the implementation of such procedures 
at airports; targeting research of environmental issues at the airport 
level; accelerating the maturing of new noise and emission reduction 
technologies for use in aircraft; and exploring the use of alternative 
fuels to enhance supply security and environmental performance.
    We recognize that there are many challenges in converting the 
JPDO's vision of the NextGen system into reality. Because the JPDO is 
not an implementing or executing agency, the FAA and the other JPDO 
partner agencies must work closely with the JPDO to develop an 
implementation schedule for the operational changes required as new 
technologies are deployed to realize the NextGen vision. The FAA is 
using the Operational Evolution Partnership, the new OEP, to guide 
their transformation to NextGen. In the past the Operational Evolution 
Plan successfully provided a mid-term strategic roadmap for the FAA 
that extended ten years into the future. The new OEP will include 
strategic milestones through 2025. JPDO representatives will 
participate along with the FAA in OEP development and execution.
    The NAS and NextGen Enterprise Architectures will provide the 
backbone of this new OEP by specifying roadmaps for system and 
certification requirements, operational procedures, program phasing, 
and prototype demonstrations. This Operational Evolution Partnership 
will be the mechanism by which we hold ourselves accountable to our 
owners, customers, and the aviation community for the FAA's progress 
towards the JPDO vision, while assuring that the JPDO and the FAA are 
jointly on-track to deliver the NextGen system.
    Cost will be a vital factor: we cannot create a NextGen system that 
is not affordable. Out-year funding estimates over the first ten years 
range from $8 billion to $10 billion. Preliminary estimates suggest 
that the investments necessary to achieve the end state NextGen system 
range from $15 billion to $22 billion in funding. We are working to 
continuously refine these estimates, particularly with our users as we 
implement new cost-based financing mechanisms, as proposed in the Next 
Generation Air Transportation System Financing Reform Act of 2007, the 
FAA's reauthorization proposal.
    MITRE, working with FAA, has developed a preliminary estimate of 
the NextGen avionics costs. It concludes that a wide range of costs are 
possible, depending on the bundling of avionics and the alignment of 
equipage schedules. The most probable range of total avionics costs to 
system users is $14 billion to $20 billion. This range reflects 
uncertainty about equipage costs for individual aircraft, the number of 
very light jets that will operate in high-performance airspace, and the 
amount of time out-of-service required for equipage installation.
    The importance of developing this system of the future is also 
quite clear to policymakers in Europe, where a comparable effort known 
as Single European Sky Air Traffic Management Research (SESAR) is well 
underway. This presents both a challenge and an opportunity to the 
United States. Creating a modernized, global system that provides 
interoperability could serve as a tremendous boost to the aerospace 
industry, fueling new efficiencies while creating jobs and delivering 
substantial consumer benefits. The further opening of U.S. and European 
markets in the recently-agreed ``Open Skies'' agreement reinforces this 
need. Alternatively, we could also see a patchwork of duplicative 
systems and technologies develop, which would place additional cost 
burdens on an industry already struggling to make ends meet.
    Last year, Administrator Blakey signed a Memorandum of 
Understanding with her European counterpart that formalizes cooperation 
between the NextGen initiative and the SESAR program. The FAA and the 
EC are identifying opportunities and establishing timelines to 
implement, where appropriate, common, interoperable, performance-based 
air traffic management systems and technologies. This coordination will 
address policy issues and facilitate global agreement within 
international standards organizations such as ICAO, RTCA, and 
Eurocontrol, and contribute greatly to the success of this critical 
initiative. We hope to take the first steps under this agreement later 
this summer to lay out a roadmap of flight trials to test a number of 
procedures and technology that will reduce noise and emissions.
    Our European counterparts have released a preliminary cost estimate 
for SESAR. SESAR is conceived as a system that, while smaller in scope 
and size, has similar air traffic management goals as NextGen. They 
consider different system scenarios and a range of total costs of $25 
billion to $37 billion in U.S. dollars through the year 2020. SESAR, 
like NextGen, has a lot of work remaining to refine assumptions and 
better define the system. However, there is an important difference in 
scope between SESAR and NextGen. While SESAR focuses almost exclusively 
on air traffic management, NextGen takes what's called a ``curb-to-
curb'' approach, and includes not only air traffic control, but also 
airports, airport operations, security and passenger management, and 
DOD and DHS NAS requirements.
    Our overarching goal in the NextGen initiative is to develop a 
system that will be flexible enough to accommodate a wide range of 
users--very light jets and large commercial aircraft, manned and 
unmanned aircraft, small airports and large, business and vacation 
travelers alike, while handling a significantly increased number of 
operations with a commensurate improvement in safety, security, 
environment and efficiency. Research will continue to help us find the 
right balance between a centralized satellite and ground system and a 
totally distributed system, where aircraft ``self-manage'' their flight 
with full knowledge of their environment.
    Mr. Chairman, this concludes my testimony. I would be happy to 
answer any questions the Committee may have.

                    Biography for Charles A. Leader
    Mr. Leader is the Director of the Joint Planning and Development 
Office (JPDO), appointed on August 7, 2006, by the FAA Administrator 
Marion C. Blakey.
    As Director of the JPDO, Mr. Leader is charged with the goal of 
transforming the air transportation system of the United States. His 
interagency office is tasked with developing and implementing a 
National Integrated Plan to improve the level of safety, security, 
capacity, efficiency, quality, and affordability of the National 
Airspace System. The National Plan, known as the Next Generation Air 
Transportation System (NGATS), is being developed with the support and 
resources of the Administrator of the FAA, the Administrator of NASA, 
the Secretary of Defense, the Secretary of Homeland Security, the 
Secretary of Commerce, and the Director of the Office of Science and 
Technology Policy (OSTP). These government agencies are partnered with 
more than 200 industry stakeholders to produce this transformational 
plan. Beginning with the safest transportation system today, NGATS will 
lay out a technology and policy roadmap to deliver space-based, 
precision navigation, ``Super Density'' operations to a world-wide 
audience. To insure global inter-operability and economic growth, NGATS 
will promote international harmonization of these transformational 
plans and programs among International stakeholders.
    Mr. Leader is a veteran of the U.S. Marine Corps and a graduate of 
the University of Notre Dame and of Harvard Business School. During the 
past fifteen years, Mr. Leader has held CEO and general management 
positions in several corporations, including Hughes Aircraft. He was a 
partner at McKinsey & Co. and co-leader of their Aerospace/Defense 
practice. Mr. Leader's experience includes working in technology 
development, systems integration, and the realignment of large and 
complex organizations.

    Chairman Udall. Thank you, Mr. Leader.
    Dr. Dillingham, the floor is yours.

   STATEMENT OF DR. GERALD L. DILLINGHAM, DIRECTOR, PHYSICAL 
    INFRASTRUCTURE ISSUES, GOVERNMENT ACCOUNTABILITY OFFICE

    Dr. Dillingham. Thank you, Chairman Udall. My testimony 
today on the status of JPDO's efforts to plan and coordinate 
the development of the NextGen focuses on questions. First, 
what has been the outcome of JPDO's efforts to establish its 
organizational and operational structure; second, what is the 
status of JPDO's technical planning; and third, to what extent 
has funding been identified for near-term research and 
development?
    Regarding JPDO's structure and operations, our research 
shows that the JPDO partner agencies have worked together to 
develop key strategies for implementing NextGen. JPDO has also 
leveraged its partner agencies' resources by staffing various 
levels of its organization with partner agency employees. 
Additionally, the establishment of the Institute provides a 
method for involving non-federal stakeholders in planning 
NextGen.
    Our work has identified some organization issues that, if 
not addressed, could seriously jeopardize the JPDO's chances of 
success. For example, the frequency of leadership turnover at 
JPDO and the Institute has raised concerns about the stability 
of the office and the future of the initiative. During its 
three years of existence, JPDO has had three directors, and 
there have been two directors of the Institute. Additionally, 
some stakeholders have expressed concerns about the 
productivity and the pace of JPDO's efforts. Concerns have also 
been raised by some private sector stakeholders as to whether 
potential conflict-of-interest issues are adequately addressed 
by current Institute policy.
    To its credit, JPDO officials are currently proposing 
several changes to JPDO's structure and operations to improve 
the effectiveness of the organization. We believe that these 
changes could help address stakeholder concerns but their 
effectiveness will need to be monitored, evaluated and linked 
to a policy of continuous improvement. Furthermore, we believe 
that FAA and JPDO must also identify and address the factors 
that have contributed to the frequent turnover of its senior 
management.
    JPDO also has a continuing challenge in ensuring the 
involvement of all key stakeholders. For example, active 
traffic controllers and technicians are not currently involved 
in NextGen planning. Our analysis of FAA's current air traffic 
control modernization program has shown that involving 
stakeholders is a very critical requirement for successful 
implementation of efforts such as NextGen.
    With our regard to our second question about JPDO's 
technical planning, as you heard Mr. Leader testify, JPDO has 
made significant progress towards completing several key 
technical planning documents including a Concept of Operations, 
an Enterprise Architecture and an Integrated work Plan. We 
think that JPDO is focusing on the right types of planning 
tools for the NextGen initiative.
    In our earlier testimony before this committee, we noted 
that JPDO is, fundamentally, a planning and coordinating body 
that lacks authority over the key human and technological 
resources of its partner agencies. To its credit, the JPDO has 
begun to explore ways to help ensure that it has the needed 
resources and authority. For example, JPDO is working on 
aligning Enterprise Architectures of its partner agencies. It 
is also working with OMB to establish a cross-agency mechanism 
for NextGen funding decisions and it is working with FAA to 
revamp its key planning tool, the Operation Evolutionary 
Partnership, to focus on the NextGen effort. Institutionalizing 
these types of collaborative processes will be critical for 
JPDO to maintain its achievement and ensure further progress 
despite personnel changes and the competing priorities of the 
partner agencies.
    Now, I would like to turn to our final question: to what 
extent has funding been identified for near-term research and 
development? FAA and JPDO recently estimated total federal 
costs for NextGen will range between $15 and $22 billion. 
However, questions remain as to which organizations will fund 
and conduct some of the necessary R&D and demonstration 
projects. This R&D will be key to making decisions about 
NextGen technology, developing regulations, and addressing 
human factor issues. In the past, a significant part of this 
research was conducted by NASA. FAA's R&D advisory committee 
has estimated that it would cost nearly a half a billion 
dollars in additional funding and delay NextGen by five years 
for FAA to develop the necessary infrastructure and assume the 
previous NASA R&D. According to JPDO, the organization is 
exploring ways to address the R&D funding challenge and they 
expect to issue a report in August of this year.
    Mr. Chairman, in closing, I want to emphasize that JPDO has 
achieved much in its short existence but much remains to be 
done. This is one of the Federal Government's most complicated 
undertakings. There are many challenges on the horizon that 
will have to be overcome and will require the joint efforts of 
the Congress, the partner agencies and the private sector 
aviation community. Failing is not an option.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Dillingham follows:]
               Prepared Statement of Gerald L. Dillingham
Mr. Chairman and Members of the Subcommittee:

    I appreciate the opportunity to testify before you today to discuss 
the progress of the Joint Planning and Development Office (JPDO) in 
conceptualizing, planning, and facilitating a transformation of the 
current national airspace system to the Next Generation Air 
Transportation System (NextGen). Our nation's current airspace system 
is under growing strain as the demand for air travel is steadily 
increasing, from over 740 million passengers flying in fiscal year 2006 
to an estimated one billion passengers by 2015, according to Federal 
Aviation Administration (FAA) estimates. The system is also expected to 
absorb a growing variety of aircraft, from the jumbo A380 which can 
hold more than 500 passengers to very light jets which will transport 
six or fewer passengers per flight. The consensus is that the current 
system cannot be expanded to meet this projected growth. Without a 
timely transition to NextGen capabilities, JPDO officials estimate a 
future gap between the demand for air transportation and available 
capacity that could cost the U.S. economy billions of dollars annually.
    In 2003, recognizing the need for system transformation, Congress 
authorized the creation of JPDO,\1\ housed within FAA, to lead a 
collaborative effort of federal and non-federal aviation stakeholders 
to conceptualize and plan the NextGen system. NextGen is envisioned as 
a major redesign of the air transportation system that will move from 
largely ground-based radars to precision satellite-based navigation and 
includes digital, networked communications; an integrated weather 
system; layered, adaptive security; and more. In addition to FAA, JPDO 
operates in conjunction with multiple federal partner agencies, 
including the Departments of Transportation, Commerce, Defense, and 
Homeland Security; the National Aeronautics and Space Administration 
(NASA); and the White House Office of Science and Technology Policy.
---------------------------------------------------------------------------
    \1\ JPDO was authorized by the Vision 100-Century of Aviation 
Reauthorization Act (Pub. L. No. 108-176). The office began operating 
in early 2004.
---------------------------------------------------------------------------
    My testimony today focuses on the following question: What is the 
status of JPDO's planning and facilitation of NextGen with respect to 
its organizational structure, technical planning, and initial research 
and development? My statement is based on our November 2006 report to 
this subcommittee\2\ as well as on-going work. We conducted this work 
in accordance with generally accepted government auditing standards.
---------------------------------------------------------------------------
    \2\ GAO, Next Generation Air Transportation System: Progress and 
Challenges Associated with the Transformation of the National Airspace 
System, GAO-07-25 (Washington, D.C.: Nov. 13, 2006).

    In summary:
    JPDO has made progress in several areas in its planning of the 
NextGen initiative, but continues to face a number of challenges. 
JPDO's organizational structure incorporates some of the practices that 
we have found to be effective for federal interagency collaborations, 
and includes an institute that facilitates the participation of non-
federal stakeholders. JPDO has faced some organizational challenges, 
however. Leadership turnover at JPDO and the Institute have raised 
concerns about the stability of JPDO and the NextGen initiative. 
Additionally, we and JPDO officials have heard concerns from 
stakeholders about the productivity of some integrated product teams 
(IPTs) and the pace of the planning effort at JPDO. In response, JPDO 
officials are currently proposing several changes to JPDO's 
organizational structure aimed at improving the effectiveness of the 
organization. We believe that these changes could help address 
stakeholder concerns, but the effectiveness of these changes will have 
to be evaluated.
    JPDO has also made progress toward releasing several key planning 
documents, including a Concept of Operations, an Enterprise 
Architecture, and an Integrated Work Plan, although in some cases on a 
revised and extended timeline. JPDO is focusing on the right types of 
key documents for the foundation of NextGen planning, although the 
current draft Concept of Operations still lacks important details. In 
our November 2006 report, we noted that JPDO is fundamentally a 
planning and coordinating body that lacks authority over the key human 
and technological resources of its partner agencies. Consequently, 
institutionalizing the collaborative process with its partner agencies 
will be critical to JPDO's ability to facilitate the implementation of 
NextGen. JPDO has identified several tasks that will help 
institutionalize collaboration, including aligning the enterprise 
architectures of its partner agencies, working with OMB to establish a 
cross-agency mechanism for NextGen funding decisions, and working with 
FAA to revamp a key planning document to focus on the NextGen effort.
    JPDO has made progress in developing cost estimates for NextGen, 
recently reporting that it estimates the total federal cost for NextGen 
infrastructure through 2025 will range between $15 billion and $22 
billion. Questions remain, however, over which organizations will fund 
and conduct some of the necessary research, development, and 
demonstration projects that in the past were often conducted by NASA, 
and which will be key to achieving certain NextGen capabilities. For 
example, JPDO's investment simulation capability relies heavily on a 
NASA modeling platform that NASA does not plan to upgrade for two 
years. As a result, JPDO's investment simulation capability might be 
constrained. JPDO also faces a challenge in addressing questions 
concerning how human factors issues, such as the changing roles of air 
traffic controllers in a more automated NextGen environment, will be 
researched and addressed. Finally, JPDO has a continuing challenge in 
ensuring the involvement of all key stakeholders. For example, active 
air traffic controllers and technicians are not currently involved in 
NextGen planning. Similarly, issues have arisen over whether conflict 
of interest issues could chill the participation of industry 
stakeholders.
    In November 2006, we recommended that the Secretary of 
Transportation direct JPDO to take actions to institutionalize the 
partner agencies' collaboration in supporting NextGen, including action 
on a Memorandum of Understanding among the partner agencies, actions to 
finalize procedures to leverage partner agency resources, and actions 
to develop procedures for dispute resolution. We also recommended that 
the Secretary direct JPDO to determine whether key stakeholders and 
expertise are not currently represented in JPDO planning efforts. JPDO 
officials neither agreed nor disagree with our recommendations, but 
said they would consider them.

JPDO Has Made Progress in Planning NextGen, but Continues to Face a 
                    Number of Challenges

    JPDO has continued to make progress in facilitating the 
collaboration that is central to its mission and in furthering its key 
planning documents. However, JPDO faces a number of challenges 
involving its organizational structure, institutionalization of its 
efforts, research and development activities, and stakeholder 
participation.

JPDO's Organizational Structure Facilitates Collaboration, But 
                    Continues to Evolve

    Vision 100 includes requirements for JPDO to coordinate and consult 
with its partner agencies, private sector experts, and the public. 
JPDO's approach has been to establish an organizational structure that 
involves federal and non-federal stakeholders throughout the 
organization. This structure includes a federal interagency senior 
policy committee, a board of directors, and an institute to facilitate 
the participation of non-federal stakeholders. JPDO's structure also 
includes eight integrated product teams (IPT), which is where the 
federal and non-federal experts come together to plan for and 
coordinate the development of technologies for NextGen. The eight IPTs 
are linked to eight key strategies that JPDO developed early on for 
guiding its NextGen planning work (see Table 1).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    JPDO's senior policy committee is headed by the Secretary of 
Transportation (as required in Vision 100) and includes senior-level 
officials from JPDO's partner agencies. The Next Generation Air 
Transportation System Institute (the Institute) was created by an 
agreement between the National Center for Advanced Technologies\3\ and 
FAA to incorporate the expertise and views of stakeholders from private 
industry, state and local governments, and academia. The Institute 
Management Council (IMC), composed of top officials and representatives 
from the aviation community, oversees the policy, recommendations, and 
products of the Institute and provides a means for advancing consensus 
positions on critical NextGen issues. The IPTs are headed by 
representatives of JPDO's partner agencies and include more than 200 
non-federal stakeholders from over 100 organizations, whose 
participation was arranged through the Institute. Figure 1 illustrates 
JPDO's position within FAA and the JPDO structures that bring together 
federal and non-federal stakeholders, including the Institute and the 
IPTs. To meet Vision 100's requirement that JPDO coordinate and consult 
with the public, the Institute held its first public meeting in March 
2006 and plans to hold another public meeting in May 2007.
---------------------------------------------------------------------------
    \3\ The National Center for Advanced Technologies is a nonprofit 
unit within the Aerospace Industries Association.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In November 2006, we reported that JPDO's organizational structure 
incorporated some of the practices that we have found to be effective 
for federal interagency collaborations--an important point given how 
critical such collaboration is to the success of JPDO's mission. For 
example, the JPDO partner agencies have worked together to develop key 
strategies for NextGen and JPDO has leveraged its partner agency 
resources by staffing various levels of its organization with partner 
agency employees. Also, our work has shown that involving stakeholders 
can, among other things, increase their support for a collaborative 
effort, and the Institute provides a method for involving non-federal 
stakeholders in planning NextGen.
    Recently, JPDO officials told us they have proposed to FAA 
management and the IMC executive board a change in the IPT structure 
and operation to improve the efficiency of the organization. JPDO has 
proposed converting each IPT into a ``work group'' with the same 
participants as the current IPT, but with each work group led by a 
joint government and industry steering committee. The steering 
committee would oversee the creation of small, ad hoc subgroups that 
would be tasked with short-term projects exploring specific issues and 
delivering discrete work products. Under this arrangement, work group 
members would be free of obligations to the group when not engaged in a 
specific project. According to JPDO officials, if these changes are 
approved, the work groups would be more efficient and output- or 
product-focused than the current IPTs. JPDO officials also noted that 
they are proposing to create a ninth work group to address avionics 
issues.
    We believe that these changes could help address concerns that we 
have heard from some stakeholders about the productivity of some IPTs 
and the pace of the planning effort at JPDO. Nonetheless, the 
effectiveness of these changes will have to be evaluated over time. 
Also, JPDO's director has pointed out the need for the office to begin 
transitioning from planning NextGen to facilitating the implementation 
of NextGen. We believe that these changes are potentially useful in 
supporting such a transition. However, it will be important to monitor 
these changes to ensure that the participation of stakeholders is 
neither decreased nor adversely affected. Maintaining communications 
within and among work groups could increase in importance if, as work 
group members focus on specific projects, they become less involved in 
the overall collaborative planning effort.
    Finally, while the organizational structure of JPDO and the 
Institute have been in place and largely unchanged for several years 
now, both of these entities have suffered from a lack of stable 
leadership. As JPDO begins its fourth year in operation, it is on its 
third director and operated during most of 2006 under the stewardship 
of an acting director. The Institute pointed out in its recent annual 
report that JPDO's leadership turnover had made it a challenge for JPDO 
to move out more aggressively on many goals and objectives, as the 
office waited on a full-time director. The Institute also stated that 
JPDO's leadership turnover had limited the ability of the IMC executive 
committee to forge a stronger relationship with JPDO leadership and 
work jointly on strategic issues and challenges. However, the Institute 
has also had issues with turnover and is currently functioning under an 
acting director due to the recent departure of its second director, who 
had been in the position less than two years. The leadership turnovers 
at both JPDO and the Institute raise concerns about the stability of 
JPDO and about the impact of these turnovers on the progress of the 
NextGen initiative.

JPDO Has Made Progress Toward Releasing Key Planning Documents, 
                    Although Further Work Remains

    JPDO's authorizing legislation requires the office to create a 
multi-agency research and development plan for the transition to 
NextGen. To comply, JPDO is developing several key documents that 
together form the foundation of NextGen planning. These documents 
include a NextGen Concept of Operations, a NextGen Enterprise 
Architecture, and an Integrated Work Plan.
    The Concept of Operations is the most fundamental of JPDO's key 
planning documents, as the other key documents flow from it. Although 
an earlier version was delayed so that stakeholder comments could be 
addressed, Version 1.2 of the Concept of Operations is currently posted 
on JPDO's website for review and comment by the aviation community. 
This 226-page document provides written descriptions of how the NextGen 
system is envisioned to operate in 2025 and beyond, including 
highlighting key research and policy issues that will need to be 
addressed.\4\ For example, some key policy issues are associated with 
automating the air traffic control system, including the need for a 
backup plan in case automation fails, the responsibilities and 
liabilities of different stakeholders during an automation failure, and 
the level of monitoring needed by pilots when automation is ensuring 
safe separation between aircraft. Over the next few months, JPDO plans 
to address the public comments it receives and issue a revised version 
of the Concept of Operations.
---------------------------------------------------------------------------
    \4\ Following an introductory section, the Concept of Operations 
has eight sections covering air traffic management operations, airport 
operations and infrastructure services, net-centric infrastructure 
services, shared situational awareness services, security services, 
environmental management framework, safety management services, and 
performance management services.
---------------------------------------------------------------------------
    In addition to the Concept of Operations, JPDO is working on an 
Enterprise Architecture for NextGen--that is, a technical description 
of the NextGen system, akin to blueprints for a building. The 
Enterprise Architecture is meant to provide a common tool for planning 
and understanding the complex, interrelated systems that will make up 
NextGen. According to JPDO officials, the Enterprise Architecture will 
provide the means for coordinating among the partner agencies and 
private sector manufacturers, aligning relevant research and 
development activities, and integrating equipment. JPDO plans to issue 
an early version of its Enterprise Architecture next month, although it 
was originally scheduled for release in September 2006.
    Finally, JPDO is developing an Integrated Work Plan that will 
describe the capabilities needed to transition to NextGen from the 
current system and provide the research, policy and regulation, and 
schedules necessary to achieve NextGen by 2025. The Integrated Work 
Plan is akin to a project plan and will be critical for fiscal year 
2009 partner agency budget and program planning. According to a JPDO 
official, the office intends to issue its initial draft of the 
Integrated Work Plan in July 2007.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    We have discussed JPDO's planning documents with JPDO officials and 
examined both an earlier version of JPDO's Concept of Operations\5\ and 
the current version that is out for public comment.\6\ Based on our 
analysis, JPDO is focusing on the right types of key documents for the 
foundation of NextGen planning. As for the Concept of Operations, the 
current version is much improved from the prior version, with 
additional details added. Nonetheless, we believe that it still does 
not include key elements such as scenarios illustrating NextGen 
operations, a summary of NextGen's operational impact on users and 
other stakeholders, and an analysis of the benefits, alternatives, and 
trade-offs that were considered for NextGen. In addition, it lacks an 
overall description that ties together the eight key areas that the 
document covers. As noted, JPDO does plan to release another version of 
the Concept of Operations later this year.
---------------------------------------------------------------------------
    \5\ Concept of Operations for the Next Generation Air 
Transportation System, Version 0.2, July 24, 2006.
    \6\ Our senior level technologist reviewed JPDO's current Concept 
of Operations for the Next Generation Air Transportation System, 
Version 1.2, dated February 28, 2007, by comparing it with the IEEE 
Standard 1362-1998 for concept of operations documents.
---------------------------------------------------------------------------
    In fact, JPDO plans further versions of all of its key planning 
documents. We see the development of all three of JPDO's key documents 
as part of an iterative and evolutionary process. Thus, it is unlikely 
that any of these documents will ever be truly ``finalized,'' but 
rather will continue to evolve throughout the implementation of NextGen 
to reflect, for example, the development of new technologies or 
problems uncovered during research and development of planned 
technologies.
    Finally, while each of the three key documents has a specific 
purpose, the scope and technical sophistication of these documents 
makes it difficult for some stakeholders to understand the basics of 
the NextGen planning effort. To address this issue, JPDO is currently 
drafting what the office refers to as a ``blueprint'' for NextGen, 
meant to be a short, high-level, non-technical presentation of NextGen 
goals and capabilities. We believe that such a document could help some 
stakeholders develop a better understanding of NextGen and the planning 
effort to date.

Institutionalizing the Collaborative Process Poses a Continuing 
                    Challenge for JPDO

    In our November 2006 report, we noted that JPDO is fundamentally a 
planning and coordinating body that lacks authority over the key human 
and technological resources of its partner agencies. Consequently, 
institutionalizing the collaborative process with its partner agencies 
will be critical to JPDO's ability to facilitate the implementation of 
NextGen. As we reported in November, JPDO has not established some 
practices significant to institutionalizing its collaborative process. 
For example, one method for establishing collaboration at a fundamental 
level would be for JPDO to have formal, long-term agreements among its 
partner agencies on their roles and responsibilities in creating 
NextGen. Currently, there is no mechanism that assures the partner 
agencies' commitment continuing over the 20-year timeframe of NextGen 
or their accountability to JPDO. According to JPDO officials, they are 
working to establish a memorandum of understanding (MOU), signed by the 
Secretary or other high-ranking official from each partner agency, 
which will broadly define the partner agencies' roles and 
responsibilities. JPDO first informed us of the development of this MOU 
in August 2005; in November 2006 we recommended that JPDO finalize the 
MOU and present it to the senior policy committee for its consideration 
and action. However, as of March 28, 2007, the MOU remained unsigned by 
some of the partner agencies.
    Another key method for institutionalizing the collaborative effort 
is incorporating NextGen goals and activities into the partner 
agencies' key planning documents. For example, we noted in November 
2006 that NASA and FAA had incorporated NextGen goals into their 
strategic plans. These types of efforts will be critical to JPDO's 
ability to leverage its partner agency resources for continued JPDO 
planning efforts. Even more importantly, these efforts will be critical 
to helping ensure that partner agencies--given competing missions and 
resource demands--dedicate the resources necessary to support the 
implementation of NextGen research efforts or system acquisitions.
    Recognizing that JPDO does not have authority over partner agency 
resources, FAA and JPDO have initiated several efforts to 
institutionalize NextGen. For example, JPDO is working with FAA to 
refocus one of FAA's key planning documents on the implementation of 
NextGen--an effort that also appears to be improving the collaboration 
and coordination between JPDO and FAA's Air Traffic Organization (ATO), 
which has primary responsibility for modernization of the air traffic 
control system. FAA has expanded and revamped its Operational Evolution 
Plan (OEP)--renamed the Operational Evolution Partnership--to become 
FAA's implementation plan for NextGen.\7\ The OEP is being expanded to 
apply to all of FAA and is intended to become a comprehensive 
description of how the agency will implement NextGen, including the 
required technologies, procedures, and resources. (Figure 3 shows the 
OEP framework.) An ATO official told us that the new OEP is to be 
consistent with JPDO's key planning documents and its budget guidance 
to the partner agencies. According to FAA, the new OEP will allow it to 
demonstrate appropriate budget control and linkage to NextGen plans and 
will force FAA's research and development to be relevant to NextGen's 
requirements. According to FAA documents, the agency plans to publish a 
new OEP in June 2007.
---------------------------------------------------------------------------
    \7\ Prior to expansion of the OEP, the document centered around 
plans for increasing capacity and efficiency at 35 major airports.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In addition, to further align FAA's efforts with JPDO's plans for 
NextGen, FAA is creating a NextGen Review Board to oversee the OEP. 
This Review Board will be co-chaired by JPDO's Director and ATO's Vice 
President of Operations Planning Services. Initiatives, such as concept 
demonstrations or research, proposed for inclusion in the OEP will now 
need to go through the Review Board for approval. Initiatives are to be 
assessed for their relation to NextGen requirements, concept maturity, 
and risk. An ATO official told us that the new OEP process should also 
help identify some smaller programs that might be inconsistent with 
NextGen and which could be discontinued. Additionally, as a further 
step towards integrating ATO and JPDO, the administration's 
reauthorization proposal calls for the JPDO director to be a voting 
member of FAA's Joint Resources Council and ATO's Executive Council.
    While progress is being made in incorporating NextGen initiatives 
into FAA's strategic and planning documents, more remains to be done 
with FAA and the other JPDO partner agencies. For example, one critical 
activity that remains in this area will be synchronizing the NextGen 
enterprise architecture, once JPDO releases and further refines it, 
with the partner agencies' enterprise architectures. Doing so should 
help align agencies' current work with NextGen while simultaneously 
identifying gaps between agency plans and NextGen plans. Also, while 
FAA is making significant progress toward creating an implementation 
plan for NextGen, the other partner agencies are less far along or have 
not begun such efforts. JPDO's lack of authority over partner agency 
resources will be minimized as a challenge if the partner agencies 
commit to NextGen goals and initiatives at a structural level. By 
further incorporation of NextGen efforts into strategic planning 
documents, the partner agencies will better institutionalize their 
commitments to JPDO and the NextGen initiative.
    Finally, another important method for institutionalizing the 
collaborative effort will be for JPDO to establish mechanisms for 
leveraging partner agency resources. JPDO has made progress in this 
area, although further work remains. As we noted in our November 
report, JPDO is working with OMB to develop a process that would allow 
OMB to identify NextGen-related projects across the partner agencies 
and consider NextGen as a unified, cross-agency program. We recently 
met with OMB officials who said that they felt there has been 
significant progress with JPDO over the last year. JPDO is now working 
on an OMB Exhibit 300 form for NextGen.\8\ This will allow JPDO to 
present OMB a joint business case for the NextGen-related efforts 
within the partner agencies and will be used as input to funding 
decisions for NextGen research and acquisitions across the agencies. 
This Exhibit 300 will be due to OMB in September 2007 to inform 
decisions about the partner agencies' 2009 budget submissions.
---------------------------------------------------------------------------
    \8\ Section 300 of OMB Circular No. A-11, Preparation, Submission, 
and Execution of the Budget (Nov. 2, 2005), sets forth requirements for 
federal agencies for planning, budgeting, acquiring, and managing 
information technology capital assets.
---------------------------------------------------------------------------
    Ultimately, the success of JPDO will have to be measured in the 
efforts of its partner agencies to implement policies and procedures 
and acquire systems that support NextGen. To date, JPDO can point to 
its success in collaborating with FAA to fund and speed its roll-out of 
two systems considered cornerstone technologies for NextGen: Automatic 
Dependent Surveillance-Broadcast (ADS-B) and System Wide Information 
Management (SWIM). ADS-B is a new air traffic surveillance system that 
will replace many existing radars with less costly ground-based 
transceivers. SWIM will provide an initial network centric capability 
to all the users of the air transportation system. This means that the 
FAA and the Departments of Homeland Security and Defense will 
eventually share a common, real-time, secure picture of aviation 
operations across the airspace system. Identifying such NextGen 
programs across the partner agencies and establishing implementation 
plans for them in JPDO's Integrated Work Plan will be critical going 
forward to creating performance metrics for JPDO.
    Although we recommended in our November report that JPDO develop 
written procedures that formalize agreements with OMB regarding the 
leveraging of partner agency resources, this is still a work in 
progress. For example, OMB officials said they had not reviewed JPDO's 
2008 partner agency budget guidance prior to its release to the partner 
agencies, which highlights the need for JPDO to further develop its 
procedures for working with OMB. Going forward, it will be important 
for Congress and other stakeholders to evaluate the success of the 2009 
budgets in supporting NextGen initiatives, especially as 2009 is 
expected to be a critical year in the transition from planning NextGen 
to implementing NextGen.

FAA and JPDO Have Begun to Release Early Cost Estimates for NextGen, 
                    but Questions Remain Over Who Will Conduct 
                    Necessary Research and Development

    In our November report, we noted that JPDO had not yet developed a 
comprehensive estimate of the costs of NextGen. Since then, in its 
recently released 2006 Progress Report,\9\ JPDO reported some estimated 
costs for NextGen, including specifics on some early NextGen programs. 
JPDO believes the total federal cost for NextGen infrastructure through 
2025 will range between $15 billion and $22 billion. JPDO also reported 
that a preliminary estimate of the corresponding cost to system users, 
who will have to equip with the advanced avionics that are necessary to 
realize the full benefits of some NextGen technologies, produced a 
range of $14 billion to $20 billion. JPDO noted that this range for 
avionics costs reflects uncertainty about equipage costs for individual 
aircraft, the number of very light jets that will operate in high-
performance airspace, and the amount of out-of-service time required 
for installation.
---------------------------------------------------------------------------
    \9\ JPDO, Making the NextGen Vision a Reality: 2006 Progress Report 
to the Next Generation Air Transportation System Integrated Plan 
(Washington, D.C.: Mar. 14, 2007).
---------------------------------------------------------------------------
    FAA, in its capital investment plan for fiscal years 2008-2012, 
includes estimated expenditures for 11 line items that are considered 
NextGen capital programs.\10\ The total five-year estimated 
expenditures for these programs is $4.3 billion. In fiscal year 2008, 
only six of the line items are funded for a total of roughly $174 
million; funding for the remaining five programs would begin with the 
fiscal year 2009 budget. According to FAA, in addition to capital 
spending for NextGen, the agency will spend an estimated $300 million 
on NextGen-related research and development from fiscal years 2008 
through 2012. The administration's budget for fiscal year 2008 for FAA 
includes a total of $17.8 million to support the activities of JPDO.
---------------------------------------------------------------------------
    \10\ FAA has six capital investment programs that it considers 
transformational NextGen programs slated to receive funding in fiscal 
year 2008: ADS-B nationwide implementation, System Wide Information 
Management (SWIM), NextGen Data Communications, NextGen Network Enabled 
Weather, National Airspace System Voice Switch, and NextGen Technology 
Demonstration. In addition, five other programs are slated to begin 
funding in 2009: NextGen System Development, NextGen High Altitude 
Trajectory Based Operations, NextGen High Density Airports, NextGen 
Networked Facilities, and NextGen Cross-Cutting Infrastructure.
---------------------------------------------------------------------------
    While FAA and JPDO have begun to release estimates for FAA's 
NextGen investment portfolio, questions remain over which entities will 
fund and conduct some of the necessary research, development, and 
demonstration projects that will be key to achieving certain NextGen 
capabilities. In the past, a significant portion of aeronautics 
research and development, including intermediate technology 
development, has been performed by NASA. However, NASA's aeronautics 
research budget and proposed funding shows a 30 percent decline, in 
constant 2005 dollars, from fiscal year 2005 to fiscal year 2011. To 
its credit, NASA plans to focus its research on the needs of NextGen. 
However, NASA is also moving toward a focus on fundamental research and 
away from developmental work and demonstration projects, which could 
negatively impact NextGen if these efforts are not assumed by others. 
According to its 2006 Progress Report, JPDO is building a research and 
development plan that will document NextGen's research needs and the 
organizations that will perform the work.
    For example, JPDO's investment simulation capability relies heavily 
on NASA's NAS-wide modeling platform, the Airspace Concepts Evaluation 
System (ACES).\11\ This investment simulation capability permits JPDO 
to, among other things, evaluate alternative research ideas and assess 
the performance of competing vendors. According to a JPDO official, 
this capability, which is critical to NextGen research, is eroding as 
JPDO's investment simulation requirements are expanding. As part of its 
fundamental research mission, NASA intends to upgrade to ACES-X (a more 
sophisticated representation of the national airspace system), but not 
for another two years. Until then, JPDO investment modeling capability 
will be constrained unless the office or another partner agency can 
assume the modeling work. While one option would be to contract with 
private sector vendors to do this type of modeling on a per simulation 
basis, this solution could be expensive for the government. Moreover, 
JPDO might not be able to continue facilitating participation by both 
small and large companies, thus giving both an equal opportunity to 
demonstrate their ideas, because small companies would have to pay for 
access to this proprietary modeling capability. This is an issue that 
needs to be addressed in the short-term.
---------------------------------------------------------------------------
    \11\ ACES provides a detailed flight simulation environment and an 
open framework to integrate the results of other simulations. This 
allows JPDO to test concepts well before they have to be demonstrated 
with real hardware and people. This platform provides a basis for 
evaluating the timing of many agencies' current budget requests and is 
a method for comparing competitive ideas.
---------------------------------------------------------------------------
    JPDO faces the challenge of determining the nature and scope of the 
research and technology development necessary to begin the transition 
to NextGen, as well as identifying the entities that can conduct that 
research and development. According to officials at FAA and JPDO, they 
are currently studying these issues and trying to assess how much 
research and development FAA can assume. An FAA official recently 
testified that the agency proposes to increase its research and 
development funding by $280 million over the next five years. However, 
a draft report by an advisory committee to FAA stated that FAA would 
need at least $100 million annually in increased funding to assume 
NASA's research and development work, and establishing the necessary 
infrastructure within FAA could delay the implementation of NextGen by 
five years.\12\ More work remains to completely assess the research and 
development needs of NextGen and the ability of FAA and the other JPDO 
partner agencies to budget for and conduct the necessary initiatives. 
This information is critical as the timely completion of research and 
testing of proposed NextGen systems is necessary to keeping the NextGen 
initiative on schedule.
---------------------------------------------------------------------------
    \12\ Research, Engineering and Development Advisory Committee, 
Draft Report on Financing the Next Generation Air Transportation System 
(Washington, D.C.: April 2006).
---------------------------------------------------------------------------

Some Fundamental NextGen Capabilities Will Require Human Factors 
                    Research

    Addressing questions about how human factors issues will affect the 
move to some key NextGen capabilities is another challenge for JPDO. 
For example, the NextGen Concept of Operations envisions an increased 
reliance on automation, which raises questions about the role of the 
air traffic controllers in such an automated environment. Similarly, 
the Concept of Operations envisions that pilots will take on a greater 
share of the responsibility for maintaining safe separation and other 
tasks currently performed by controllers. This raises human factors 
questions about whether pilots can safely perform these additional 
duties.
    Although JPDO has begun to model how shifts in air traffic 
controllers' workloads would affect their performance, it has not yet 
begun to model the effect of how this shift in workload to pilots would 
affect pilot performance. According to a JPDO official, modeling the 
effect of changes in pilot workload has not yet begun because JPDO has 
not yet identified a suitable model for incorporation into its suite of 
modeling tools. According to a JPDO official, the evolving roles of 
pilots and controllers is the NextGen initiative's most important human 
factors issue, but will be difficult to research because data on pilot 
behavior are not readily available for use in creating models. In 
addition to the study of changing roles, JPDO has not yet studied the 
training implications of various systems or solutions proposed for 
NextGen. For example, JPDO officials said they will need to study the 
extent to which new air traffic controllers will have to be trained to 
operate both the old and the new equipment as the Concept of Operations 
and enterprise architecture mature.

JPDO Faces A Continuing Challenge in Ensuring the Involvement of All 
                    Key Stakeholders

    Some stakeholders, such as current air traffic controllers and 
technicians, will play critical roles in NextGen, and their involvement 
in planning for and deploying the new technology will be important to 
the success of NextGen. In November 2006, we reported that active air 
traffic controllers were not involved in the NextGen planning effort 
and recommended that JPDO determine whether any key stakeholders and 
expertise were not represented on its IPTs, divisions, or elsewhere 
within the office. Since then, the head of the controllers' union has 
taken a seat on the Institute Management Council. However, no active 
controllers are yet participating at the IPT planning level. Also, 
aviation technicians do not participate in NextGen efforts. Input from 
current air traffic controllers who have recent experience controlling 
aircraft and current technicians who will maintain NextGen equipment is 
important when considering human factors and safety issues. Our work on 
past air traffic control modernization projects has shown that a lack 
of stakeholder or expert involvement early and throughout a project can 
lead to costly increases and delays.
    In addition, we found that some private sector stakeholders have 
expressed concerns that participation in the Institute might either 
preclude bidding on future NextGen acquisitions or pose organizational 
conflicts of interest. FAA's acquisition process, generally, precludes 
bids from organizations that have participated in, materially 
influenced, or had prior knowledge of the requirements for an 
acquisition. The Institute was aware of this concern and attempted to 
address it through an amendment to its governing document that 
strengthened the language protecting participants from organizational 
conflicts of interest for participation in the NextGen initiative. 
However, while the amendment language currently operates to protect 
stakeholders, the language has never been tested or challenged. Thus, 
it is unclear at this time whether any stakeholder participation is 
being chilled by conflict of interest concerns.
    Mr. Chairman, this concludes my statement. I would be pleased to 
respond to any questions from you or other Members of the Subcommittee.

    Chairman Udall. Thank you, Dr. Dillingham.
    Secretary Douglass, the floor is yours.

    STATEMENT OF HON. JOHN W. DOUGLASS, PRESIDENT AND CEO, 
          AEROSPACE INDUSTRIES ASSOCIATION OF AMERICA

    Mr. Douglass. Thank you, Mr. Chairman.
    First of all, I would like to ask your permission, sir, to 
submit my written statement for the record.
    Chairman Udall. Without objection, so ordered.
    Mr. Douglass. I will cover this briefly with a summary. 
Sir, my first involvement and deep immersion in this issue came 
back in 2002 when I was a commissioner on the bipartisan 
commission on the future of the aerospace industry and one of 
the extraordinary things that the commissioners discovered was 
that if you looked at the capacity of our air traffic control 
system and all of the estimates for growth in the air traffic 
in the United States, the two didn't match. There was a very 
big disconnect there and we could see fairly clearly that we 
were not going to be able to stay ahead of the demand unless we 
did something radically different, and one of the ideas that 
came from the commission was the creation of the JPDO, or Joint 
Office, to develop this new system and the vision of this Joint 
Office was that the technology that we need to do this task 
largely exists in other parts of the government. It exists in 
the Department of Defense. It exists in NASA and other parts of 
the government and we all knew that this was going to be an 
episodic thing that we do about every 40 or 50 years as a 
nation, a very complex task, and so we didn't want to reinvent 
the wheel, and from that was born the concept of the Joint 
Planning and Development Office. In the five years since this 
report was issued, we have seen the Department of 
Transportation, the FAA, and to its enormous credit, Congress, 
largely led by this and several other subcommittees support 
this concept and I would associate myself with much of what you 
said in your opening statement, Mr. Chairman.
    So now, after five years, we find that much of the planning 
has been implemented but it is time for us to begin to actually 
implement the development of the new system and as we begin 
this task, it is really important to remember as both of my 
predecessors have said this morning, this is an enormously 
complex task. There is probably not another one that I can 
think of that is as broad an interagency effort, but the payoff 
if we do it right is huge in savings for the American people, 
both in the development process and in the important results of 
the project once it is implemented.
    It is also important, though, Mr. Chairman to note that 
time is short. Five years have gone by since this commission 
report and there are people who are believing that we may see a 
meltdown this summer of the system because of thunderstorms and 
things of that nature and traffic is back ahead of where it was 
before 9/11. So we in industry share your concern about the 
need to get on with this and we are very concerned that the 
research and development funding shortfall, particularly in 
NASA and the Department of Homeland Security, need to be taken 
care of now and not pushed off into the out years. I have been 
told that there are some alignments coming into play as far as 
2009 and 2010 down at OMB and we think that is too late.
    So we believe that there is some additional accountability 
needed here to pull all of this together. We think JPDO needs 
to be accountable to the Congress. We need--we believe that the 
agencies that support the JPDO also need to be accountable to 
Congress. We are particularly concerned about the lack of 
regular meetings of the Senior Policy Oversight Committee that 
you mentioned in your opening statement. I can tell you, sir, I 
was a part of most of the big joint programs in the Department 
of Defense when I was at General Law, sir, when I was Assistant 
Secretary of the Navy, and I have learned from hard experience 
that you have to meet very regularly to oversee these very 
complex projects.
    Finally, my last point that I would like to make, sir, is 
that industry is very much a partner in this effort, not only 
in the development in the system but in the financing in the 
system. We expect that our side of the cost will probably be 
somewhere between $15 and $30 billion over the development 
cycle and it is enormously important for industry to have the 
confidence that the government part of the program will stay on 
track, and when the industry loses confidence that it will stay 
on track, then the funding dries up. Obviously, the airlines 
don't want to quit if they don't believe that a new system will 
actually be put into implementation.
    So in summary, Mr. Chairman, I think this committee and the 
Congress has an important role to play in focusing the 
authority properly on the JPDO, making sure the resources are 
available. If those things happen, I think what you will see if 
that industry will do its part and the other parts of the 
government will fall in line if there is some strong oversight, 
especially from the Congress.
    That concludes my statement, Mr. Chairman.
    [The prepared statement of Mr. John Douglass follows:]
                 Prepared Statement of John W. Douglass
    Chairman Udall, Representative Calvert, and Members of the 
Subcommittee: I appreciate this opportunity to testify on the critical 
need to overhaul of our nation's air transportation system as mandated 
by Vision 100, the FAA Reauthorization Act of 2003.
    A safe, secure and efficient air transportation system is essential 
to the economic vitality of the United States. Approximately 10 percent 
of the U.S. economy is directly tied to aerospace and aviation. 
Aviation continues to drive our nation's economic growth, and it will 
do so increasingly as air traffic triples over the next 20 years. 
Transformational improvements to our nation's air transportation 
infrastructure are essential to address the known capacity constraints 
in our current system. Since that system is operating close to the 
point of grid lock, it is crucial that our country develop and 
implement the Next Generation Air Transportation System (NGATS or 
NextGen) under the guidelines of Vision 100.
    Members of the Aerospace Industries Association strongly support 
the mission of the JPDO, first conceived and recommended by the 
bipartisan Commission on the Future of the United States Aerospace 
Industry in November 2002, and we remain constructively engaged to make 
NextGen a reality. AIA represents almost 300 manufacturing companies 
with over 635,000 high-wage, highly skilled production employees. We 
operate as the largest aerospace trade association in the United States 
across three sectors: civil aviation, space systems, and national 
defense. Our member companies export 40 percent of their total output, 
and we routinely post the Nation's largest manufacturing trade surplus, 
a level that approached $55 billion last year. Aerospace companies also 
continue to invest heavily in R&D, spending more than $50 billion over 
the last 15 years.
    The JPDO has steadily built a consensus around its vision for 
NextGen. This vision was initially expressed in its first two reports 
to Congress in 2004 and 2005. By spring, JPDO should complete the 
vision building stage when it releases more its detailed Concepts of 
Operations (ConOps) and Enterprise Architecture documents. Timely 
development and execution of an effective integrated NextGen plan is 
critical, especially since the current draft of the ConOps identifies 
167 research issues and 77 policy issues that must be resolved to 
implement NextGen. These issues cross the disciplines and resources of 
all of the JPDO partner agencies.
    The Administration and Congress must ensure that the appropriate 
levels of responsibility, accountability and urgency exist across the 
agencies to ensure that they properly manage and conduct the full range 
of integrated NextGen activities. From our evaluation of JPDO's 
process, products, and progress to date, we find that action is needed 
in the following areas for JPDO to achieve its aviation safety, 
security, environmental and transformation missions. AIA urges the 
Subcommittee and Congress to explore options to rectify these 
persistent problems.

    Lack of Urgency: Preliminary estimates provided by the JPDO 
indicate that in lost passenger revenue alone, the cost of not 
implementing NextGen will exceed $50 billion per year by 2025. This 
loss, however, does not account for the associated economic harm from 
not transforming into NextGen that will be felt by general aviation, 
cargo transportation, and other air services components. Nor does it 
include the adverse impacts, such as lost productivity, that will occur 
in other areas such as the overall manufacturing sector.
    The situation is even more urgent, however. Although flight 
disruptions temporarily subsided during the decrease in air travel 
following 9/11, news stories now remind us of the disruptions that can 
occur as a result of weather or other factors in a system that has 
reached its capacity. The FAA has publicly stated that by 2015 the 
system will be unable to handle the projected volume of traffic. Given 
the length of time required to conduct research, validate or prototype 
concepts, create new rules and procedures, certify systems, and 
incorporate the necessary upgrades into our nation's infrastructure and 
operational fleet, we--and many others--question whether our country 
can meet this looming crisis.
    So far, the JPDO partner agencies' actions do not seem to match the 
urgency of the situation. It is estimated that NextGen development and 
implementation will require at least $1 billion more per year, 
including an additional $200-$300 million annually for federal 
research. Unfortunately, the Administration's FY08 budget request fails 
to make these investments. The FAA's FY08 proposal for NextGen, for 
example, is only three percent higher than the FY07 requested 
levels.\1\ Of this amount, the FAA dedicates only an additional $4.8 
million for their research efforts. Similarly, the proposed funding 
level for NASA aeronautics research remains inadequate. Last year, NASA 
proposed reducing its aeronautics funding by $188 million. Congress 
soundly rejected this approach and instead provided $166 million over 
the FY07 request. Nevertheless, the Administration has once again 
proposed NASA aeronautics research funding comparable to the FY07 
proposal.\2\
---------------------------------------------------------------------------
    \1\ FAA's Budget in Brief provides figures for NextGen-related 
funding levels: Total NextGen Transformational and Contributor Programs 
request: FY07 $1,152 billion, FY08 $1,188 billion; RE&D Contributor 
Programs: FY07 $57.9 million, FY08 $62.7 million.
    \2\ NASA proposed $724.8 million for aeronautics for FY07. Their 
FY08 proposal is $554 million. However, NASA's accounting system has 
changed due to a new scheme to handle facilities charges. In NASA's 
FY08 budget submission they note that the $554 million request equates 
to $731.8 million under the old accounting system.
---------------------------------------------------------------------------
    Under current timelines, the NextGen R&D of the JPDO partner 
agencies will not achieve full alignment until FY09 at the earliest. We 
cannot accept this protracted timeline. For each delay, the cost of 
NextGen development will increase and more disruptions will occur, 
posing greater risks to the Nation's mobility and economic 
competitiveness.

    Authority & Accountability: The Vision 100 legislation tasks the 
JPDO with ``creating and carrying out an integrated plan for a Next 
Generation Air Transportation System.'' The recently released National 
Aeronautics R&D Policy also recognizes the importance of the JPDO. On 
December 20, 2006, President Bush signed the Executive Order that 
requires the policy's implementation. According to the explicit 
language of the policy, the JPDO ``should be responsible for planning, 
coordination, and oversight of both research and implementation for the 
NGATS to meet the Nation's civil, military, and homeland security 
needs.'' The policy also highlights the critical importance of 
interagency alignment with JPDO goals, and instructs the JPDO partner 
agencies to ``. . .integrate their operational mission-specific 
requirements into the NGATS plan,'' and to align their air 
transportation system-related R&D efforts ``with NGATS objectives to 
the maximum extent practicable.''
    Creating and implementing a national plan that depends on 
systematic interagency cooperation is a challenging task, especially 
since the JPDO cannot provide or direct agency resources. While many 
debate whether the JPDO has sufficient authority to complete its 
objective, it is clear that there is a lack of agency accountability. 
Accountability must be increased to ensure that agencies fully engage 
JPDO and execute as necessary to meet the Vision 100 objective. With 
the onset of the implementation phase, it is even more crucial that the 
agencies are held accountable for all of their respective roles in 
NextGen: conducting the research; defining and implementing the 
policies, requirements, and systems acquisitions that are needed. 
Clear, measurable, and visible performance metrics must be defined. 
Both the Administration and Congress must hold the agencies accountable 
to these performance metrics if NextGen is to become a reality.
    On a more immediate level, insufficient accountability and 
authority is inherent in the current JPDO operational structure. None 
of the agency employees assigned to the JPDO (with a few exceptions) 
report to the JPDO Director, nor does he have direct input into their 
performance reviews. This lack of accountability to the JPDO Director 
and his inability to directly incentivize personnel makes a tough job 
even harder. Both the JPDO and other appropriate agency personnel 
should have all performance-based compensation that they receive linked 
to the achievement of NextGen milestones.
    From our perspective, a partial solution to the lack of agency 
accountability could be the broader application of an anticipated DOD 
plan to designate a senior-level officer as the responsible individual 
for all military-related NextGen programs and the Pentagon's engagement 
with the JPDO. This is so simple, yet so efficient and effective, that 
we believe it should be required of all JPDO participating agencies. 
Then it will be clear, both within the Administration and to Congress, 
who is responsible for each agency's NextGen-related performance.

    Program Alignment/Integration/Management: A lack of sufficient 
NextGen program integration across the various JPDO agencies poses a 
significant risk. For this reason, the relevant agencies must make 
every effort to complete the alignment of their activities and 
resources with the JPDO planning process now. Schedules and resource 
requirements must be realistic and reflect the input and capabilities 
of both government and industry stakeholders. Robust systems 
integration tools must be consistently used. Clearly visible and 
traceable alignment of federal funding must be established for this 
multi-agency effort. JPDO's coordination with the Office of Management 
and Budget (OMB) is a significant step in this direction: identifying 
existing partner-agency programs and funding that align with NextGen 
requirements. But the current timelines fail to address immediate 
needs.
    Dependence on OMB for program integration, however, is not a long-
term solution. The JPDO's system engineering and program management 
capabilities must continue to be strengthened. JPDO's pending 
reorganization of the office, which AIA applauds, will place an 
increased emphasis on systems engineering. At the same time, the JPDO 
requires additional resources to bring its system engineering, 
planning, and program management capabilities up to the level required 
to meet the Vision 100 objectives. While Congress authorized up to $50 
million per year for the JPDO in its authorizing legislation, JPDO's 
budget has never approached that level. The FAA's FY08 budget proposal 
would contribute only $14.3 million for JPDO operations.

    Enhanced Engagement With Industry: Testifying before the House 
Transportation & Infrastructure Subcommittee on Aviation last week, the 
DOT Inspector General characterized the overall NextGen program as 
``extremely high risk'' and the Government Accountability Office (GAO) 
echoed this view. According to their assessment, some of the chief 
issues that have derailed programs in the past--such as underestimating 
complexity, requirements creep, and inadequate stakeholder input--will 
likely reoccur with NextGen. Continuing to strengthen engagement with 
industry will help minimize these risks and promote more effective and 
timely implementation. Manufacturers in particular have significant 
expertise to offer in complex program development, risk management, 
system engineering, and integration. Not only can industry bring 
valuable insights and expertise to the JPDO, but it will likely pay a 
substantial portion (approximately half) of NextGen implementation 
costs. By current estimates, industry's share of NextGen development 
and implementation expenditures will approach the $15-$20 billion 
range. Therefore, it is critical that industry stakeholders have a 
strong voice in setting the detailed system requirements and 
implementation timelines.
    While industry has been involved with the JPDO's Integrated Product 
Teams for some time, the engagement must become more robust and 
effective. The JPDO's evolving reorganization should strengthen 
industry engagement on the critical elements of JPDO planning. With 
this planned reorganization that is patterned after the recommendations 
of the DOT Inspector General and the National Research Council for 
greater industry coordination, JPDO should have a sharpened product-
driven focus and greater clarity regarding the tasks and deliverables 
of its working groups. This deeper private sector partnership will 
allow JPDO to enhance its productivity and focus on delivering 
realistic system requirements and plans. Yet engagement cannot end with 
the initial planning phases. As implementation activities begin 
throughout the agencies, the need for them to continue to engage both 
JPDO and industry remains crucial if critical planning and execution 
details are to remain aligned.

    Closing the R&D Gap: We must ensure that sufficient transitional 
R&D is conducted so that technologies are sufficiently mature when 
implementation decisions are made or NextGen is likely to stray off 
course. Perhaps the most crucial challenge facing timely and effective 
NextGen development and implementation is the transitional R&D gap that 
exists between FAA and NASA. This gap has emerged from NASA's new focus 
on foundational aeronautics research. Foundational technologies must be 
properly assessed and validated before they can be implemented in 
either new standards or products. However, the FAA lacks the ability 
and resources to conduct the transitional research needed to mature 
NASA's foundational technologies. As a result, no agency claims 
responsibility for this critical research segment. AIA raised this 
issue last summer in testimony before this subcommittee and the DOT 
Inspector General's office amplified the same concern in its February 
report. The importance of transitional research also emerged as a 
significant discussion topic at the Subcommittee's hearing on FAA R&D 
programs last week.
    The transitional research gap need not exist and it must be closed 
as soon as possible. Congress and this subcommittee in particular have 
shown outstanding leadership in addressing aeronautics research issues 
by mandating the development of the National Aeronautics R&D Policy and 
its associated integrated research roadmap. At the same time, three 
provisions of the NASA Reauthorization Act of 2005 set the stage for 
addressing the transitional research gap. Section 422 of the Act set 
targets for NASA to develop and demonstrate critical aviation critical 
technologies related to environmental performance and other areas that 
are directly related to achieving NextGen goals. Sections 423 and 424 
require NASA to align its airspace systems and safety research to the 
JPDO's Next Generation Air Transportation System Integrated Plan within 
one year of enactment. Furthermore, the National Aeronautics R&D Policy 
highlights NASA's role in transitional research for public interest 
research (e.g., safety, environment), high-risk technology gaps, and 
government internal R&D, including support of the FAA and JPDO. It also 
calls for NASA to align its programs to NextGen objectives ``to the 
maximum extent practicable.'' However, the full, integrated aeronautics 
roadmap still needs to be developed and NASA has yet to meet its 
obligations under sections 422-424.
    In addition to providing critical direction on aeronautics, the 
FY07 Continuing Resolution allocated an additional $166 million for 
NASA's Aeronautics Research Mission Directorate. In AIA's July 2006 
testimony, we recommended that any additional aeronautics research 
funds NASA receives above the requested amount go towards NextGen-
related transitional R&D. Congress has provided the necessary funds. 
Now it is up to NASA, working with JPDO and FAA, to jumpstart its 
research execution this year and close the research gap now. Our 
country cannot afford to wait. One point is certain: our entire nation 
will reap the benefits of NextGen success. Just as certainly, our 
entire nation will suffer the negative consequences if it is allowed to 
fail.
    Thank you once again, Mr. Chairman, for this opportunity to 
testify.

                     Biography for John W. Douglass
    John W. Douglass is President and Chief Executive Officer of the 
Aerospace Industries Association (AIA), which represents the Nation's 
leading manufacturers and suppliers of civil, military, and business 
aircraft, helicopters, UAVs, space systems, aircraft engines, material, 
and related components a, equipment services, and information 
technology.
    Mr. Douglass became the seventh full-time Chief Executive of the 
Association in 1998. Before that he served for nearly three years as 
Assistant Secretary of the Navy for research, development and 
acquisition of defense systems for the U.S. Navy and U.S. Marine Corps.
    A nationally recognized expert in systems acquisition, Mr. Douglass 
has extensive acquisition experience in Congress, the Defense 
Department, and the executive branch as a policy authority, contracting 
officer, engineering officer, test and evaluation officer, program 
control officer, and research director.
    Before being named Assistant Secretary of the Navy, Mr. Douglass 
was with the Senate Armed Services Committee where he was foreign 
policy and science and technology advisor to Senator Sam Nunn and 
served as lead minority staff member for defense conversion and 
technology reinvestment programs.
    Earlier Mr. Douglass completed 28 years of U.S. Air Force service 
and retired as a brigadier general in 1992. His numerous Air Force 
assignments included service as the deputy U.S. military representative 
to NATO as well as Director of Plans and Policy and Director of Science 
and Technology in the Office of the Secretary of the Air Force. He also 
served as special assistant to the Under Secretary of Defense for 
Acquisition.
    Within the Office of the President, Mr. Douglass was Director of 
National Security Programs for the White House, responsible for 
formulating policy on a broad range of national security issues. He 
served as President Reagan's personal representative to the Blue Ribbon 
Commission on Defense Management chaired by David Packard.
    A native of Miami, Florida, he earned a Bachelor of Science degree 
in industrial engineering from the University of Florida, a Master of 
Science degree in industrial engineering from Texas Tech University and 
a Master of Science degree in management science from Fairleigh 
Dickinson University. Mr. Douglass has done postgraduate work at the 
Cornell University Center for International Studies where he was an Air 
Force Research Fellow with the Peace Studies Program.
    Mr. Douglass is a member of the Board of Governors of the Aerospace 
Industries Association and Chairman of the Board of Trustees of the 
National Center for Advanced Technologies. He served on the Commission 
on the Future of the United States Aerospace Industry, which issued its 
final report in November 2002. Mr. Douglass is Chairman of the 
International Coordinating Council of Aerospace Industries 
Associations.

AIA Positions

Member, AIA Board of Governors

Chairman, Board of Trustees, National Center for Advanced Technologies

Chairman, National Institute for Aerospace Studies and Standards

Member:

American Astronautical Society Board of Directors

Council of Manufacturing Associations Board of Directors, National 
        Association of Manufacturers

International Coordinating Council of Aerospace Industries Associations

FAA Research, Engineering and Development Advisory Committee

Industry Management Council, Next Generation Air Transportation System 
        Institute

National Contract Management Association

University of Tennessee Aerospace Advisory Council

    Chairman Udall. Thank you very much, Secretary Douglass.
    Dr. Carmichael, the floor is yours.

     STATEMENT OF DR. BRUCE CARMICHAEL, DIRECTOR, AVIATION 
    APPLICATIONS PROGRAM, RESEARCH APPLICATIONS LABORATORY, 
            NATIONAL CENTER FOR ATMOSPHERIC RESEARCH

    Dr. Carmichael. Thank you, Chairman Udall. I would request 
submission of my testimony--written testimony for the record.
    Chairman Udall. I am sorry. Yes, unanimous consent, so 
ordered. Let the record show that Dr. Carmichael's full remarks 
are included in the record.
    Dr. Carmichael. As you heard from Mr. Leader, aviation 
weather research is critical to the successful development and 
implementation of NextGen. Seventy percent of delays in today's 
system are attributed to weather. That is the bad news. The 
good news is that as much as 60 percent of today's delays and 
cancellations for weather stem from potentially avoidable 
weather situations. Enhanced weather forecasts as well as 
improved use of forecasts can contribute to a reduction in 
these avoidable weather impacts. Improved weather information 
supports an agile decision-making process to manage air traffic 
expected in the future system. It allows the system to smoothly 
mitigate the potential impacts of summer and winter storms, 
turbulence, en route icing, and reduce ceiling visibility 
conditions. This can be achieved only through the introduction 
of new technologies related to the observation, forecasting, 
dissemination and integration of improved weather information 
into our traffic management decision support tools and 
processes.
    The investment in aviation weather safety research must 
continue in order to ensure that an increase in accidents does 
not accompany an increase in traffic. Such investments have 
yielded and will continue to yield critical improvement for the 
flying public.
    A promising program initiative of the JPDO is to develop a 
NextGen network-enabled weather system to be executed by the 
FAA, DOD and NOAA to integrate the forecasting and 
dissemination capabilities of the different weather forecasting 
agencies. The JPDO weather team has compiled a list of 130 
research tasks needed for NextGen. These tasks address a number 
of issues that are critical if the Nation is to successfully 
integrate aviation weather into NextGen. Many of the issues are 
known, and research is already underway. Research in improved 
forecasting and integration of forecasts into decision support 
tools is absolutely critical to NextGen. It must be recognized 
that sustained and predictable aviation weather research 
funding at a significantly increased level is required in each 
of the JPDO stakeholder agencies. This funding stability is 
needed to allow the laboratories to hire, develop and maintain 
the highly specialized researchers needed to address the 
complex issues at hand.
    The community of weather and automation researchers has 
been hard at work for three years supporting the JPDO planning 
process almost totally on a collateral basis. To maintain this 
very talented experience base, it is critical that funding be 
appropriated to begin to directly support this expert team.
    Changes to NASA's aeronautics program are having a serious 
impact on the effectiveness of the Aviation Weather Initiative. 
The NASA aeronautics program has experience in ATM decision 
support and is a logical partner for the JPDO and FAA in this 
endeavor. However, in my view, the current NASA funding 
direction in aeronautics provides little hope for a strong 
effort by NASA in the area of integration of weather into 
automation tools. This is unfortunate.
    In conclusion, aviation research--aviation weather research 
is vital to the successful development and implementation of 
NextGen. Most of the technology needed to build NextGen has 
already been invented. Weather remains an area with significant 
inventions still to be done if we are going to successfully 
integrate it into NextGen. All agencies and laboratories with 
relevant skills must be brought to bear on these difficult 
problems if we are to be successful, but current changes to 
NASA's aeronautics program are having a significant negative 
impact on the effectiveness of the Aviation Weather Integration 
Initiative.
    This concludes my testimony, and I thank you for the 
opportunity to be here today.
    [The prepared statement of Dr. Carmichael follows:]
                 Prepared Statement of Bruce Carmichael
    Good morning, Chairman Udall, Congressman Calvert and Members of 
the Subcommittee. I am honored to be here this morning to testify on 
the Joint Planning and Development Office (JPDO) and the Next 
Generation Air Transportation System. I am Bruce Carmichael, Director 
of the Aviation Applications Program at the National Center for 
Atmospheric Research (NCAR). For the past 16 years I have worked at 
NCAR to improve weather information for pilots, dispatchers, and 
controllers with special focus given to the hazards of thunderstorms, 
turbulence, icing, winter weather, and ceiling/visibility. For almost 
three decades, I have been involved with the aviation industry in the 
automation of maintenance processes, air traffic control, and weather 
information. I serve the JPDO Weather Integrated Product Team as the 
Co-Lead of the Forecasting Group, and the National Business Aviation 
Association, Inc., as Weather Chairman of the Access Committee.

The importance of aviation weather research to the successful 
development and implementation of the Next Generation Air 
Transportation System (NextGen).

    Advances in aviation weather research will be critical to the 
success of the Next Generation Air Transportation System (NextGen). 
Seventy percent of delays in today's system are attributed to weather. 
Moreover, as traffic grows, weather-related delays will worsen. The 
Federal Aviation Administration (FAA) estimates that unless we can make 
progress on better weather forecasts, by 2014 there could be 29 days of 
delay worse than the worst delay day of 2006. That is the bad news. The 
good news is that as much as 60 percent of today's delays and 
cancellations for weather stem from potentially avoidable weather 
situations. Enhanced weather forecasts as well as improved use of 
forecasts can contribute to a reduction in these avoidable weather 
impacts. Research guidance given to the JPDO departments and agencies 
including FAA, the National Oceanic and Atmospheric Administration 
(NOAA), the Department of Defense (DOD), and the National Aeronautics 
and Space Administration (NASA), includes many recommendations. A high 
priority is the development of a consolidated summer and winter storm 
forecast system. All of the agencies involved agree with that strategy. 
A goal is to gradually merge 16 different forecasting systems so that 
by early in the next decade we will have a single system that utilizes 
the best-of-the-best elements of today's technologies.
    Better weather forecasting skill is a vital building block for 
NextGen, facilitating performance targets for the years 2015 and 2025 
that will reduce congestion by providing far greater capacity than our 
current system with higher efficiency levels than we have today, while 
maintaining or enhancing safety. Improved weather information provides 
support for an agile decision-making process to manage the large volume 
of air traffic expected in the future. It allows the system to smoothly 
mitigate the potential impacts of summer and winter storms, turbulence, 
enroute icing, and reduced ceiling/visibility conditions. As a result, 
the system will be able to respond quickly to changing air traffic 
needs in the face of changing weather. This can only be achieved 
through the introduction of new technologies and procedures, innovative 
policies, and advanced management practices related to the observation, 
forecasting, dissemination, and integration of improved weather 
information into air transportation decision support tools and 
processes.
NextGen Network Enabled Weather (NNEW).
    One of the program initiatives coming out of the JPDO to synthesize 
the weather research activities and to move the research toward 
operational capabilities is the concept of network enabled weather. The 
DOD already has a number of aspects of network enabled weather that it 
uses to collect, process, and disseminate weather to operational units 
around the world. DOD, FAA and NOAA are collaborating on a joint 
program office concept that would begin to integrate the forecasting 
and dissemination capabilities of the different agency weather 
programs. A number of the research concepts that I've already mentioned 
would be incorporated into this joint program office. The FAA has 
requested initial funding in FY 2008 and an interim goal is to move 
toward early working prototypes by the 2011-2012 timeframe. I would 
defer to others more directly involved to discuss the details.
    Research on aviation weather safety issues, although not 
highlighted as a part of the NextGen activity, is actually assumed to 
underlie all other weather activity. Aviation weather safety research 
is essential to meeting safety objectives and NextGen performance 
targets. The potential of the NextGen system to handle tremendous 
growth in air traffic compels us to maintain our vigilance in weather 
safety research. We must continue to invest in weather safety to reduce 
accident rates to insure that an increase in accidents does not 
accompany the increase in traffic. Unmanned aerial systems will also 
require more precise weather forecasts. Investments in weather safety 
R&D over the last 25 years have yielded, and will continue to yield, 
critical safety improvements. Our scientists and engineers, for 
example, developed the solution to the microburst and wind shear 
problems; developed the state-of-the-art Aviation Digital Data Service 
(ADDS); improved forecasts of summer and winter storms; developed far 
more precise forecasts of airborne icing and turbulence; improved 
ceiling and visibility forecasts; and improved aviation radar products.
    Weather research to transform airport operations in NextGen is also 
critical. Key elements of this research are to increase the capacity 
and improve the safety of aircraft operating from airports in winter 
weather and reduced visibility conditions. As the number of operations 
at our airports continues to rise, weather research projects must 
include integration with decision support tools that insure safe 
transit of aircraft on taxiways and runways, improving our 
understanding of the effects of winter weather on the safety of 
aircraft operating in ice and snow conditions, and the development of 
state-of-the-art technology that uses improved weather skill to 
minimize the disruption during deicing and plowing operations.
    In NextGen, weather is also important if we are going to meet the 
increasing demand for flying in an environmentally sound manner. The 
weather focus of the environment goal is making aviation quieter, 
reducing pollution in communities around airports, and reducing climate 
impact. New investments in weather research are required to help us 
better understand how to couple weather information to an agile air 
traffic management (ATM) system to dynamically reduce noise, pollution, 
and climate impacts.
    Given expected demand growth, it is important to improve operations 
well in advance of 2025 so we can avoid grid lock. With that in mind, 
weather research is critical now to support mid-term capabilities that 
must be put in place. The JPDO weather team is helping to define 
Initial Operating Capabilities that can deliver mid-term results and 
also provide needed stepping stones to NextGen.

Significant issues that need to be addressed if the Nation is to 
successfully integrate aviation weather into the Next Generation Air 
Transportation System.

    The JPDO weather team has compiled and prioritized a list of over 
130 weather research-related tasks needed in the NextGen environment. A 
preliminary allocation of those tasks among FAA, DOD, NASA and NOAA has 
been discussed and FY 2009 guidance has been given to those agencies. 
Assimilating weather into decision-making is a critical enabler of the 
NextGen system. Common situational awareness, system capacity, system 
efficiency, and safety will be increased due to the availability of 
authoritative, net-centric 4-D weather information to all systems 
users. Current thinking is that the NextGen weather environment will 
address four nested spatial scales (airport and metro area, regional, 
continental, and global), and will allow users to safely plan and 
conduct 4-D, gate-to-gate, trajectory-based operations that avoid 
hazardous weather and provide safe and comfortable flight conditions. 
All users will have access to real-time critical hazardous weather 
information (diagnostics and forecast) to facilitate weather avoidance 
and efficient flight operation. Aircraft will become nodes on the 
network. The information will support all phases of the flight include 
pre-flight planning, in-flight updates, and post flight review. The Air 
Traffic Management (ATM) system is expected to be able to maximize 
safely navigable airspace due to the seamless, automatic assimilation 
of adaptive nowcast/forecast information into the software logic of ATM 
decision support tools. I'm sure that the JPDO would be happy to brief 
you and your staff on the concepts, initiatives and timetables in the 
weather research plan.
    Fortunately, in collaboration with the FAA, the aviation weather 
research community has been steadily and carefully refining R&D goals 
and portfolios to meet the needs of the aviation community for more 
than twenty years. We continually assess our research programs in 
conjunction with our stakeholders and users to ensure we keep our R&D 
resources focused on the most critical tasks. Thus many of the 130 
tasks noted by the JPDO are already known and research is already 
underway.
Integrating Weather into Decision Support Systems
    The weather R&D program has received expert advice and guidance 
from the FAA's Research, Engineering and Development Advisory Committee 
(REDAC). The REDAC, under its National Airspace System (NAS) Operations 
Subcommittee, recently established a Weather ATM Integration Working 
Group (WAIWG) to do a focused study on the difficult problem of 
automatically integrating real-time and forecast weather information 
directly into the software logic of ground-based and cockpit-based 
decision-support tools and processes. The working group includes 
weather and operations experts from national laboratories, MITRE 
Corporation, NASA, DOD and the airline industry. The weather research 
program will benefit significantly from the recommendations provided by 
this group regarding how to deal with weather ATM integration. This 
working group is interacting closely with the weather and automation 
R&D communities to develop recommendations that will be effective.
    As a member of this group I can tell you that one of our greatest 
challenges is our ability to understand what the future system will 
look like. What new weather forecasting and decision-support 
technologies will be available? The JPDO weather team has developed a 
comprehensive Weather Concept of Operations to raise the questions 
needed to focus research and systems development. This is all 
significant work, essential to understanding the transformed 
operational environment and helping us to develop a plan for achieving 
it. It also makes clear many of the difficult questions that the 
weather research community must answer if NextGen is to succeed.
Better Processing of Huge Amounts of Information
    To some extent our nation's aviation weather system has become a 
victim of its own success. We have created the most effective, 
efficient and safest system in the world dealing with weather issues. 
But we now face a serious and impending problem: today's weather system 
produces a large volume of information with such frequent update that 
human users are overloaded when trying to effectively make use of the 
valuable detail available to systematically fine tune flight plans and 
their execution. We must continue to improve our forecast skill, and 
this implies increasing our time and space resolution. Automated 
decision-support tools will have to achieve several breakthroughs in 
order to effectively and automatically apply enhanced weather 
information to route planning, and route re-planning for FAA and 
airline traffic flow management specialists.
    Weather research will help achieve NextGen by identifying 
challenges, understanding scientific barriers, and developing solutions 
that jointly address weather safety, weather mitigation of 
environmental impacts, weather for improved air traffic management, 
human factors associated with highly automated weather systems, 
systematic integration of weather into decision support tools, and 
effective system separation of aircraft from weather. NextGen must 
address the challenges of operating the safest, most efficient, high-
capacity air transportation system in the world. We are a long way from 
knowing how to do the weather portion of this, but the job of research 
is to discover the solution. We must identify the scientific 
constraints and barriers imposed by weather to separate solutions that 
are effective from those that are not.
    To address such issues, research in improved forecasting and 
integration of those forecasts into decision-support tools is 
absolutely critical to NextGen. It must be recognized that sustained 
and predictable aviation weather research funding at a significantly 
increased level is required in each of the JPDO stakeholder agencies. 
This funding stability is needed to allow the laboratories to hire and 
develop the highly specialized researchers needed to address the 
complex issues at hand.
    Human Factors research and demonstration projects will be needed to 
develop the best approaches for integration of improved weather 
information into decision support systems to help mitigate potential 
errors and exploit the problem-solving capacity of humans. Performance 
metrics should be developed that measure the value added by people as 
elements of the weather decision system versus the impact of new 
technologies.
    Historically, aviation weather R&D has had a focus on near-term 
operational goals and objectives. A large share of the R&D was focused 
on specific near-term safety and capacity issues. The weather research 
program must be adapted to be more flexible, balanced, and dynamic so 
that we can respond simultaneously to the critical near-term needs of 
the system while providing for the cutting-edge NextGen requirements. 
The JPDO weather team is the mechanism by which the multi-agency 
stakeholders and the community will assess weather R&D requirements for 
NextGen, and new initiatives will be reviewed and prioritized, before 
being recommended to one or more agencies for execution.
    The aviation weather research community, with guidance from the 
JPDO, is incorporating NextGen into its planning activities, including 
a strong requirement for systematic integration of weather forecasts 
directly into decision-support tools and processes used by FAA traffic 
flow managers, airline dispatchers and pilots. In addition, the weather 
community is using the NextGen planning process to guide our 
transformation of weather capabilities in a way that is tightly coupled 
with the transformation of decision-support tools. In the past, the 
weather research community's plans and execution successfully provided 
benefits in safety, capacity, and efficiency to the community. But the 
new approach of developing plans that are tightly coupled with the 
decision-support tool research community promises to significantly 
enhance our success. This includes the R&D work in decision support 
tools at the MITRE Center for Advanced Aviation System Development 
(CAASD). I believe that a timely and efficient transition to NextGen 
requires the weather research community to participate in concept 
development, validation, prototyping, and field demonstrations. Such 
involvement will give us in-depth understanding of required NextGen 
weather improvements and hasten our ability to implement NextGen 
weather systems. Of particular importance are demonstration projects 
that show the feasibility and utility of seamless integration of 
weather into new decision support tools that use System Wide 
Information Management (SWIM) as the source for weather. Such 
demonstrations can lower our risk and provide rapid implementation 
opportunities.
    The weather research community is also using the JPDO process as a 
way to plan, execute and implement partnerships with private industry. 
Through the JPDO weather team we are seeking stakeholder input, 
evaluating available technologies, defining and prioritizing research 
and development requirements, establishing milestones and commitments, 
and providing status, context and guidance for weather initiatives 
related to NextGen.
    The JPDO weather team also provides a single point for initiatives 
to be coordinated among all stakeholder agencies and institutions. It 
ties initiatives directly to each organization's budget process, and in 
this way moves us toward a coordinated development of JPDO's vision of 
the future aviation weather system. It provides an integrated view of 
the programs, systems and procedures that are critical to transforming 
the Nation's aviation weather system; and it will let us plan our 
activities within the framework of the steps that must be taken by all 
JPDO agency weather partners in order to achieve timely implementation. 
It also allows us to understand the near-term steps and mid-term goals 
that we must accomplish to transform the aviation weather system on our 
way to the NextGen system of 2025.
    The community of weather and automation researchers has been hard 
at work for three years supporting the JPDO planning process, almost 
entirely on a collateral basis. However, now that the planning stage 
has matured and we are on the verge of stepping up the tempo in 
research and applications dealing with weather and NextGen, it is 
critical that funding be appropriated to begin to directly support 
these expert teams and the program advances that the JPDO has 
identified.

Impacts that the changes to NASA's aeronautics program are having on 
the effectiveness of the aviation weather initiative.

    NextGen is committed to reducing congestion in our nation's air 
transportation system. Future congestion can only be alleviated by 
transforming the system we have today through bold moves that include 
systematic integration of more skillful weather information into the 
heart of innovative new automated decision-support tools. The NASA 
aeronautics program has a wealth of experience in the development of 
decision-support tools for air transportation, and is a logical partner 
for the JPDO and FAA in this endeavor. The Center-TRACON (Terminal 
Radar Approach Control) Automation System (CTAS) is a good example of 
NASA's prior work in this area. However, in my view, the current NASA 
funding direction in aeronautics provides little hope for a strong 
effort by NASA in the area of integration of weather into automated 
tools. This is very unfortunate.
    The FAA is requesting substantial funding to support wake 
turbulence research to help increase capacity while maintaining safety. 
This will help us to safely reduce separation distances between 
aircraft, support the efficient use of closely spaced parallel runways, 
and allow airports to operate closer to their design capacity. NASA has 
a long track record of partnership with the FAA in this research area. 
Wake turbulence is viewed by the JPDO as a weather issue, and is part 
of the planning process for the weather team. In large part, this is 
because of the critical importance of the weather connection when 
predicting wake turbulence behavior. Wake turbulence is a research 
activity that is in need of significant JPDO attention to rationalize 
the activities of the various agencies. Uncertainty of NASA's funding 
and lack of integration with the rest of the weather community in this 
area is creating difficulty in coordinated weather research planning.
    Research in use of unmanned aircraft systems as platforms for 
targeted observations of the atmosphere offers considerable promise to 
improve forecasts in high value areas with sparse observations. NextGen 
needs to explore the integration of unmanned aircraft observing systems 
into the National Airspace System. This research is a natural fit for 
NASA, but programs in this area have disappeared.
    In conclusion, aviation weather research is vital to the successful 
development and implementation of the Next Generation Air 
Transportation System (NextGen). Most of the technology needed to 
implement NextGen is already relatively mature. Weather remains an area 
with significant issues that need to be addressed if the Nation is to 
successfully integrate aviation weather into the Next Generation Air 
Transportation System. All relevant agencies and laboratories must be 
brought to bear on these difficult problems if we are to achieve 
success. Current changes to NASA's aeronautics program are having a 
significant negative impact on the effectiveness of the aviation 
weather integration initiative.
    This concludes my testimony, and I thank you for the opportunity to 
appear before the committee. I would be happy to answer any questions 
the committee may have.

                     Biography for Bruce Carmichael
    Dr. Carmichael holds a M.S. from Northwestern University in Applied 
Mathematics and a Ph.D. from the University of Maryland in Computer 
Science. He has 38 years of experience spanning a number of activities 
including university teaching, commercial research, government service, 
consulting, and academic research. His past 27 years have been involved 
with the aviation industry in automation of maintenance processes, air 
traffic control, and weather information. He has been involved in 
system engineering of improved FAA automation and weather systems. For 
the past 16 years he has been at the National Center for Atmospheric 
Research, where he serves as Director of the Aviation Applications 
Program. This program is working to improve weather information for 
pilots, dispatchers, and controllers, particularly related to the 
hazards of thunderstorms, turbulence, icing, winter weather, and 
ceiling/visibility. He is currently serving the Joint Planning and 
Development Office (JPDO) Weather Integrated Product Team as the Co-
Lead of the Forecasting Group, and the National Business Aviation 
Association, Inc., as Weather Chairman of the Access Committee. For the 
past nine years he has coordinated the Friends/Partners in Aviation 
Weather activity, a grass roots group which brings together the weather 
provider community and user community to discuss topics of common 
interest. Dr. Carmichael is also an active commercial instrument-rated 
pilot.

                               Discussion

    Chairman Udall. Dr. Carmichael, thank you for your 
testimony.

       Status and Importance of MOU Defining Agencies' Roles in 
                                NextGen

    At this point we will open the first round of questions. 
The Chair recognizes himself for five minutes.
    Mr. Leader, I would like to start with you, if I might. As 
you know, the JPDO, as it is currently organized, has no direct 
budgetary or programmatic authority over its participating 
agencies. Again, as we have heard, and certainly in my remarks, 
I also mentioned if those agencies don't work together and make 
the necessary resource and R&D commitments, the NextGen 
initiative is unlikely to succeed, and that is why I am 
troubled by the fact that a year after this subcommittee was 
told that an MOU would be signed that clearly defined each 
participating Agency's roles and responsibilities, it still 
hasn't happened. Given that it has already slipped by a year, 
it is clear that one or more significant issues are holding up 
the signing of the MOU. Could you outline what those issues are 
and how you intend to address them? And to give a heads-up to 
the other witnesses, if they would like to comment after your 
comments, I would be eager to hear what they have to say, and 
in particular, how important is it that an MOU be agreed upon 
by the participating agencies.
    Mr. Leader.
    Mr. Leader. Yes, Mr. Chairman. We currently--it is correct 
that we currently do not have a signed Memorandum of Agreement. 
We have a signature on the draft by the Secretary of 
Transportation and by the Administrator of NASA. The Department 
of Defense, it is my belief, has reviewed the draft MOU and is 
prepared to sign it but is waiting for the Department of Air 
Force to be recognized as the executive agent for Next 
Generation issues. Secretary Wynn has, I believe, already seen 
it and has been through the DOD General Council's Office so it 
is a question now of getting the authority for the Air Force to 
be the signatory on the Memorandum of Agreement.
    It is probably more important symbolically to have the 
Memorandum of Agreement signed. More important would be the 
active commitment of the various departments and agencies to 
the success of the initiative.
    Chairman Udall. Do the other panelists care to comment? Dr. 
Dillingham.
    Dr. Dillingham. Yes, Mr. Chairman Udall. I agree that the 
Memorandum of Understanding is important because I think you 
need something in place that is going to span this change in 
senior executives in the various places, be it, you know, the 
secretaries of the various Cabinet departments, the 
Administrator of FAA. All of those are sort of changing 
positions, changing people, personalities, and this is a long-
term undertaking and I think there needs to be some document, 
some formal document that is there. On the other hand, I think 
some of the things that are also taking place now are very 
useful in that vein. For example, I think, you know, working 
through OMB to have an Exhibit 300 where the NextGen projects 
across the government are tagged as such and it makes a 
portfolio. It is very important because that sort of, you know, 
where the money is. It is also important as well as having that 
sort of agreement. Similarly, I think if JPDO can go through, 
again working through OMB to coordinate the various Enterprise 
Architectures across the various participating partner 
agencies, that again is sort of--you know, in a strategic way, 
it is the kind of thing that will give some 
institutionalization to JPDO. So the Memorandum of 
Understanding is important but these other kinds of activities 
are also useful and important, I think.
    Chairman Udall. Secretary Douglass.
    Mr. Douglass. Yes, sir. These things are vital. I was just 
thinking back in my memory, when I was a young officer I was 
the business manager on the Joint Cruise Missile Project 
Office. You may recall, Jimmy Carter cancelled the B-1 bomber 
and he said we are going to put cruise missiles on the B-52s 
and so we had a Memorandum of Agreement which was imposed down 
on the Navy and the Air Force to go have the Navy develop these 
missiles, and even with the agreement, sir, you know, there 
were daily arguments about who was going to do what and so on. 
The agreements just begin the--are the first step in a lengthy 
discussion of agencies working together. My experience on Joint 
Strike Fighter later when I was Assistant Secretary of the 
Navy, also there are Memorandums of Agreement between the 
services for things like air-to-air missiles so that if we 
develop new air-to-air missiles that can work on the F-15, the 
F-16, the F-18, the Joint Strike Fighter, so on. These things 
are fundamental. If you don't have them, the dialog that comes 
later when you try to actually implement things together is 
almost impossible to put into any rational context. So I can't 
emphasize as an old joint program guy myself how important 
these things are, sir.
    Chairman Udall. Function follows form, I hear you saying, 
Mr. Douglass.
    Dr. Carmichael, would you like to comment?
    At this juncture, the Chair would like to recognize an 
important and contributing Member of this committee, Mr. 
Rothman from New Jersey.
    Mr. Rothman, you have five minutes.
    Mr. Rothman. Thank you, Mr. Chairman. Thank for the very 
kind introduction.

     Projections For and Negative Impacts of Increased Air Traffic

    Thank you, gentlemen, for your testimony and your 
appearance today. I have another hearing with the Defense 
Subcommittee with Secretary Gates and the head of the Joint 
Chiefs of Staff next door so I am going to be bowing out after 
my questions, but please don't take that departure and my late 
arrival--I was there first--as a lack of interest. I am 
passionate and completely and totally focused on what you are 
doing and in particular the work of the FAA, frankly for lots 
of reasons.
    Number one, there is an airport in my district, Teterboro 
Airport, and we also have air traffic overhead from Newark and 
from LaGuardia, and JFK is in the immediate, or nearly 
immediate vicinity as well, so hundreds of thousands of people 
in the New York metropolitan area are suffering today with the 
present levels of activity from aircraft noise, emissions from 
aircraft that are not healthful, they are unhealthy, and with 
living every day with the masses of aircraft coming over our 
houses at various altitudes, one after another after another 
after another, and you folks want more aircraft in the sky over 
our heads?
    Let me ask you this question I asked the previous panel, 
which I would respectfully ask you to consider. Let us assume 
that you could get your wish on technology, you could make it 
silent--planes silent. You could make them without any harmful 
emissions and you could make it safe for them and you could 
make it safe for them to operate wing to wing to wing to wing 
and it could cover the sky, the horizon so much so that it 
blotted out the sun. Is that what you are shooting for? Is that 
the kind of world you want me to live in or you want your 
children to live in? Is that progress? Is that necessary? 
Commerce is supposed to serve and benefit the quality of life 
of the people. That is why we have commerce. But when the level 
of commerce becomes harmful to your physical well-being or your 
emotional well-being and becomes destructive, then commerce had 
got to find a different avenue of pursuing its goals.
    And so, I read with some interest, discouragement--I saw 
that you have as one of the strategies and related agencies, 
develop environmental protection that allows sustained economic 
growth, aviation growth, and I am assuming by environmental 
protection you mean noise and emissions. And that is fine, that 
is great, but I tell you, there are millions of people around 
the country, millions, who are fed up and they don't care if 
you can achieve these, you know, more efficiency in the sky and 
pack more planes into the sky. That is not what they want. And 
when a two-lane road becomes crowded, people have to find 
another avenue, another way to get where they want to go. And 
so, I tell you, I for one--and I understand the importance of 
aviation to our economy and to our security, et cetera, 
completely. But it is not going to be at the expense of the 
quality of life of the people, which is already too great--of 
the people who are paying too great a price. And so, I 
respectfully, but forcefully, plead with you to take these 
matters into consideration. Otherwise, I will be a uniform--a 
bigger thorn in everybody's side and I know that I represent 
millions and millions of people across this country.
    But about my question about the wing to wing to wing to 
wing hypothetical, has any--have we thought about that? And if 
you say that is fine, then that says something about your view 
of the quality of life of the people of this nation. If you say 
wing to wing to wing and it blots out the sun, it is just too 
much. Then tell me where you draw the line of what is a 
reasonable limit on blotting out the sun or constant, massive 
plane line overhead, if there is time for an answer.
    Chairman Udall. Mr. Douglass.
    Mr. Douglass. Congressman, we--I think most people 
recognize that there is a natural tension in a democracy among 
constituents of different value streams. If you live around an 
airport, you see the negative side of air congestion. Probably, 
it is a part of your life much more than if you are a person 
who wants to go visit your granddaughter in California and you 
are a working person and you only have a day or so that you can 
take off and you can't spend the whole time to go in your car 
or go on a train or some other factor. But the fact of it is, 
sir, the sky is a big place and I would ask you--I am sure you 
fly home to New Jersey occasionally, look around when you fly 
and how--think of how seldom it is when you are in the air that 
you can actually see another airplane. It is a rare thing. I am 
an aviator. I have been in the Air Force and served in the Navy 
and, you know, I tend to look out the window, look for other 
airplanes because that is what I did when I was on active duty. 
But you seldom see them. It is a very big place. The truth of 
it is, there is a great margin of accommodation here between 
the millions and millions of Americans who have an interest in 
flying for business reasons or recreational reasons or whatever 
and the countervailing interest of people that live around 
airports. And I will tell you, sir, that the industry, both the 
manufacturers and the airlines themselves are absolutely 
dedicated to doing everything they can to relieve the burden on 
the people around them.
    Mr. Rothman. I know my time is up, Mr. Secretary, but we 
don't live within--you know, Teterboro Airport is a little 
generation aviation airport which causes a lot of problems when 
they fly low and Newark flies high, and that can be fixed and I 
hope that that will. But the people who are affected are living 
further and further away from airports who report--and I am 
there at their homes and see these planes coming overhead, so 
it may not seem like it when you look out a window, but when 
you look up on your kid's soccer field and you see the planes 
every day--I know I have taken too much time but it is not just 
people who live within--who moved into a house within sight of 
an airport. They are living farther and farther away and never 
thought they would be affected by an airport or the region's 
airports who are now being affected. So those are--it is 
getting worse, in my view.
    Chairman Udall. The gentleman's time has expired.
    We have been joined by former Chairman Calvert, Ranking 
Member Calvert now, and I know he has an opening statement and 
then I would also like to extend to him five minutes for 
questions if he would like to use those five minutes.
    Mr. Calvert.
    Mr. Calvert. Well, I appreciate it, Mr. Chairman. I had a--
we had a meeting with the President of the United States so he 
trumped you, I am afraid, Mr. Chairman. So--but I am glad I got 
back to give this statement and to thank you. I do have to fly 
back to California later this afternoon. I do it every week and 
I am glad that there are airports that take me and I can get 
back here to Washington early Monday morning.
    But anyway, I want to thank you for scheduling this hearing 
to assess the progress of the Joint Planning and Development 
Office and thanks to our witnesses for taking time out of your 
busy schedule to appear before us this morning. Even though 
this Subcommittee held our last hearing on JPDO just last year, 
in my mind, Congress can't exercise enough oversight in such a 
critically important and fast-paced program, much to the 
dismay, I suppose of the JPDO's leadership but I think it 
speaks volumes about Congress's interest in assuring the 
successful development of the Next Generation Air Traffic 
Management System. Failure to keep pace with growth in air 
travel would be disastrous to this economy.
    I look forward to hearing from you. I will have a couple of 
questions, hopefully, before we have votes on the Floor, and 
get your candid assessment about the progress that has been 
made or not made and challenges remaining in meeting the goals 
of the Vision 100 legislation. I know teams of federal and non-
federal experts have been working hard to put in place the 
processes and management structures required for such a massive 
undertaking, but in the few minutes I have remaining I will 
limit my comments to NASA's evolving role in air traffic 
management research.

           NASA R&D Reorganization Efforts on FAA Technology

    When Vision 100 legislation was enacted, Congress 
anticipated the Federal Aviation Administration, as the 
operator of our nation's ATM system, and the National 
Aeronautics and Space Administration as our nation's leading 
aeronautics and R&D organization, would continue to work 
collaboratively as they have for more than 40 years, NASA's 
research into developing long-lead, high-risk technologies, FAA 
adapting their research products to incorporate them into a 
national airspace system. It has been a productive 
relationship, and over the years each agency has collaborated 
their R&D programs and budgets to reflect that. The JPDO 
recognized NASA's expertise early on by selecting them to lead 
the Agile Airspace Integrated Product Team.
    In the last 18 months, however, the subsequent--and 
subsequent to the creation of the JPDO, NASA's aeronautics R&D 
program has undergone, as you know, a major reorganization. I 
don't dispute the rationale for making the reforms but NASA 
also made a fundamental change in its R&D relationship with FAA 
by limiting future research to a level of technical maturity 
far lower than they have in years past. This has left the FAA 
with no recourse other than to cover the technology shortfall 
by increasing its own R&D budgets. Money, as you know, 
especially around here, is fungible, but talent and expertise 
doesn't easily transfer and, simply stated, my concern is that 
it will take FAA several years to adapt to this change.
    I remain concerned that this early grand endeavor now known 
as NextGen has happened at a time when R&D roadmaps are being 
finalized and spending for developing integrated new 
technologies is about to ramp up. I would strongly prefer that 
NASA's Airspace Management Program continue to advance 
promising technologies to a high level, thus freeing the FAA to 
focus on integrating them into NextGen. It is my sincere hope 
that NASA's actions don't hinder JPDO's efforts to develop 
technologies upon which NextGen will be reliant upon.
    [The prepared statement of Mr. Calvert follows:]
            Prepared Statement of Representative Ken Calvert
    Thank you, Mr. Chairman, for scheduling today's hearing to assess 
the progress of the Joint Planning and Development Office, and my 
thanks to our witnesses for taking time from their busy schedules to 
appear before us this morning.
    Even though this subcommittee held our last hearing on JPDO just a 
year ago, in my mind Congress can't exercise enough oversight on such a 
critically important and fast-paced program, much to the dismay, I 
suppose, of the JPDO's leadership. But I think it speaks volumes about 
Congress' interest in ensuring the successful development of the next 
generation air traffic management system. Failure to keep pace with 
growth in air travel would be disastrous to our economy.
    I look forward to hearing from our witnesses to gain their candid 
assessment about progress made, and challenges remaining, in meeting 
the goals of the Vision 100 legislation.
    I know teams of federal and non-federal experts have been working 
hard to put in place the processes and management structure required 
for such a massive undertaking, but in the few minutes I have 
remaining, I'll limit my comments to NASA's evolving role in air 
traffic management research.
    When the Vision 100 legislation was enacted, Congress anticipated 
that the Federal Aviation Administration, as the operator of our 
nation's ATM system, and the National Aeronautics and Space 
Administration, as our nation's leading aeronautics R&D organization, 
would continue to work collaboratively as they have for more than forty 
years: NASA researching and developing long-lead, high risk 
technologies; FAA adapting their research products to incorporate them 
into the national airspace system. It has been a productive 
relationship, and over the years each agency has calibrated their R&D 
programs and budgets to reflect this collaboration. The JPDO recognized 
NASA's expertise early on by selecting them to lead the `Agile 
Airspace' integrated product team.
    In the last eighteen months, however, and subsequent to the 
creation of the JPDO, NASA's aeronautics R&D program has undergone a 
major reorganization. I don't dispute the rationale for making the 
reforms, but NASA also made a fundamental change in its R&D 
relationship with FAA by limiting future research to a level of 
technical maturity far lower than they have in years past. This has 
left the FAA with no recourse other than to cover the technology 
shortfall by increasing its own R&D budgets.
    Money is fungible, but talent and expertise doesn't easily 
transfer, and simply stated my concern is that it will take FAA several 
years to adapt to this change. I remain concerned that so early in this 
grand endeavor now known as NextGen, one of the two key partners is 
changing the rules of the game, and it's happening at a time when R&D 
roadmaps are being finalized, and spending for developing and 
integrating new technologies is about to ramp up. I would strongly 
prefer that NASA's Airspace Management program continue to advance 
promising technologies to a high level, thus freeing FAA to focus on 
integrating them into NextGen.
    It is my sincere hope that NASA's actions don't hinder JPDO's 
efforts to develop technologies upon which NextGen is reliant.
    Thank you, Mr. Chairman.

    Mr. Calvert. So with that, I want to thank you for that 
statement, Mr. Chairman, and allowing me to do that, and I have 
a question for everyone.
    When JPDO was first created, it was established as an 
adjunct to the Federal Aviation Administration but over the 
last year the JPDO has become more tightly integrated within 
the FAA. Are there any concerns that JPDO's assimilation with 
the Federal Aviation Administration is viewed by other federal 
partners as being a proxy for FAA and not an honest broker 
working with other federal agencies?

          Concerns Regarding JPDO's Assimilation With the FAA

    And I guess we will start with you, Leader--Mr. Leader.
    Mr. Leader. Thank you, sir. I have heard the same concern 
expressed but I do not share that view. In fact, I think even 
during the course of my relatively short tenure here the links 
to the other partner agencies have been strengthened and they 
have become more engaged.
    Dr. Dillingham. I think over the last year or so the 
integration of JPDO and FAA, particularly through the OEP plan, 
has on one hand it might have been seen by some as sort of 
being too entwined, but I think the other way to look at this 
is that the JPDO is the vision part of the air traffic control 
modernization program, and the current FAA is handling what is 
in place now, and it is very important that they work together 
and that there is sort of an exchange of information and ideas 
and approach with FAA.
    I think that what we just got through talking about, this 
Memorandum of Understanding, as well as the other initiatives 
that are underway to bring all of the agencies closer together 
are things that need to be completed. Our research shows that 
there is sort of a mixed bag in terms of the relationship 
between the various partner agencies. In some cases, like NASA 
and Commerce, the relationship seems to be pretty strong in the 
kind of way we want it to be. In some other cases, Homeland 
Security, DOD to some extent, it is still a work in progress. 
So I think at this point there is pluses and minus associated 
with the arrangements.
    Mr. Douglass. Sir, to really answer your question you have 
to go back to 2002 when I was a commissioner on this commission 
on the future of the industry. And we found ourselves in the 
extraordinary position of the FAA's OEP having an improvement 
program that did match the growth in the industry, and you 
don't see that too often in government. You do see it 
occasionally, but you wouldn't see the Department of Defense, 
for example, sending troops--having a plan to build a tank, for 
example, that they knew would be defeated by the enemy tank in 
a one on one battle or they would actually plan to build a 
fighter airplane they knew was inferior to one that would come 
up against in combat. We try to stay ahead of what we know the 
demand or the threat or whatever is.
    And so, the commissioners detected a feeling that there was 
something wrong here. We have a national need and we have a 
plan to meet that need which doesn't meet the need, and so we 
looked at it and we said, look, you know, we know these 
technologies exist. For example, when I was Assistant Secretary 
of the Navy, just before I was on that commission, we had 
various kinds of technologies that knitted all the radars and 
the fleet. We were very much in the network centric warfare. We 
could tell where a sea skimming cruise missile was within a few 
fractions of a centimeter at any portion of a second in time.
    And so, we wanted to take those technologies and move them 
over to the FAA and get the FAA energized to do something 
different than it had been doing before, and that is there the 
JPDO was born out of that concept. And so now, five years have 
gone by, and we find ourselves with a department with the FAA 
doing, I think, about the best they can under the 
circumstances. We have seen the Department of Transportation 
pretty much dedicated to this approach, and we have seen 
Congress dedicated to it. But at the same time we see other 
parts of the government who don't seem to get the message. 
Despite the fact what this committee says, NASA goes again and 
continues to under fund its aeronautics as you pointed out in 
your statement.
    So there is concern that the government in its entirety has 
not recognized the seriousness of the problem and really 
engaged to solve it, but I wouldn't place that blame on the 
FAA. I think they are doing the best they can under the 
circumstances.
    Dr. Carmichael. It has taken us three years of thoroughly 
concerted effort to finally get to the point with the FAA where 
the FAA is actually buying in to the JPDO program, and I think 
this is refreshing. And I can only hope that we can bring the 
other agencies to this same point where they have an equivalent 
level of buy-in into their own programs and infrastructure to 
the JPDO.
    Mr. Calvert. You probably heard the sirens go off. We have 
a vote coming up, but I just want to make a comment and then I 
am going to submit some questions for the record that you can 
answer, hopefully, in the next couple of days back to the 
Committee. But, as you know, I think we are spending 
approximately $185 million in R&D money which was extremely low 
I think relative to the agency, what we are trying to do to 
create a safe environment for the future to fly increasing air 
traffic. In spite of our own parochial interest about airports 
nearby, the fact of the matter is air traffic will continue to 
increase and will continue to be an important and integral part 
of our economy as it should be.
    And it is incumbent upon all of you, the experts, and those 
you work with to make sure that we have a safe, and continue to 
have a safe and effective way to travel, and that the traveling 
public can look forward to that in the future. So you have a 
big job ahead of you and in a relatively short time frame 
because I think the system that we have has been hobbled 
together and has been effective over the last number of years, 
but I don't think anyone here would disagree has pretty much 
met its limitations.
    So anyway, as we move forward, there has been a lot of 
delays in this so I don't think we can delay any longer, and I 
look forward to working with you and working with the Chairman 
to making sure that we have a safe and effective air traffic 
system for this country and continue to be leaders in the 
world. With that, Mr. Chairman, I yield back the balance of my 
time.
    Chairman Udall. I thank the Ranking Member for his comments 
and his questions, and clearly the ranking member has a 
significant encompassing grasp of not only the challenges here 
but the opportunities that present themselves to us if we--I 
shouldn't say if but when we implement the next system. As 
Ranking Member Calvert mentioned, we have a vote. I think for 
the best use of our time, I am going to temporarily recess the 
Committee. I will go over and vote as quickly as I can, come 
back, and if the panel can stay we will hope to resume in 10 to 
15 minutes because you have traveled a long way, and I want to 
take advantage of your expertise and insight. So we will 
temporarily recess, and I will be back as soon as I can.
    [Recess.]

       Benefits of and Suggested Areas for Increased NASA Funding

    Chairman Udall. Thank you for your forbearance. We will get 
right back to questions. Mr. Leader, if I could direct a 
question at you and then the panel in turn can respond. You 
stated a NextGen initiative has a number of important research 
areas that need to be addressed if it is to succeed. In the 
joint resolution for fiscal year 2007, Congress wound up giving 
NASA's aeronautics program an additional $187 million above the 
President's fiscal '07 request. Mr. Douglass, in his testimony 
recommended that the additional NASA aeronautics funding go 
towards NextGen related transitional R&D. How much would the 
NextGen initiative benefit from increased NASA funding of 
NextGen research needs? Could you tell us what projects and 
activities NASA should apply additional aeronautics funding to 
in order to best address the research needs of the NextGen 
initiative? If I could get your thoughts now, I would also like 
to have you respond for the record.
    Mr. Leader. Yes, sir, I will provide a response for the 
record. I have not thought of the issue in terms of the 
question as you framed it and quantify it in financial terms. I 
can speak briefly to what our top R&D priorities are though. 
Obviously, safety-related issues because the National Airspace 
System is a safety system it is our highest factor and relative 
to that human factors were to support how flight crews and 
controllers would operate in the NextGen system remains 
critically important to us, as does support of our safety 
management system that would be predictive rather than 
forensic. We believe that there can be a significant 
contribution there as well.
    In addition, there are automation issues and conflict 
resolution that are going to be very important to maintaining 
separation required to increase capacity, and also relative to 
capacity would be wake vortex work that would drive separation 
procedures.
    Chairman Udall. Thank you. Dr. Dillingham.
    Dr. Dillingham. Chairman Udall, I think we haven't looked 
at that real thoroughly but we do have a couple of thoughts. 
One is again we want to commend JPDO for taking a wide ranging 
look to try to determine what their research needs were and 
various ways in which they might be able to fund that R&D. But 
one thing that does come to mind for us, particularly at this 
stage of trying to move towards implementation, and that is our 
understanding is that NASA has a capabilities test bed where 
companies can come in and put their concept to the test in 
terms of what will work well in the mass.
    It is also a situation where if you are a small company, 
you can come in and use it free of charge whereas a large 
company like Boeing or Lockheed, they probably have their own. 
Our understanding is that NASA is not going to be upgrading 
that capability and is something that can be very useful, we 
think, to the JPDO in the near-term.
    Chairman Udall. Thank you, Dr. Dillingham. Mr. Douglass, do 
you have a comment?
    Mr. Douglass. Just to add that we think that the area that 
needs a lot of emphasis is the systems engineering work and the 
phenomenology examination like looking at wake vortex, some of 
the weather issues Dr. Carmichael has mentioned are excellent 
candidates for additional research by NASA. Dr. Dillingham 
mentioned the modeling and the test beds that NASA has. Those 
things need to be funded and updated. One of the really 
interesting things that is going to happen as we get further 
into this, there are going to be periods of time when we are 
bringing the new system on but we still have the old system, 
and how do you run two things in parallel so that you have the 
confidence? Do you take the old one down now and depend on the 
new one? That requires a lot of modeling.
    We have done those kind of things before in the Department 
of Defense and they are not easy. So I think there is a pretty 
good shopping list. Now let me just add one caveat to it that I 
think helps put it in context. You know, NASA is struggling to 
create a new system beyond the Shuttle, and the NASA 
administrator is keenly aware of the fact that there is a ten-
year gap from 2010 to--now it is almost up to a five-year gap, 
where we have no access to space essentially. And so the NASA 
administrator is under a lot of pressure, of course, to close 
that gap. It is going to take more money to do that and so I 
think you have to look at NASA's decision making in the context 
of the other problems that they have. But, clearly, for the 
benefit of the Nation, we need to fund these aeronautic 
shortfalls.
    Chairman Udall. Dr. Carmichael, do you have any additional 
comments?
    Dr. Carmichael. I do. The NextGen is predicated on the 
notion of a trajectory based air traffic management system, and 
by that we mean that the aircraft in the system have a contract 
that at a particular point of time an aircraft is supposed to 
be at a certain place in its four dimensional space. To do that 
absolutely requires accurate weather information. Where the 
weather is in space to a large extent is determined by where 
the weather is. Now as you are designing an air traffic system, 
and NASA has done this for years, they are very good at 
building a system for the nominal case. In other words, on a 
clear day the automatic systems work really well. Bring the 
weather in and everything becomes non-linear.
    So a lot of the things that we have been pressing NASA to 
do is essentially a new start. We are saying you do great work 
on building air traffic decisions or tools but now we are 
asking you to start building those tools with weather 
integrated into those tools from day one. This is a new start, 
and to get a new start kind of activity within NASA right now 
is exceptionally difficult so that is our issue.
    Mr. Douglass. If I might add one after thought to that, and 
that is this work on weather phenomenology has lot of benefit 
to our Department of Defense as well. You can imagine the 
effect that weather can have on combat operations so when you 
think about us as a nation investing in this work there are 
multiple payoffs beyond just the air traffic control system, 
sir.
    Chairman Udall. That is a very good point. Just so the 
panel is aware, we have another vote scheduled in 40 or so 
minutes, I believe. If you all could stay till lunch time till 
noon or so, I would really appreciate it. We got--it looks like 
I have, I should say, a series of additional questions I would 
like to extend to you. But I think we can cover most, if not 
all of them, over the next 30 minutes or so. And, Mr. Leader, I 
am not intending to pick on you first with every question but I 
would like to start with you again.

     Concerns Regarding the Implementation of Necessary Technology

    And I wanted to mention last week we had an FAA R&D hearing 
and several of the witnesses there indicated that one of the 
key challenges facing the NextGen initiative is how to 
transition to agreed-upon NextGen technologies and procedures 
into the National Airspace System expeditiously. I think Mr. 
Douglass was speaking to that earlier. They and other observers 
are concerned that the FAA and the JPDO don't appear to have a 
clear plan for implementing those technologies and procedures 
in a timely fashion, and my set of questions to you includes is 
that a valid concern? If not, what are your specific plans for 
getting such technologies and procedures into the National 
Airspace System as soon as possible? Do you have clear and 
well-defined agreements on certification and operational 
procedures approval for such things as ADS-B or the operation 
of military UAVs in the National Airspace System, and to make 
your job even easier, if not, why not, and when will you? And 
then I will put the other witnesses on notice that I also would 
appreciate your comments if you would like to do so after Mr. 
Leader.
    Mr. Leader. Yes, sir. We do believe we have an ever clearer 
and evolving approach to implementation and it is a challenge 
to explain it because it is not a blanket approach. The 
relationship between JPDO and the partner departments and 
agencies is for fairly obvious reasons fundamentally different. 
With FAA with whom we have the largest relationship in the 
sense that FAA will fund and implement the largest part and 
subsequently operate the Next Generation system, we are working 
with them through the evolved operational evolution 
partnership, which is the process by which concepts and 
requirements from JPDO will be installed into the planning and 
execution systems within the FAA, but that is a FAA-specific 
process.
    Within the Department of Commerce, our primary interest is 
obviously weather, and we are moving forward in an effort 
involving FAA, Department of Commerce, and Department of 
Defense to bring forward to the senior policy committee early 
this summer a specific recommendation for the creation of a 
joint office that would pursue weather research development and 
the creation, ultimately, of tools to be used by the three 
agencies involved. Within the Department of Defense there is a 
recommendation awaiting approval to create a program office 
that would be specifically dedicated to the Next Generation 
system and whose charter would be to manage the exchange 
between JPDO and Defense as well as to implement--oversee 
implementing programs, joint programs, with them.
    With NASA, our primary interaction, as we have discussed 
earlier in the area of research and development, and we have 
recently provided our desired research guidance to them and are 
working very closely with NASA to clarify that, so I think you 
can see that in each case we are evolving how we will 
transition from the theory of the case within JPDO into the 
actual implementation into the NextGen system.
    Chairman Udall. Other witnesses care to comment?
    Dr. Dillingham. Yes, Mr. Chairman, I think what we 
mentioned earlier in our testimony about the operational 
evolution partnership between FAA and JPDO is very important, 
it sort of is the process by which they are going to move these 
new technologies into the NAS. However, the question that you 
ask is very important because it brings up a couple of 
integrated points. One is the need to have these key planning 
documents, concept of operations, enterprise architecture, and 
the like, because that in fact sort of is the blue print that 
describes how things are going to be integrated together. You 
need that in order to go to the next step which is to decide 
about the necessary regulations and human factors research that 
needs to be undertaken.
    Tied to that is the need for R&D monies, which we just got 
through talking about, in terms of the concern about enough not 
being available and organizations not being identified to do 
it. So there are positive things on some side but the need to 
get these documents finally completed so that they serve as the 
base to move forward is also very critical.
    Chairman Udall. Mr. Douglass.
    Mr. Douglass. Yes, sir. I have a couple of comments. I 
think it was you in your opening statement noted that this 
September we will lose our FAA administrator. We have already 
lost the head of the air traffic office. The institute recently 
lost its staff director for a variety of reasons. Some of these 
problems have to do with the complexity of the task and some 
are just inevitable. I mean the administrator is moving because 
it's the end of her five-year term. When Congress plays its 
role in bringing a new administrator in, I would strongly urge 
Congress to be mindful of the skill sets that this next 
administrator is going to need which is someone who understands 
how big systems like this are pulled together and managed.
    Another thought that I think needs to be put into the mix 
here is I think the senior policy committee has probably 
suffered a little bit because we have changed from one 
Secretary of Transportation to another, and I don't mean that 
as a criticism of the current Secretary. I just mean when you 
change people it takes a while for everybody to get up and so 
on. But, clearly, this project is going to need someone at the 
very top of the FAA who understands systems acquisition. It is 
going to need some kind of enforcing function to keep everybody 
working together, and if it is not the SPC, I am not sure what 
it would be unless it is somebody up here on the Hill who 
really rides very close herd on this in a way that is difficult 
for an oversight committee to do. So I am concerned. I think 
industry is watching to make sure that we do have some way of 
pulling this all together because it is a very difficult task 
and it is an episodic task.
    It is important to remember that we only do this about 
every 40 or 50 years so it isn't like over in the Pentagon when 
you go from one fighter program to the next, you have a whole 
group of people who just finished the last one. You can kind of 
move them over to the new one and so on. This is something that 
we do rarely, and there aren't a lot of people here today who 
invented the last system, and so we have to relearn certain 
things as we go along. And that is going to require central 
control of some magnitude in my opinion, sir.
    Chairman Udall. Dr. Dillingham, did you have an additional 
comment?
    Dr. Dillingham. Yes, Mr. Chairman. I just wanted to sort of 
give a footnote to what Mr. Douglass said. I think the statute 
that created the position for chief operating officer for the 
air traffic organization in FAA, which is sort of the match for 
JPDO, created a five-year term, the potential of a five-year 
term, for that position. Mr. Chew was able to fill that 
position for three years. I think as FAA goes out to find a new 
chief operating officer that to the extent that someone can 
commit themselves to the five-year term might be important.
    We are at a point now that as we move from planning to 
implementation if you got somebody that is going to be there 
for five years it is a better shot than if you got them there 
for less time than that.
    Chairman Udall. Dr. Carmichael, did you have any thoughts 
on the various questions that have been posed?

                         Joint Weather Activity

    Dr. Carmichael. I just wanted to put a footnote on Mr. 
Leader's comment about the joint weather activity. You know, in 
today's world there are three weather forecasting services in 
this nation. There are two in DOD, one in the Air Force, one in 
the Navy. And then there is the National Weather Service. And 
if a pilot asks the same question about the weather over 
central Kansas at 10,000 feet at 5:00 this afternoon, they may 
very well get three different answers. DOD is under extreme 
pressure, budgetary pressure. Even though the defense budgets 
are high that money is not going to the people who do aviation 
weather forecasting. And so they are under pressure to 
streamline to be more efficient and effective in aviation 
weather.
    And so they have a strong desire to collaborate with the 
Weather Service and with JPDO in this joint weather activity. 
It is to the benefit of the FAA, NOAA and DOD to have a single 
entity that is providing aviation weather service for all. And 
so I am very hopeful that this new joint activity is going to 
be successful.
    Chairman Udall. Mr. Douglass, did you have a follow-up 
thought as well?
    Mr. Douglass. I did. I just was going to say I agree with 
Dr. Dillingham. I think those five-year terms that came about 
both for the administrator and for the ATO officer are well 
served and I would hope that when we replace Mr. Chew we can 
find somebody who would give us a five-year commitment.

            Suggestions for Specific Legislative Provisions

    Chairman Udall. Let me move to my next question, if I 
might. We in the Congress will be reauthorizing the FAA this 
year, and this committee will play an important role in that 
reauthorization process. I thought since I had you all here, I 
would ask if you have any thoughts on specific legislative 
provisions that we ought to include as a part of this 
reauthorization process. Mr. Leader, I am going to assume that 
you would suggest we adopt the Administration's FAA proposal. I 
am going to let you off the hook and----
    Mr. Leader. Yes, sir, that is a very safe assumption.
    Chairman Udall. And start with Dr. Dillingham. We will let 
you catch your breath this time.
    Dr. Dillingham. Mr. Chairman, overall what we understand 
about the programs that are being changed or modified for 
reauthorization, we don't find any serious problems with that. 
However, we have raised some concerns about the funding 
mechanism that is being proposed for the FAA. Specifically, we 
are concerned about the basis of the cost allocation system 
that they have set up to charge user fees, and we testified 
before that this is a pretty complicated proposal that hasn't 
had that much time for people to look at and evaluate, so we 
would caution going forward with something so dramatic as what 
is being proposed in terms of funding.
    Chairman Udall. Mr. Douglass.
    Mr. Douglass. Yes, sir, Mr. Chairman. When I think about 
this, I am mindful of that scene in the movie, Oh, Brother, 
Where Art Thou, where the three convicts are chained together 
and the two guys on the outside are arguing who is going to be 
the lead on the team, and the guy in the middle says, well, I 
am for you fellers. Our business, we sell to both the general 
aviation community and to the airlines. Our products go across 
the industry. And we are reluctant to be caught between those 
two communities in their dispute about who should pay more for 
the use of the system.
    The one part of the current proposal though that we really, 
really don't like is there are user fees in there for the 
certification of new products, and if you read the language, 
Mr. Chairman, it is very open ended. It is lots of the 
administrator may and then there is a long list of things that 
you could put user fees on, and no bounding of that. And we 
believe that the certification process in the civil aviation 
part of our industry is an inherently government function and 
it should be funded through the FAA. Just like when we produce 
our military products, the Department of Defense has a part of 
its organization that inspects them and makes sure they are 
billed correctly and so on, and we like the way the FAA is 
currently doing it today and would like to see the current 
system maintained rather than go to use some sort of user fee 
system for certification of new products. That is our principal 
concern with the new proposal.
    Chairman Udall. Dr. Carmichael, do you have any thoughts on 
the reauthorization of the FAA.
    Dr. Carmichael. I want to address the method of funding, 
but I would like to say that if we are going to accomplish what 
we are planning to accomplish with the NextGen it is absolutely 
critical that we have stable funding, predictable funding, that 
we can build a multi-year research program to accomplish, and 
so the stability of that funding is critical.
    Chairman Udall. Thank you. Mr. Douglass, I can't help but 
relate a quick story that Judge Hall, I think, told me, 
Congressman Hall, a ranking member on this committee, when a 
public official was faced with a particularly dirty issue and 
asked what his position was. He said some of my friends are for 
it, and some of my friends are against it. I am for my friends. 
It sounds like that is the position that you think is most 
appropriate here.
    Mr. Douglass. That is exactly our position, Mr. Chairman.

       Concern Regarding NASA's Retrenchment in Weather-related 
                                Research

    Chairman Udall. Let me turn to Dr. Carmichael, and take 
advantage of his deep expertise when it comes to weather and 
weather analysis, weather forecasting. In your testimony you 
raised concerns about the impact on NASA's restructured 
aeronautics program on important aviation weather research 
initiatives, and we have heard from a wide variety of expert 
witnesses, and I hope Congress and the White House will heed 
those warnings and take corrective action. So that we can 
better understand what is at stake, could you please elaborate 
a bit on the nature of your concerns and what the consequences 
of a NASA retrenchment in these aviation weather-related 
research area would likely be?
    Dr. Carmichael. Well, let me first of all be clear that it 
is not our position that we expect NASA in their aeronautics 
program to be performing weather research. What we are asking 
NASA to do because they are the experts in automation system 
research is we are asking NASA to team with the folks who do 
aviation weather research to build automation decision support 
tools that have weather tightly coupled into the algorithms 
inside those systems. So that is what we think is critical. 
Now, if NASA doesn't do that work then I think the fall back 
position is that the FAA has to have funding to find other ways 
to do that work. MITRE Corporation, MITRE, CAASD, probably is 
the beneficiary of building a work force on FAA funding to do 
that work if NASA is not able to do it.
    And I would like to put a footnote also on the question of 
funding. Currently the R&D is divided up into buckets. There is 
a safety bucket and there is a capacity bucket. And weather 
sometimes falls victim to this notion of where does it fit, is 
it safety or is it capacity. And sometimes these artificial 
labels cause problems in allocating and managing funds so I 
would ask that, if possible, with the funding that somehow 
weather be recognized as funding that is not easily put into 
either a safety or a capacity bucket. Thank you.
    Chairman Udall. Thank you. We look forward to calling on 
you further given your expertise and insights into really 
important areas, as we discussed before the hearing began. Let 
me turn back to Mr. Leader. In your testimony you refer to a 
number of agreed upon NextGen technologies including the ADS-B, 
SWIM, NextGen, Enabled Weather, and the NAS Voice Switch. And 
obviously, a timely transition in the National Airspace System 
will be key to the success of the NextGen initiative. When will 
each of those systems be fully implemented into the NAS, and 
please provide for the record if necessary, I know these are 
fairly complicated dynamics here, and what prevents them from 
being fully implemented earlier?
    Mr. Leader. That is a question, sir, that I will have to 
answer for you for the record later.

                      Schedule of UAS Integration

    Chairman Udall. Thank you, and we look forward to those 
answers. Dr. Dillingham, in your testimony at last week's T&I 
Aviation Subcommittee hearing, you reported that the ``FAA has 
begun reviewing its existing safety regulations developed for 
manned aircraft to determine how or whether they need to be 
modified to enable UAS to be safely integrated into the 
National Airspace System. FAA expects this to be a five to ten-
year effort.'' That was the end of the quotes of the statement 
I have here. Given the growing expectations for UAS 
applications, do you regard this as a timely response, and, if 
not, what would you recommend be done?
    Dr. Dillingham. Chairman Udall, we currently have a study 
underway that is addressing that question. It has been raised 
by several members of Congress whether this is actually too 
long a lead time in that state governments, local governments, 
are increasingly wanting to use UAS so if you would allow us to 
get a little further along with our research we certainly would 
report back to you on that point.
    Chairman Udall. Do you have a time sense of when that might 
happen, not so much the reporting back but the actual 
initiative itself or would you like that to be part of----
    Dr. Dillingham. I would like that to be a part of what we 
report back to the record.
    Chairman Udall. Should other government entities be 
involved, other government agencies?
    Dr. Dillingham. Beyond FAA?
    Chairman Udall. Yes.
    Dr. Dillingham. Yes, sir. I think that--and they are 
involved in it at this point. DOD is involved in it for sure. 
And I am not sure--and Homeland Security is also involved in 
it. So what we are doing is we are trying to see to what extent 
they are coordinating their work, and we are also trying to see 
if there are some lessons learned that we can get from 
international UAS activities.

                   Status of Unmanned Aircraft in NAS

    Chairman Udall. Excellent. Dr. Carmichael, you have 
testified to the great potential of unmanned aircraft for 
targeted observations of the atmosphere to improve forecasts. 
Do you think that JPDO is moving fast enough to include 
unmanned aircraft in the NAS?
    Dr. Carmichael. I think this is another area where NASA 
could play an extremely beneficial role. We focus a lot on how 
do we integrate the unmanned aircraft into the system but from 
a weather standpoint it provides a tremendously valuable 
opportunity for us to seek our observations in areas where we 
need observations to improve the forecast. And those areas may 
differ from day to day so the ability to actually move an 
observing platform where you need it together with observations 
can make a significant improvement in the weather forecast. So 
I think this is another area where NASA could be extremely 
helpful. As far as I understand now, they have no program in 
this area.
    Chairman Udall. Let me follow on. You testified that 
``Unmanned aerial systems will also require more precise 
weather forecasts.'' That was the end of the quote. Does that 
comment imply that you believe in some ways unmanned aircraft 
control won't be as robust as piloted aircraft control?
    Dr. Carmichael. No. What I mean by that is that the 
unmanned aircraft systems span a broad range of capabilities, 
and some of those aircraft are going to be very, very weather 
sensitive, so it is important to have weather that is going to 
be suitable for all classes of unmanned aerial operations all 
the way from things that may be the size of your thumb or your 
hand all the way up to huge aircraft. And as you might guess, 
the small aircraft may be very weather sensitive.
    Chairman Udall. I could continue asking questions but I 
have other appointments over the noon hour, and I am sure all 
of you do as well. Before I bring the hearing to a close, I 
want to thank all of you for appearing here today before the 
Committee. Your testimony has been very thought provoking and 
helpful. If there is no objection, the record will remain open 
for additional statements from the Members for answers to any 
follow-up questions the Committee may ask of the witnesses. 
Without objection, so ordered. This hearing is now adjourned.
    [Whereupon, at 11:55 a.m., the Subcommittee was adjourned.]
                               Appendix:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Charles A. Leader, Director, Joint Planning and 
        Development Office, Federal Aviation Administration (FAA)

Questions submitted by Chairman Mark Udall

Q1.  The development and transition to the NextGen is one of the most 
complex efforts that FAA has ever undertaken.

Q1a.  What do you consider to be the biggest near-term and mid-term 
technical and programmatic challenges facing the JPDO as it attempts to 
plan and develop the NextGen?

A1a. One of the greatest challenges is to ensure that the research in 
civil aeronautics by the partner agencies is consistent with the needs 
and plans being identified and developed by the JPDO. Further we need 
to assure that agency resources can be leveraged, technically and 
programmatically, in such a way to enable the effective implementation 
of NextGen operational concepts and capabilities. Over time, the 
transition from the near-term to the mid-term will bring greater 
challenges in the area of integrating multiple capabilities into wide-
ranging operational contexts.

Q1b.  What steps do you intend to take to address those challenges?

A1b. With respect to R&D, the JPDO is working with its partner agencies 
to develop the NextGen R&D Plan. This product will be delivered to the 
Office of Management and Budget (OMB) at the end of August. The plan 
will identify the R&D needed to enable the mid-term transition to the 
NextGen end-state as well as the funding requirements and agency 
responsibilities.
    Systematic technical and programmatic coordination across the 
agencies will play a vital role in ensuring success as NextGen moves 
from the near-term to delivering mid-term capabilities. The recent JPDO 
realignment is aimed at ensuring that success and results in the 
refocusing of JPDO's efforts from long-term planning to implementation 
facilitation. Among the principles changes to support this include: (1) 
evolution of the Master Integrated Product Team (MIPT) into an 
Integration Council (IC); (2) creation of a Regulatory Council (RC); 
(3) reformation of the Integrated Product Teams (IPTs) into Working 
Groups (WGs); and (4) creation of a Joint Architecture & Engineering 
Board (JAEB). These entities are further described on the JPDO website 
at www.jpdo.aero.

Q2.  In your testimony you refer to a number of agreed upon NextGen 
technologies, including ADS-B, SWIM, NextGen Enabled Weather, and the 
NAS Voice Switch. Obviously, a timely transition of these technologies 
into the national airspace system will be a key determinant of the 
success of the NextGen system. Please provide the dates by which each 
of these systems will be fully implemented into the NAS. What prevents 
them from being implemented earlier.

A2. The FAA plans to award the contract for the ADS-B ground 
infrastructure in August 2007. By December 2009, the agency expects to 
make the ``in-service decision'' that essentially commissions ADS-B for 
the National Airspace System (NAS) and certifies its use for air 
traffic control separation services. The deployment across the NAS is 
planned to be completed by 2013.
    Since the ADS-B implementation requires both ground infrastructure 
and avionics equipage, the FAA is also preparing a proposed rule that 
will require operators to install ADS-B avionics in order to fly in 
certain classes of airspace. This rule will be consistent with the way 
we currently operate the Nation's airspace, and structured much like 
the rule that today requires transponders for operations in controlled 
airspace and the areas surrounding busy airports. The FAA will issue 
the proposed rule in September 2007, and expects it to become final in 
November 2009. It is projected that there will be 100 percent 
compliance to the rule by fiscal year 2020.
    The first segment of SWIM will be complete in 2013 and will include 
the SWIM architecture, initial core services, and information services 
between selected NAS systems. SWIM cannot be implemented earlier 
because the first segment will connect other NAS systems which are not 
fully in place, and are dependent on other modernization efforts. For 
example, SWIM segment 1 will be developed in conjunction with ERAM 
Release 3, Traffic Flow Management Modernization, Terminal Data 
Distribution Service, and the development of the Corridor Information 
Weather System. SWIM cannot be accelerated without accelerating those 
programs, which would introduce considerable risk.
    Beyond the first segment of SWIM, future segments of the SWIM 
program will implement services that are available from NextGen systems 
as they come online. Therefore, the final SWIM solution will unfold as 
other NextGen systems are developed and fielded. The full scope of SWIM 
cannot be accelerated without accelerating the rest of the NextGen 
program.
    Regarding the NextGen Enabled Weather, the plan calls for a phased 
implementation of improvements through full implementation in FY 2020. 
There will be two major phases which build on each other sequentially. 
The first major phase provides ready access by most users via a 
network-enabled capability to a limited set of advanced convective and 
wind shear products to be operational in FY13. The second phase, 
building upon the network-enabled capability from the first phase, will 
migrate and upgrade additional products for direct user access and will 
enable integration into decision support tools on the ground and on the 
flight deck.
    Earlier implementation is limited by several factors, including the 
time frame for implementation of the first segment of the SWIM Program 
and the need to maintain current aviation weather capabilities while 
transitioning a to network based solution from a hard-wired legacy 
system approach. In addition, extensive coordination among the multiple 
agencies of the Joint Planning and Development Office, especially the 
Department of Defense and Department of Commerce, will be required to 
produce a government-wide solution rather than a solution which meets 
the needs of only the Federal Aviation Administration. Finally, the 
development of large scale data networking and assimilation techniques 
will require several spirals to assure reliability in use by the 
aviation community.
    The NAS Voice Switch program is just beginning the initial 
investment analysis phase. NVS will have two operational systems in the 
NAS by FY 2015 as part of its initial operational capability (IOC). The 
En-route Air Traffic Control Centers and large TRACONS are scheduled to 
be complete by FY 2022 in line with current mid-term and full 
capability NextGen goals. Other smaller facility voice switch 
modernization schedules will be dictated by a combination of end-of-
useful life predictions for the legacy systems, and the need to 
operationally cutover specific airspace in synch with the NextGen 
transition. The NVS IOC date is contingent on the ongoing investment 
analysis. This analysis is addressing the total system life cycle cost 
based upon the projected facility installation waterfall plan. This 
plan can be accelerated to keep pace with other facility plans by 
increasing the budget line item accordingly.
    The Data Communications Program is in the initial investment 
analysis phase. The program anticipates deploying capability in three 
segments beginning in 2014 with upper en-route airspace and select 
large airports, and concluding with all airspace coverage by 2025. The 
pacing item for the Data Communications Program will be the airborne 
user equipage profile. These plans are being developed and synchronized 
with direct input from the aviation community. Current planning calls 
for initial equipage starting as early 2013 to support departure 
clearance and other airport operations, and covering all upper en-route 
airspace users by the 2017 timeframe. The program will then evolve into 
terminal airspace in large metropolitan areas. In concert with the 
investment analysis, the FAA is addressing the rule-making strategy for 
the program. Acceleration of these dates is unlikely given the user 
equipage required.

Q3.  How much would the NextGen initiative benefit from increased NASA 
funding of NextGen research needs? What projects and activities should 
NASA apply any additional aeronautics funding to in order to best 
address the research needs of the NextGen initiative?

A3. The NextGen R&D plan is due to the Office of Management and Budget 
(OMB) at the end of August. The R&D plan intends to answer the question 
of what R&D is needed and which agency is responsible.

Q4.  With respect to R&D needed for the NextGen initiative,

Q4a.  How well are the resource commitments and R&D activities of the 
JPDO participating agencies aligned with the needs of the NextGen 
initiative?

A4a. The JPDO partner agencies are working together to specify NextGen 
R&D needs and perform a gap analysis against agency plans. The R&D plan 
due to the OMB at the end of August will answer the question of what 
R&D is needed and which agency is responsible.

Q4b.  Has the JPDO developed a clear set of research requirements for 
the NextGen initiative along with the agency's research 
responsibilities? If not, why not, and when will these requirements be 
developed?

A4b. See answer to question 4a. The R&D plan is due to the OMB at the 
end of August.

Q4c.  Do you consider JPDO research requirements ``guidelines'' for 
each NextGen participating agency to consider, or do you consider them 
to be mandatory requirements that will have to be addressed completely?

A4c. See answer to question 4A. The plan will identify the R&D 
requirements as well as agency responsibilities. The plan results from 
the participation and decisions of the partner agencies; the plan in 
total represents both the requirements and the commitments of the 
partner agencies.

Q4d.  Has the JPDO established agency resource and research 
contributions to the degree of specificity that it can determine if an 
agency is failing to meet its commitments? If not, why not?

A4d. See answer to question 4A. The NextGen R&D plan results from a 
series of needs and gap analysis activities. The gap analysis 
activities will determine the difference between what is and what 
should be for the period of FY 2009 through FY 2013.

Q4e.  Is there a process for remedying a situation in which one or more 
agencies is not follow through on commitments to NextGen?

A4e. The JPDO NextGen Senior Policy Committee (SPC) is responsible for 
oversight, decision-making, and providing assurances in support of 
partner agency commitments to NextGen. This responsibility is 
summarized below, as referenced in VISION 100--Century of Aviation 
Reauthorization Act (Public Law 108-176).

        (1)  advise the Secretary of Transportation regarding the 
        national goals and strategic objectives for the transformation 
        of the Nation's air transportation system to meet its future 
        needs;

        (2)  provide policy guidance for the integrated plan for the 
        air transportation system to be developed by the Next 
        Generation Air Transportation System Joint Planning and 
        Development Office;

        (3)  provide ongoing policy review for the transformation of 
        the air transportation system;

        (4)  identify resource needs and make recommendations to their 
        respective agencies for necessary funding for planning, 
        research, and development activities; and

        (5)  make legislative recommendations, as appropriate, for the 
        future air transportation system.

Q5.  Do NASA and FAA have an agreement on how far NASA will go in 
maturing NextGen technologies before transitioning them to FAA? If so, 
where is the dividing line? If there is not such an agreement, how are 
you able to plan? If there is no agreement yet, has NASA told you how 
far (in terms of technological maturing) it will take the research that 
it is planning to do?

A5. We are depending on NASA for the longer-term, transformational 
elements of the transition to NextGen that we expect to begin 
implementing after 2015. Up to that point, the research, much of which 
was originally pioneered by NASA, has largely been completed or is at a 
more advanced stage of development.
    Therefore, for the next several years, we do not expect that there 
will be any significant technology gaps. The FAA's reauthorization that 
is currently with Congress reflects our expanded requirements for R&D 
to meet the mid-term needs of the transition to NextGen (up to 2015).
    In the long-term, we are looking to NASA to answer challenging 
transformational questions, such as the relative roles of humans and 
automation in NextGen, how to implement automated, fault-tolerant gate-
to-gate 4D trajectory management within the NAS. We are actively 
working with NASA and JPDO to understand the details of the research 
that is required and to ensure we have a technology transition pathway.

Q6.  NASA is moving toward a focus on fundamental research and away 
from demonstration projects. Industry experts have expressed the 
concern that this will leave a gap in technology development. This 
leads to the question of what entity will do the development work that 
will be important to NextGen? According to JPDO officials, JPDO has 
conducted gap analysis on the impact of NASA's actions on NextGen 
planning.

Q6a.  When will that analysis be completed? Please provide the results 
to this committee.

A6a. The R&D gap analysis begins in May and will be completed with 
submission of the R&D Plan to OMB in August.

Q6b.  Does the FAA budget for FY08 with its five-year run out assume 
that FAA will fund all of the technology maturation tasks for the 
NextGen initiative that you had been counting on NASA to do? If not, 
how much additional funding will be required for FAA to do all of the 
technology maturation, and what will be the extent of the resulting 
delays, if any, in implementing the technologies?

A6b. The Director of the Joint Planning and Development Office was 
unable to provide an answer for the record.

Q7.  You have stated that preliminary cost estimates for NextGen 
include $15-22 billion in FAA funding and $14-20 billion in avionics 
costs to users, for a total of $29-42 billion. At the same time, you 
state that the total costs of the European SESAR system are estimated 
at $25 to $37 billion. Given that you describe the European system as 
``smaller in scope and size'' and focused ``almost exclusively on air 
traffic management'' while NextGen ``includes not only air traffic 
control, but also airports, airport operations, security and passenger 
management, and DOD and DHS requirements,'' why isn't the cost of the 
U.S. system much higher than the European system, rather being only 
about 15 percent higher?

A7. The preliminary cost estimates of $15-22 billion apply to the FAA's 
capital funding requirements. The avionics cost estimates are 
preliminary and recognize that the range reflects uncertainties 
concerning the individual aircraft, operational requirements, and 
equipage schedules. Through the development of the NextGen business 
case, the JPDO is actively working to comprehensively identify the 
future NextGen resource requirements as it spans the partner agencies, 
user community, and other stakeholders. The SESAR cost estimates 
reflect a preliminary but broad estimate across all its stakeholders, 
while the NextGen estimates, to date, largely reflect those of the 
public sector and preliminary user equipage costs.

Questions submitted by Representative Jim Matheson

Q1.  What is the time frame for implementation of the FAA's Automatic 
Dependent Surveillance Broadcast (ADS-B) system and when will it be 
required for civilian aircraft to be equipped?

A1. The FAA plans to award the contract for the ADS-B ground 
infrastructure in August 2007. By December 2009, the agency expects to 
make the ``in-service decision'' that essentially commissions ADS-B for 
the National Airspace System (NAS) and certifies its use for air 
traffic control separation services. The deployment across the NAS is 
planned to be completed by 2013.
    Since the ADS-B implementation requires both ground infrastructure 
and avionics equipage, the FAA is also preparing a proposed rule that 
will require operators to install ADS-B avionics in order to fly in 
certain classes of airspace. This rule will be consistent with the way 
we currently operate the Nation's airspace, and structured much like 
the rule that today requires transponders for operations in controlled 
airspace and the areas surrounding busy airports. The FAA will issue 
the proposed rule in September 2007, and expects it to become final in 
November 2009. It is projected that there will be 100 percent 
compliance to the rule by fiscal year 2020.

Q2.  Does FAA anticipate the elimination of ground-based radar 
installations, such as Automatic Surveillance Radar (ASR-11) after the 
implementation of the ADS-B system?

A2. The FAA does not have any plans in the near-term to eliminate 
ground-based radars. An important part of the plan for ADS-B is to 
maintain 50 percent of the current system of secondary radars at high-
density locations to serve as a back-up in case of an outage of the 
Global Navigation Satellite System (known in this country as GPS, or 
Global Positioning Satellites). Some older legacy surveillance systems 
are planned for removal starting in 2016, well after the commissioning 
of ADS-B for the national airspace system in 2013. Removal will occur 
slowly over the years, with the last of the targeted legacy systems 
eliminated by 2023.

Q3.  If ASR-11 will not be eliminated, does FAA plan to extend radar 
coverage to new locations? If so, how will this be accomplished? If 
not, why not?

A3. There are currently no plans to expand radar coverage to new 
locations beyond current program baselines. In addition to the set of 
en route and terminal secondary radars that will remain in place as 
part of the ADS-B backup strategy, primary radars such as ASR-9 and 
ASR-11 will also be used to support backup surveillance where they are 
currently located. In areas outside of these locations, backup 
surveillance capabilities will not be required, and so the long-term 
expansion of surveillance services to these areas, if required, will be 
accomplished using ADS-B alone. As with any capability in the NAS, the 
need for these surveillance services will continue to be periodically 
assessed as the NAS evolves to the next generation system.

Q4.  Does FAA anticipate the elimination of other ground-based 
navigational systems such as ILS equipment or VOR? How does FAA plan to 
accommodate the elimination of these systems?

A4. The FAA anticipates reducing, but not eliminating, both VOR and ILS 
equipment. Reductions will be designed to minimize the operational 
impact on aircraft while maintaining sufficient numbers of these 
systems to provide a safe and efficient backup to satellite navigation. 
Analysis is underway to establish the criteria for identifying which 
specific systems will be retained and which will be candidates for 
elimination.

Questions submitted by Representative Ken Calvert

FAA Financing Proposal

Q1.  What would be the effect, if any, on the NextGen budget if 
Congress does not enact the Administration's proposed aviation 
financing reform package (ticket prices, aviation fuel taxes) as part 
of a new authorization, but instead leaves the current ticket and fuel 
taxes in place?

A1. The FAA, like the Congressional Budget Office, projects Trust Fund 
revenues to continue to grow over the long run under the current 
system. However, this does not necessarily mean the current system can 
efficiently accommodate the requirements of NextGen. Under the existing 
financing system, our revenue is inflexible and is vulnerable to 
factors--such as ticket prices--that are unrelated to the cost of 
providing service. This year-to-year volatility makes long-term 
planning difficult, and will severely hamper the efficient 
implementation of NextGen in time to avoid gridlock in the 2014-2015 
timeframe.
    Our financing proposal will create the flexibility to provide the 
resources we need for NextGen when we need them, through adjustable 
cost-based user fees and taxes, a well-defined general fund 
contribution, and borrowing authority. In addition, under the current 
system, FAA's discretionary spending must compete within the budget 
caps for all government discretionary programs. In other words, even if 
the Trust Fund does have enough money, the FAA may or may not get 
access to it when we need it.
    Under the proposal, user fees would be offsetting collections, not 
subject to the overall discretionary spending caps. This is a key 
reason this year's President's Budget is able to accommodate the 
significant capital spending increases that will be required for 
NextGen, and proposes a capital spending increase of $1 billion a year 
by 2012.

NextGen Cost Estimates

Q2.  You stated that the full-up cost of NextGen is on the order of $15 
billion to $22 billion, and I understand that JPDO is working to refine 
these estimates. Please break down this estimate on an agency by agency 
basis?

A2. The estimates cited above apply to the FAA. The estimates by agency 
are currently in development and will be reflected in the NextGen 
business case.

NASA's Role in JPDO

Q3.  Traditionally NASA has developed promising technologies to a high 
maturity level enabling FAA to incorporate them into its air traffic 
control system without too much additional development. Now that NASA 
is confining its development work to a basic level of technical 
maturity, does FAA and the other federal partners have the resources 
and capability to fill this void?

A3. Timely and efficient transition of research products will require 
the FAA to engage at lower technical maturity levels. While we have 
been successful at transitioning NASA technologies to the National 
Airspace System in the past, this process has required a considerable 
length of time. Far slower than we can afford if we are going to be 
able to develop the NextGen capabilities we need in order to meet 
forecasted demand.
    The FAA's reauthorization request reflects our expanded 
requirements for R&D to meet the mid-term needs of the transition to 
NextGen. The requested funding will allow this transition. We will 
focus internal resources on NextGen research and technology development 
and will use attrition to hire technical and program management 
expertise. We will use the Operational Evolution Partnership to focus 
MITRE CAASD research on NextGen requirements. We are also assessing 
resources available at Volpe to supplement FAA capabilities, and we may 
look to industry for assistance.
    We are in the process of seeking outside expertise in the form of a 
``blue ribbon panel'' to explore strategies to strengthen our technical 
and contract management expertise.

Industry Led Development of NextGen

Q4.  What is the current thinking on the role of the private sector in 
the development and operation of NextGen? Has the JPDO come to any firm 
decision on using a Large Systems Integrator approach?

A4. The role of the private sector in the development of the NextGen 
infrastructure and in the actual operations of NextGen is still being 
discussed and analyzed. However, some private sector involvement, in 
the provision of certain key NextGen capabilities, is likely.
    With regard to the use of a large systems integrator approach this 
too is still being evaluated. The focus of implementation continues to 
rely on the partner agencies and as such, so far at least, hasn't 
involved a centralized systems integration approach. However, one 
possibility as the initiative develops, and this has yet to be 
evaluated, may be to rely to some degree on a lead systems integrator.

Certification

Q5.  In his statement before the Subcommittee, Mr. Douglass expressed 
concerns about the time required to prototype, validate, and certify 
new technologies required for NextGen, in addition to time required for 
rule-makings. Do you share Mr. Douglass' concerns? How much of a risk 
do these processes pose to the timely development of NextGen?

A5. With so much of the NextGen initiative involving new equipment, 
changes in procedures and new approaches to the operation of the 
national airspace system, there are going to be a large number of new 
certification requirements. Mr. Douglass is justified in his concerns. 
However, the JPDO, through the development of a comprehensive planning 
process that accounts for these requirements, as well as the lead time 
involved, is working to mitigate the risks these certification needs 
will have on the timely development of NextGen.

Accountability

Q6.  In his statement before the Subcommittee, Mr. Douglass raised 
concerns about the potential lack of accountability and authority in 
the current JPDO structure, especially with regard to partner agencies. 
He recommends that each partner agency designate a senior level 
official as the responsible individual for all NextGen related 
programs. Do you share Mr. Douglass' concerns? Should agencies 
designate a senior program official?

A6. The existing legislation already mandates that the partner agencies 
support NextGen and the JPDO. However, Mr. Douglass' point is well 
taken and the JPDO, working closely with its major partner agencies has 
put a considerable emphasis on developing sound working relationships 
with all of its partner agencies. We have had considerable success in 
developing processes and linkages that allow us to closely align 
critical programs and funding to support NextGen initiatives.
                   Answers to Post-Hearing Questions
Responses by Gerald L. Dillingham, Director, Physical Infrastructure 
        Issues, Government Accountability Office

Questions submitted by Chairman Mark Udall

Q1.  How long should the Joint Planning and Development Office (JPDO) 
exist, and should its role evolve from its current one? If so, in what 
ways?

A1. JPDO was established to plan and coordinate the development of the 
next generation air transportation system (NextGen) and should exist 
for the duration of those tasks. The basic planning documents that JPDO 
is developing for NextGen are near completion, but further iterations 
of these planning documents will be needed as NextGen technologies are 
developed and implemented. As NextGen has progressed from the initial 
planning to the early implementation phase, JPDO's role has evolved to 
include coordination and facilitation activities, as well as planning 
activities. GAO believes this is a reasonable evolution and a proper 
role for JPDO and is consistent with the language of JPDO's authorizing 
legislation.
    One example of this evolution is the role JPDO has begun to play in 
incorporating NextGen goals and activities into the Air Traffic 
Organization's (ATO) strategic plans. ATO has expanded and revamped its 
Operational Evolution Partnership (OEP) to become the Federal Aviation 
Administration's (FAA) implementation plan for NextGen. The Review 
Board that oversees the OEP is co-chaired by JPDO and ATO. If JPDO 
ceased to exist before NextGen was more fully developed, some 
alternative means of planning and coordinating NextGen's development 
would have to be established, which could delay NextGen's 
implementation. Similar developments are expected to occur with other 
partner agencies as JPDO completes a Memorandum of Understanding with 
these agencies.
    JPDO's role could further evolve to include more coordination and 
oversight activities. For example, JPDO could establish a program 
oversight capacity that would enable it to perform such functions as 
(1) harmonizing the enterprise architectures among the partner 
agencies; (2) coordinating the research, development, and systems-
engineering and integration activities of the cooperating agencies and 
industry; (3) overseeing multi-agency projects; (4) overseeing, with 
FAA, the selection of products or outcomes of research and development 
that would be moved to the next stage of a demonstration project 
through the Joint Resources Council (JRC);\1\ (5) overseeing the 
fundamental research activities that support the long-term strategic 
investments of NextGen by managing a research portfolio among NASA, 
academia, federally funded research and development centers, and 
industry; and (6) maintaining a baseline modeling and simulation 
environment for testing and evaluating alternative concepts to satisfy 
NextGen enterprise architecture requirements.
---------------------------------------------------------------------------
    \1\ FAA's Joint Resources Council establishes and manages 
acquisition program baselines which define cost, schedule, performance, 
and benefit parameters for programs over the full life cycle of the 
program.
---------------------------------------------------------------------------
    Another example of the evolution of JPDO's role is the 
organizational shift from integrated product teams to working groups. 
This shift reflects the extension of JPDO's role beyond planning to 
development of work products or ``outcomes'' that will contribute to 
the early development of NextGen and facilitate its implementation. As 
JPDO assumes more responsibility for facilitating NextGen's 
implementation, greater authority and resources would allow it to do 
more to coordinate the efforts of the partner agencies and work with 
the Office of Management and Budget as the principal NextGen point of 
contact. With adequate funding and authority, JPDO could acquire staff 
with the project management and systems engineering skills needed for 
JPDO to be an effective oversight and coordinating office.

Q2.  Should JPDO be moved out of the Federal Aviation Administration's 
Air Traffic Organization to be given greater visibility and authority? 
For example, should it report directly to the Office of the Secretary 
of Transportation? Why or why not?

A2. Currently, JPDO is located within FAA and reports to both the FAA 
Administrator and the Chief Operating Officer of ATO. In GAO's view, 
JPDO should not be moved out of FAA. Since JPDO provides the vision for 
the future air traffic control (ATC) system and ATO is to be the 
principal implementer of that vision, the two organizations need to 
continue working closely together.
    However, JPDO's dual reporting status hinders its ability to 
interact on an equal footing with ATO and the other partner agencies. 
On one hand, JPDO must counter the perception that it is a proxy for 
the ATO and, as such, is not able to act as an ``honest broker.'' On 
the other hand, JPDO must continue to work with ATO and its partner 
agencies in a partnership in which ATO is the lead implementer of 
NextGen. Therefore, it is important for JPDO to have some independence 
from ATO. One change that could begin to address this issue would be to 
have the JPDO Director report directly to the FAA Administrator. This 
change may also lessen what some stakeholders now perceive as 
unnecessary bureaucracy and red tape associated with decision making 
and other JPDO and NextGen processes.
    As a part of any change in the dual reporting status of JPDO's 
Director, consideration could be given to the possibility of creating 
the position of Associate Administrator of NextGen and elevating the 
JPDO Director to that post. This would give greater credibility, 
authority, and visibility to this important position.
    JPDO should not report to the Secretary of Transportation because 
placing JPDO in the Secretary's office would remove it too far from the 
implementation and operations of NextGen.

Q3.  What are the specific roles of the Department of Homeland Security 
(DHS) and the Department of Defense (DOD) in JPDO?

Q3a.  Do we know how much DOD plans to spend on NextGen for its 
development and implementation? If so, how much will it be?

Q3b.  Do we know how much DHS plans to spend on NextGen for its 
development and implementation? If so, how much will it be?

A3a,b. The specific role of DHS in JPDO is to lead the Security Working 
Group and to develop an effective security system for the national 
airspace system (NAS) without limiting mobility or civil liberties. DHS 
carries out this role through its Transportation Security 
Administration (TSA). More specifically, DHS's task, through TSA, is to 
develop and implement a real-time network to share information with 
appropriate parties about passengers, cargo, and aircraft and to create 
a transparent set of security layers that will deliver security without 
causing undue delays, limiting access, or adding excessive costs and 
time.
    The specific role of DOD in JPDO is to lead the Net-Centric 
Operations Working Group and to establish user-specific situational 
awareness. Situational awareness means that each user of the NAS, 
including DOD and the civilian sectors, has the awareness needed to 
reach decisions through the creation of a combined information network. 
All users of the system will have access to the air transportation 
system data they require for their operations.
    The specific roles of both DHS and DOD in JPDO are related to the 
``curb-to-curb'' approach to air traffic management that Vision 100 
established for NextGen. Under this approach, JPDO envisions an 
expansion of the air transportation system that includes airport 
departures and arrivals as well as flights. The JPDO working groups, 
which evolved from FAA's former integrated product teams (IPT), focus 
on eight strategies, such as how to use weather information to improve 
the performance of the NAS. The working groups are composed of 
personnel from FAA, other federal agencies, and the private sector. 
Each of the working groups is headed by a steering committee under both 
a federal agency--in this case, DHS or DOD--and a private sector 
representative.
    We do not know how much either DOD or DHS plans to spend on 
NextGen. However, we are aware that DOD, FAA, and DHS each plan to 
provide $5 million for net-centric (i.e., a continuously-evolving 
network of information sharing and situational awareness) 
demonstrations. Both DOD and DHS also provide a variety of ``in-kind'' 
services through personnel assigned to the JPDO working groups and 
through the potential leveraging of mission-specific research that 
could support the development and implementation of NextGen.

Q4.  NextGen technologies will increase flight efficiency by means of 
automated flight operations and reduced separations.

Q4a.  Will this render the system more brittle against disturbances 
such as terrorism and equipment failure and acts of nature?

Q4b.  How will we ensure the continued safe operation of the system in 
the event of such disturbances?

A4a,b. NextGen technologies will not render the system more brittle 
than the current system. Although no system is 100 percent safe, GAO 
has not seen any data or other information indicating that the planned 
satellite based navigation system is more vulnerable to security 
threats than the current ground based radar system. JPDO's plans call 
for robust security system protocols and firewalls to increase 
protection, as well as sufficient redundancies within the system to 
reduce vulnerabilities and offset any disruptions. Security will exist 
in ``layers of defense'' designed for early detection of threats from 
terrorism, equipment failure, and natural disasters and will provide 
appropriate intervention. Additionally, although the system will become 
more automated, there will still be opportunities for human 
intervention if the system fails.

Questions submitted by Representative Ken Calvert

Implementation by Other Federal Partners

Q1.  In your written statement, when discussing the planning efforts of 
the JPDO partner agencies (exclusive of NASA and FAA), you stated that 
they are not as far along developing implementation plans and 
institutionalizing JPDO goals into their planning documents. Why is 
that? Does this reflect a lack of commitment?

A1. The current situation does not necessarily reflect a lack of 
commitment on the part of the partner agencies. JPDO partner agencies 
face competing mission and resource demands. In addition, NextGen is an 
extraordinarily complex undertaking, and some agencies are still 
learning to work collaboratively. By contrast, FAA and NASA have a long 
history of working with each other, and the core effort of JPDO is 
within their purview.
    The partner agencies will engage more collaboratively as NextGen's 
processes and mechanisms mature. For example, the Department of 
Transportation (DOT) was recently designated as the Managing Partner 
responsible for ensuring collaboration among the partner agencies in 
implementing NextGen-related research and development. DOT is also 
responsible for submission of the OMB 300 for the NextGen as a 
portfolio project after review by JPDO.\2\ JPDO's decision to develop a 
Memorandum of Understanding to broadly define the roles and 
responsibilities of the partner agencies is another positive step. 
Additionally, the extent to which Congress provides JPDO with the 
authority and resources it needs for program oversight will affect the 
nature and scope of the partner agencies' collaboration.
---------------------------------------------------------------------------
    \2\ Section 300 of OMB Circular No. A-11, Preparation, Submission, 
and Execution of the Budget (Nov. 2, 2005), sets forth requirements for 
federal agencies for planning, budgeting, acquiring, and managing 
information technology capital assets.

---------------------------------------------------------------------------
FAA Financing Proposal

Q2.  What would be the effect, if any, on the NextGen budget if 
Congress does not enact the Administration's proposed aviation 
financing reform package (ticket taxes; aviation fuel taxes) as part of 
a new authorization, but instead leaves the current ticket and fuel 
taxes in place?

A2. The current FAA funding structure can provide sufficient funding 
for NextGen--with some caveats. Congress has used the current funding 
structure--excise taxes plus a General Fund contribution--to fund FAA 
for many years. As the number of air travelers has grown, so have 
excise tax revenues. Even though revenues fell during the early years 
of this decade as the demand for air travel fell, they began to rise 
again in fiscal year 2004, and FAA estimates that if the current taxes 
remain in effect at their current rates, revenues will continue to 
increase. According to projections prepared by the Congressional Budget 
Office (CBO),\3\ revenues obtained from the existing funding structure 
will increase substantially. Assuming the General Fund continues to 
provide about 19 percent of FAA's budget, CBO estimates that through 
2016 the Airport and Airway Trust Fund (Trust Fund) can support about 
$19 billion in additional spending over the baseline FAA spending 
levels CBO has calculated for FAA (the fiscal year 2006 funding level, 
with projected growth for inflation) provided that most of the spending 
occurs after fiscal year 2010. How far this money will go to fund 
modernization is subject to a number of uncertainties--including the 
future cost of NextGen investments, the volume of air traffic, the 
future cost of operating the NAS, and the levels of future 
appropriations for the Airport Improvement Program, all of which 
influence the amount of funding available for FAA.
---------------------------------------------------------------------------
    \3\ Congressional Budget Office, Financing Investment in the Air 
Traffic Control System (Washington, D.C.: Sept. 27, 2006)
---------------------------------------------------------------------------
    However, if the desired level of funding exceeded what was likely 
to be available from the Trust Fund at current tax rates, Congress 
could make changes within the current structure to provide FAA with 
additional revenue. Congress could raise more revenue from airspace 
system users for NextGen or for other purposes by raising the rates on 
one or more of the current excise taxes. Congress could also provide 
more General Fund revenues for FAA, although the Nation's fiscal 
imbalance may make a larger contribution from this source difficult.

JPDO Organizational Authority

Q3.  Would GAO recommend any changes to the authorities and resources 
now provided to JPDO to enhance its effectiveness in coordinating the 
partner agencies, and if so, what would they be?

A3. Yes, providing JPDO with the authority and the resources to 
establish a program oversight capacity would enable JPDO to perform 
such functions as (1) harmonizing the enterprise architectures among 
the partner agencies; (2) coordinating the research, development, and 
systems-engineering and integration activities of the cooperating 
agencies and industry; (3) overseeing, with FAA, the selection of 
products or outcomes of research and development that would be moved to 
the next stage of a demonstration project through the Joint Resources 
Council (JRC); (4) overseeing the fundamental research activities that 
support the long-term strategic investments of NextGen by managing a 
research portfolio among NASA, academia, federally funded research and 
development centers and industry; and (5) maintaining a baseline 
modeling and simulation environment for testing and evaluating 
alternative concepts to satisfy NextGen enterprise architecture 
requirements.
    JPDO will need additional funding and staff to expand its role in 
coordinating the efforts of the partner agencies and working with the 
Office of Management and Budget as the principal NextGen point of 
contact.
    However, JPDO's dual reporting status hinders its ability to 
interact on an equal footing with ATO and the other partner agencies. 
Therefore, it is important for JPDO to have some independence from ATO. 
One change that could begin to address this issue would be to have the 
JPDO Director report directly to the FAA Administrator. This change 
might also lessen what some stakeholders now perceive as unnecessary 
bureaucracy and red tape associated with decision making and other JPDO 
and NextGen processes. As a part of any change in the dual reporting 
status of JPDO's Director, consideration could be given to the 
possibility of creating the position of Associate Administrator of 
NextGen and elevating the JPDO Director to that post. This would give 
greater credibility, authority, and visibility to this important 
position.

NASA's Role in JPDO

Q4.  Traditionally NASA has developed promising technologies to a high 
maturity level, enabling FAA to incorporate them into its air traffic 
control system without too much additional development. Now that NASA 
is confining its development work to a basic level of technical 
maturity, do FAA and the other federal partners have the resources and 
capability to fill this void?

A4. It is not clear whether FAA and the other federal partners have the 
resources and capability to fill this void. As your question indicates, 
the National Aeronautics and Space Administration (NASA) formerly 
conducted the type of intermediate research and development (R&D) and 
demonstration projects that will be needed for the NextGen program, but 
the funding for these efforts was discontinued when NASA's aeronautical 
research portfolio was restructured to focus more on fundamental 
research. Although FAA has not fully determined the impact of the NASA 
restructuring on the R&D needs for NextGen, some additional R&D funds 
will be needed and are critical for the timely development of NextGen. 
FAA recognizes that this is a critical issue and has already taken some 
action to address it. For example, in the President's fiscal year 2008 
budget request for FAA, funds have been included for developmental and 
transition research in the Facilities and Equipment (F&E) Activity 1 
account. In light of the NASA restructuring, FAA has also undertaken a 
study to assess the nature and scope of its NextGen R&D needs. 
According to JPDO officials, this study will be completed in August 
2007. More work remains to completely assess the research and 
development needs of NextGen and the ability of FAA and the other JPDO 
partner agencies to budget for and conduct the necessary initiatives. 
One way to fill an identified research and development need might be to 
make more use of the resources available at the FAA Technical Center in 
Atlantic City, New Jersey, and the FAA Aeronautical Center in Oklahoma 
City, Oklahoma.

Certification

Q5.  In his statement before the Subcommittee, the President and CEO of 
the Aerospace Industries Association, Mr. Douglass, expressed concerns 
about the time required to prototype, validate, and certify new 
technologies required for NextGen, in addition to the time required for 
rule-makings. Do you share Mr. Douglass's concerns? How much of a risk 
do these processes pose to the timely development of NextGen?

A5. Yes, we share Mr. Douglass's concerns. The time required to 
prototype, validate, and certify a technology can present a significant 
risk to the timely and cost effective implementation of NextGen. We 
have studied the lead times required to prototype, validate, and 
certify new technologies. JPDO or FAA do not currently have sufficient 
resources to prototype, validate, and certify new technologies, and 
cannot currently develop them internally without causing significant 
delays in the implementation of NextGen. In addition, stakeholders have 
expressed concern over the time it takes to develop rules for new 
equipment and the problems caused when equipment is fielded before 
rules are finalized. Any activities that will be required to implement 
new policies, demonstrate new capabilities, set parameters for the 
certification of new systems, and develop technologies will take time. 
Just as important, the time required to prototype, validate, and 
certify a new technology must be balanced against the need to ensure 
the reliability of the technology and the safety of the flying public.

Accountability

Q6.  In his statement before the Subcommittee, Mr. Douglass raised 
concerns about the potential lack of accountability and authority in 
the current JPDO structure, especially with regard to partner agencies. 
He recommends that each partner agency designate a senior-level 
official as the responsible individual for all NextGen-related 
programs. Do you share Mr. Douglass's concerns? Should agencies 
designate a senior program official?

A6. Yes, we share Mr. Douglass's concerns and further note that these 
fundamental leadership issues are exacerbated by the apparent 
inactivity of JPDO's Senior Policy Committee (SPC). This committee is 
responsible for overseeing the work of JPDO, but has met only four 
times in three years and has not convened as a body since November 
2005. The committee is chaired by the Secretary of Transportation and 
includes senior leaders from the partner agencies and the Director of 
the White House Office of Science and Technology Policy. SPC was 
established to provide policy guidance and review; make legislative 
recommendations; and identify and align resources. A more regular 
schedule of meetings and an agenda for SPC could lead to more 
participation and accountability on the part of the partner agencies.
    Additionally, assigning sole responsibility for supporting NextGen 
to a senior official from each agency would be a positive step. As a 
point of contact and coordinator for NextGen activities, that person 
should, within prescribed limits, have access to, and authority from, 
the SPC member from their agency to make decisions and act on behalf of 
their agency.
    Finally, to the extent that the pending Memorandum of Understanding 
(MOU) between the partner agencies defines the roles and 
responsibilities of each agency, it will, when signed, be a useful 
document for ensuring accountability.
                   Answers to Post-Hearing Questions
Responses by John W. Douglass, President and CEO, Aerospace Industries 
        Association of America

Questions submitted by Chairman Mark Udall

Q1.  The Aerospace Industries Association has stated its concern that 
the NGATS Institute, established to facilitate industry involvement in 
the JPDO, ``has not attained the extensive industry partnership that 
was envisioned.''

Q1a.  Could you please elaborate on the nature of your concerns?

A1a. The initial draft of the Concept of Operations (Con Ops) was 
drafted without meaningful input from the Integrated Product Teams 
(IPT), resulting in nearly 1,500 comments when it was released for 
comment. Due to this overwhelming response, completion of the Con Ops 
was further delayed. Had the IPTs been engaged in the process from the 
outset, the Con Ops may have been completed in a more reasonable 
timeframe.

Q1b.  What would you recommend be done?

A1b. With the delayed release of the Con Ops, AIA, in addition to 
numerous participating organizations, are calling for a closer 
coordination of working groups within the JPDO. Reorganization of the 
IPTs, with clear objectives demonstrated is a positive step which AIA 
applauds, will place an increased emphasis on systems engineering. At 
the same time, the JPDO requires additional resources to bring its 
system engineering, planning, and program management capabilities up to 
the level required to meet the Vision 100 objectives.

Q2.  The costs to users for equipage have been estimated at $14 to $20 
billion. NextGen can't be realized unless this investment is made.

Q2a.  Will incentives or mandates be required?

A2a. AIA believes that a business case for necessary equipage is 
necessary to allow timely operational and equipage decisions. 
Additionally, a combination of operational and perhaps financial 
incentives should be considered. Statutory requirements will be 
required to encourage full equipage. However, clear and unambiguous 
product development and certification standards will be required to 
obtain the required systems in a timely way. Numerous cargo operators 
and airlines have begun to implement technologies such as ADS-B in 
order to maximize operational efficiency.

Q2b.  What specifically needs to be done to ensure that a sustained 
commitment to NextGen exists in booth industry and government?

A2b. The JPDO and the partner agencies must achieve tangible results in 
the near future. Without which, Congress and industry partners will 
loose faith in the initiative. A clear plan must be developed, 
aggressively followed and we all must see satisfactory performance 
resulting from the plan. AIA is calling for increased accountability 
and adherence of all NextGen Partner Agencies to their responsibilities 
with the JPDO. Further, AIA requests that true performance metrics be 
developed, monitored, and reported to Congress by the [GAO/DOT Office 
of Inspector General] at least annually.

Question submitted by Representative Ken Calvert

NASA's Role in JPDO

Q1.  Traditionally, NASA has developed promising technologies to a high 
maturity level enabling FAA to incorporate them into its air traffic 
control system without too much additional development. Now that NASA 
is confining its development work level of technical maturity, does FAA 
and the other federal partners have the resources and capability to 
fill this void?

A1. As with many portions of the NextGen Initiative, timing is of the 
essence. If another agency were tasked with completing this work, 
substantial time would be lost as they spool up. Budget would have to 
be amended, facilities will likely need to be created or transferred 
and staff would have to be hired or transferred from NASA for the work 
to be preformed by another agency.
    Research and development (R&D) is key to the success of NextGen; 
however, NASA is the only agency capable to conducting the required 
R&D, particularly in the required timeframe. If the R&D 
responsibilities were to shift to another agency, the necessary spool 
up time would slow the modernization effort by many years. We believe 
NASA has been allocated an adequate budget to step up in 2007, and 
firmly believe they need to do so now.
                   Answers to Post-Hearing Questions
Responses by Bruce Carmichael, Director, Aviation Applications Program, 
        Research Applications Laboratory, National Center for 
        Atmospheric Research

Questions submitted by Chairman Mark Udall

Q1.  In your testimony you state ``It must be recognized that sustained 
and predictable aviation weather research funding at a significantly 
increased level is required in each of the JPDO stakeholder agencies.'' 
Is that fact recognized in each stakeholder agency? Which agencies do 
you consider to be the ``stakeholder'' agencies?

A1. Within each stakeholder agency their representatives and experts 
involved in the JPDO Weather initiative, clearly understand the need 
for sustained, predictable funding at a significantly increased level 
for aviation weather research. Senior management of these agencies has 
varying degrees of understanding of these needs and discussions are 
underway as the agencies formulate their FY 2009 budgets.. For example, 
Russ Chew, former COO of the FAA ATO, specifically identified 
convective weather as an especially critical area in need of attention 
as aviation traffic increases. General Johnson, Director of the 
National Weather Service and former head of the Air Force Weather 
Agency is supportive of the concept of a fully integrated forecasting 
system. The stakeholder agencies involved with the JPDO weather 
initiative are FAA, NOAA, NASA, and DOD.

Q1a.  How much would you recommend funding be increased in each agency 
for this research?

A1a. The FAA needs an increase of $40 million in its Research, 
Engineering and Development appropriation to be allocated among efforts 
to understand how to improve observations unique to aviation, to 
increase forecasting skill, to capitalize on the proposed Network 
Enabled Architecture, and to integrate weather information into 
automated decision support systems. NASA needs an increase of $30 
million, of which $10, million should augment the Science Directorate 
to support research on improving observations for aviation, and $20 
million to Aeronautics to support the integration of weather 
information into automated decision support tools in ground-based 
systems and aboard aircraft. NOAA and DOD each need an increase of $20 
million for aviation weather research and associated in-house staff 
resources to support the development of a seamless, joint modeling and 
forecast post-processing capability so that the United States 
Government can produce a single, global, authoritative 4D aviation 
forecast grid.

Q1b.  What determines how quickly NextGen weather capabilities can be 
incorporated into the National Airspace System? Are we waiting for a 
better understanding of weather, or the development or implementation 
of enabling technologies, or organizational decisions?

A1b. The most significant pacing factor for incorporation of NextGen 
weather capabilities into the National Airspace System is the 
establishment and execution of a joint program between the weather 
research community and the ATM automation research community. A 
collaborative program will advance understanding the nature of 
forecasts suitable for incorporation into a new generation of 
probabilistic ATM tools based on a decision theory approach to 
management of air traffic. Although there are significant advantages to 
developing a better understanding of weather, and enabling technologies 
such as improved observation platforms and faster supercomputers will 
move system performance in a positive direction, a clear organizational 
decision to move rapidly toward a much more highly automated system 
with weather fully integrated into the automation is currently the most 
critical need.

Q2.  Improved weather forecasting and forecast dissemination is an 
important part of the NextGen vision. It is estimated that 60-80 
percent of air traffic delays are weather related. Is the necessary 
research being conducted?

A2. The necessary research has been scaled back in the last several 
years, a victim of budget pressures and reprogramming of funds. Joint 
weather and ATM community research on how to seamlessly integrate 
improved weather information into a new generation of automated ATM 
decision support tools is barely funded. This is an effort that should 
begin at once as a joint effort between NASA, FAA, NOAA, DOD, and 
research laboratories such as Mitre, NCAR and MIT/LL. In addition, 
research to improve the skill of aviation weather forecasts has eroded 
since 9/11 because of continuing cuts in the FAA's Aviation Weather 
Research Program (AWRP) and the reprogramming of AWRP funding to meet 
other FAA objectives.

Q2a.  Which NextGen weather initiative do you consider to be the most 
challenging and why?

A2a. The correct forecasting of weather activity, whether for aviation 
or other purposes, will continue to be a challenge, but it is a 
challenge that the atmospheric research community is actively and 
continually engaged to meet. With continued research funding, each year 
the aviation weather forecasts will become more skillful. But we 
recognize that they will always be uncertain. The biggest challenge at 
the current time is to work together as weather researchers and ATM 
automation researchers to learn how to use weather information that is 
uncertain to make optimal deterministic decisions for management of the 
air transportation system.

Q2b.  There are many weather prediction tools and data formats. Who 
will decide between them for NextGen? For example, in your opening 
remarks you state that ``A high priority is the development of a 
consolidated summer and winter storm forecast system. . . A goal is to 
gradually merge 16 different forecasting systems so that by early in 
the next decade we will have a single system that utilizes the best-of-
the-best elements of today's technologies.'' Does the JPDO weather team 
have the clout to make that happen? After all, different groups may 
have made substantial investments in technologies that now they will be 
told to discard.

A2b. The foundational concept of NextGen Weather is that an automated 
ATM system is fully integrating the very best weather information 
available, to produce a common operating picture of the system, 
including weather. The system is facilitating all management decisions 
based upon this common operating picture. The JPDO cannot dictate 
systems and technologies to be discarded, but it can, and must, dictate 
how forecast information will be fused to form the NextGen Common 
Operating Picture for weather.

                                   

</pre></body></html>
